    RESOURCE MANAGEMENT OF
UNITED STATES ATTORNEYS’ OFFICES

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 09-03
            November 2008
                    RESOURCE MANAGEMENT OF
                UNITED STATES ATTORNEYS’ OFFICES

                            EXECUTIVE SUMMARY

        U.S. Attorneys are the principal litigators for the United States
government and oversee the operations of the 94 United States Attorneys’
Offices (USAO) located throughout the United States and its territories. 1 The
USAOs are responsible for investigating and prosecuting individuals who
violate U.S. criminal laws, representing and defending the United States in
civil litigation (including debt collection), and handling criminal and civil
appeals.

      The Executive Office for U.S. Attorneys (EOUSA) acts as a liaison
between the Department of Justice (DOJ or the Department) and the U.S.
Attorneys by forwarding direction and guidance from the Attorney General
and Deputy Attorney General to the USAOs. EOUSA also provides
management oversight and administrative support to the USAOs, which
includes allocating resources among USAOs and maintaining USAO resource-
related and casework databases.

      The U.S. Attorneys are responsible for handling litigation involving a
wide variety of criminal and civil matters. Examples of their criminal
responsibilities include narcotics trafficking, terrorism-related offenses, and
public corruption. Examples of their civil responsibilities include bankruptcy,
foreclosure, and medical malpractice matters. Given this broad spectrum of
responsibilities, U.S. Attorneys operate with a significant level of autonomy
in determining where to focus their office’s prosecutorial efforts within the
framework of the national priorities established by the Attorney General.
The number and types of matters handled by each USAO varies because of
the specific problems facing each jurisdiction.

      As of April 21, 2008, the USAOs employed 5,381 attorneys and
5,921 support personnel. The USAOs and EOUSA had a combined fiscal year
(FY) 2008 budget of $1.755 billion. According to EOUSA officials, when
including reimbursable funding the total budget managed by EOUSA was
approximately $2 billion.




      1
         The U.S. Attorney for the District of Guam also oversees the District of the
Northern Mariana Islands, resulting in 93 U.S. Attorneys for 94 USAOs. See Appendix II for
a map of USAOs.


                                           -i-
OIG Audit Approach

       This Office of the Inspector General (OIG) audit examined the
allocation of personnel resources among USAOs. The audit also reviewed
the criminal and civil areas to which USAO attorneys were allocated and
utilized, as well as the number and types of matters being addressed by the
94 USAOs across the country. The objectives of this audit were to:
(1) examine the accuracy and completeness of the data regarding USAO
resource utilization and cases, as well as to assess the process by which
personnel resources are allocated among USAOs; (2) determine the
allocation and utilization of attorneys within USAOs; and (3) determine the
changes in USAO casework from FY 2003 through FY 2007.

      In conducting this audit, we analyzed EOUSA data related to the
allocation of attorneys to USAOs, the actual utilization of these attorneys by
USAOs, and the cases worked by USAOs. We interviewed the EOUSA
Director, as well as senior management officials within the Director’s Office
and other staffs or divisions of EOUSA regarding the resource allocation
process, the cases worked by USAOs, and the various data systems
maintained by EOUSA. In general, our audit covered the period from
FYs 2003 through 2007. Appendix I contains a further description of our
audit objectives, scope, and methodology.

Results in Brief

      Our audit found that although funding and authorized full-time
equivalents (FTE) for EOUSA and the USAOs increased during our 5-year
review period, USAOs have experienced a significant gap between allocated
attorney FTEs and the number of FTEs that the USAOs are actually utilizing. 2
EOUSA attributes this significant gap to rising expenses and budget
constraints. Further, the average number of cases handled per USAO
attorney FTE increased from FYs 2003 to 2007.

      We also determined that the process used by EOUSA and the USAOs to
allocate personnel resources has weaknesses. Specifically, EOUSA does not
have reliable and specific data to make fully informed resource allocation
decisions and to use in reporting statistical data to others, including to the
Attorney General and Congress. According to EOUSA officials, several
attempts have been made to develop ways to better allocate resources
among USAOs, including the most recent effort performed by the Resource




      2
          One FTE equates to 2,080 work hours.


                                          - ii -
Allocation Working Group (RAWG). 3 However, EOUSA has not been able to
develop an objective process for determining the appropriate staffing levels
of USAOs, nor has it been able to develop a method for reallocating attorney
resources among USAOs.

       We found that EOUSA does not routinely perform comprehensive
reviews of attorney utilization or the types and number of USAO cases and
instead has relied on infrequent reviews of this information to determine the
efficiency and effectiveness of USAO operations. We believe that EOUSA
should perform analyses similar to the ones we present in our report to
ensure that it has the most accurate and up-to-date information possible
when making its management decisions.

       We concluded that weaknesses in the process for allocating personnel
resources to USAOs are mainly attributable to three issues: (1) the lack of
an objective staffing model, (2) the use of incomplete and inaccurate data
when making resource planning and allocation decisions, and (3) EOUSA’s
difficulty in reallocating existing resources between offices.

       EOUSA officials stated that they have made several attempts over the
years to objectively determine the resource needs of the USAOs. However,
they also acknowledged that these efforts have been unsuccessful in
creating a reliable and objective formula to determine the appropriate
staffing levels of USAOs.

       In addition, to assess USAOs’ resource needs and to allocate new
positions, EOUSA relies in part on personnel resource utilization data and
casework data that is accumulated and reported by each USAO. However,
we identified inconsistencies with the data and are concerned that EOUSA is
relying on inaccurate data to determine resource needs, allocate positions,
and respond to inquiries from the Attorney General, Congress, and the
public.

      According to EOUSA officials, another difficulty in more effectively
allocating limited personnel resources is EOUSA’s inability to reallocate
personnel from one district to another. EOUSA officials explained that
EOUSA’s attempts to reallocate positions among USAOs have been met with
opposition from several sources, including U.S. Attorneys, individual offices,
and the AGAC.

      3
         The RAWG, which is one of the Attorney General’s Advisory Committee’s (AGAC)
working groups, is composed of eight U.S. Attorneys. The AGAC, in turn, is comprised of
16 U.S. Attorneys and 1 AUSA and affords a mechanism for U.S. Attorneys to provide input
on DOJ policies, as well as advises the Attorney General on a variety of operational and
programmatic issues affecting U.S. Attorneys.


                                         - iii -
      In this audit, we also analyzed personnel utilization and casework data
to determine the types and number of cases within the USAOs. Based upon
our analyses, we found that from FY 2003 through FY 2007 USAOs, in total,
were utilizing fewer attorney FTEs on counterterrorism matters than were
funded by Congress for this purpose. In addition, although USAOs, in total,
expended more attorney FTEs than allocated to other areas, such as health
care fraud and Organized Crime Drug Enforcement Task Force (OCDETF)
matters, we identified individual USAOs that were not utilizing their entire
allotment of attorney FTEs as funded by Congress. 4 At the audit close-out
meeting, EOUSA officials stated that EOUSA and the USAOs have begun to
address the underutilization of personnel resources in particular prosecutive
areas.

       When assessing the casework of USAOs, we focused primarily on
criminal matters referred to USAOs during FYs 2003 through 2007, and we
determined the status of those matters as of September 30, 2007.
Specifically, we analyzed whether the matters were filed for prosecution,
declined, or remained in a pending status. The results of this analysis
differed among the various prosecutorial areas. For instance, in total, the
USAOs prosecuted a larger percentage of the referred narcotics, violent
crime, and immigration matters compared to other types of matters. In
addition, according to records in the National Legal Information Office
Network System (LIONS), a large percentage of the matters referred to
USAOs between FYs 2003 and 2007 – 35 percent – were considered to be
pending a decision whether to prosecute as of September 30, 2007. 5 Our
review also revealed that the criminal and civil caseloads per USAO attorney
FTE generally increased from FY 2003 to FY 2007.

      During our review, we determined that EOUSA does not routinely
examine the utilization of attorneys within the USAOs. EOUSA also does not
regularly perform evaluations of each USAO’s casework within all
prosecutorial areas. While EOUSA conducts district evaluations every 4 to
5 years that include utilization and casework assessments, we believe that




       4
         The OCDETF Program is a multi-agency effort created to identify, disrupt, and
dismantle the most serious drug trafficking and money laundering organizations, including
those primarily responsible for the nation’s drug supply.
       5
         The National LIONS, which is a centralized computer database that contains
information on the casework of all USAOs, is used by EOUSA to provide statistical
information to the Attorney General and Congress.



                                          - iv -
EOUSA should conduct more in-depth reviews of this type of data on a more
regular basis to assess how district offices are utilizing their resources. 6

      In our report, we make 10 recommendations to assist EOUSA in its
resource planning and allocation decisions, as well as in its management of
USAO operations. Our report, along with the appendices, contains detailed
information on the full results of our review of the USAOs’ resource
allocation. The remaining sections of this Executive Summary summarize in
more detail our audit findings.

Weaknesses in Resource Allocation

       As discussed in the following sections, we found weaknesses in the
allocation of USAO resources because EOUSA did not have necessary
information to make fully informed resource and planning decisions. Despite
its attempts to do so, EOUSA has been unable to develop a reliable and
objective quantitative model to use in evaluating the needs of individual
USAOs.

      When formulating its annual budget request and assessing USAO
resource needs, EOUSA considers data from two databases, the USA-5 and
LIONS. 7 EOUSA also uses this data to help decide where to place additional
attorney positions and to respond to inquiries from Congress, the Attorney
General, and the public. However, we found deficiencies in the data that call
into question its reliability. These deficiencies can affect EOUSA’s budget
requests, allocation process, and statistical reporting.

       Further, EOUSA has encountered difficulty in reallocating existing
positions among USAOs given the inherent independence of presidentially
appointed U.S. Attorneys and their general reluctance to willingly give up
attorney positions to be reallocated to other USAOs.

Unsuccessful Attempts to Assess Resource Needs

     Over the past several years, EOUSA has been unsuccessful in its
attempts to develop a formula to identify optimal resource levels for USAOs.

       6
          Because of budget limitations faced by the organization during our review period,
these district evaluations were occurring every 4 to 5 years. However, at the audit
close-out meeting EOUSA officials stated that these evaluations have resumed their triennial
cycle.
       7
        The USAOs use the United States Attorneys’ Monthly Resource Summary Reporting
System (referred to as the USA-5) to record USAO employees’ time. They use LIONS to
manage and record casework information.


                                           -v-
As a result, EOUSA has been unable to statistically justify the reallocation of
current USAO resources. EOUSA’s most recent attempt, which began in
April 2006, concluded that it was not feasible to develop a simple, reliable,
and objective formula for determining the appropriate staffing of USAOs.
Even if such a model were available, however, the EOUSA Director stated
that one of the AGAC’s working groups concluded that it would be politically
impractical to reallocate existing positions among USAOs.

Limitations of USAO Utilization Data

       We found weaknesses in the accuracy of self-reported USA-5 data on
USAO attorneys’ time. These weaknesses include the lack of consistency in
recording attorney time, minimal recording of time to specific categories,
and no standardized approach for entering time on cases that span several
different types of offenses.

      Assistant U.S. Attorneys (AUSA) are required to record time to the
USA-5, at a minimum, on a monthly basis although EOUSA encourages
USAO personnel to enter time on a daily basis. Discussions with USAO
personnel indicated that AUSAs generally enter their time in various
intervals, such as weekly or monthly. We believe that the probability of the
data being inaccurate is much greater when there is a significant span of
time between the actual work performed and the time those activities are
recorded.

      Further, AUSAs must record time to broad categories according to the
types of matters or cases on which they are working, such as violent crime.
The USA-5 system contains more specific categories, such as criminal gang
prosecution, which were established to report to the Department and
Congress the number of resources being utilized in various priority areas.
However, during our review of the USA-5 data we determined that AUSAs
generally do not record time to the more specific categories because it is not
mandatory to do so. Although EOUSA officials explained that not every case
requires use of such a specific category, we believe there is a significant
underutilization of the more specific category codes. We found that only
13 to 16 percent of total reported attorney FTEs was associated with any
specific category during any of the fiscal years in our review period.

       Another factor that may contribute to inaccurate USAO resource
utilization data is the lack of a standardized method for recording time to
cases involving multiple offenses. For example, in a day an AUSA may work
12 hours on a case associated with terrorism, narcotics, and fraud. Since
there is no standard approach to allocating time among these activities,
AUSAs can record time in a variety of ways, such as recording all 12 hours


                                       - vi -
only to fraud, or recording 4 hours to each of the three areas associated with
the case. As a result, the USA-5 may inaccurately depict AUSAs expending
more or less time on certain activities than was actually performed.

Limitations of USAO Casework Data

       The casework data contained in LIONS is generated at the USAO level,
and the classification of cases varies from one district to another. For
instance, two districts may each have a case involving firearms and drug
trafficking violations. One district may categorize the case as a drug
trafficking offense, while the other district may categorize it as a firearms
offense. EOUSA officials noted that the data contained in LIONS may
therefore be inconsistent and result in reporting imprecise information on
the number of specific types of cases being handled by USAOs.

       Additionally, we identified a lag between the time cases are actually
filed in court and when that information is entered into LIONS. According to
EOUSA officials, 30 days is a reasonable period of time in which to enter case
information into LIONS after a case filing. However, as reflected in the
following table, we found that 74,490 of the 254,481 cases (29 percent) filed
between FYs 2003 and 2007 exceeded this 30-day timeframe. EOUSA
officials offered various explanations for the delays, including resource
constraints leading to case entry backlog, as well as the possibility of delays
in receiving the necessary court documents.

  SPAN OF TIME BETWEEN CASE FILINGS AND ENTRY INTO LIONS
         Range          Number of Cases Percentage of Total 8
      1 to 30 Days         179,991            70.73%
     31 to 180 Days         53,521            21.03%
  181 Days to 365 Days      14,596             5.74%
      1+ to 2 Years         4,220             1.66%
      2+ to 5 Years         1,829             0.72%
     5+ to 10 Years          224              0.09%
  Greater than 10 Years      100               0.04%
          Total            254,481           100.01%
 Source: OIG analysis of LIONS data

Lack of Existing Resource Reallocation

       According to EOUSA officials, USAOs have historically maintained a
base level of attorney FTEs from one fiscal year to the next, and existing
positions are rarely moved from one office to another. EOUSA officials

      8
          Due to rounding, the percentages in this table total 100.01 percent.


                                           - vii -
provided several reasons they said contribute to EOUSA’s difficulty in
reallocating existing positions among USAOs. Due to this inability to
reallocate positions, some USAOs may be overstaffed while others may be
understaffed.

       However, attempts by EOUSA to move positions from one district to
another are generally met with opposition from several sources, including
U.S. Attorneys, individual offices, and the AGAC. In addition, EOUSA
officials said that positions are, at times, congressionally appropriated to
specific districts and EOUSA cannot, in turn, allocate those positions to other
USAOs.

       However, in congressional appropriation reports for FY 2002, EOUSA
was given the opportunity to redistribute resources among districts.
Specifically, the congressional reports associated with the Department’s
2002 appropriations language stated that “all previous congressional
guidance to the U.S. Attorneys regarding initiatives and the designation of
funds is waived.” Moreover, the Appropriations Committee stated that
EOUSA was free to distribute manpower and funding among the district
offices as it saw fit and directed EOUSA to submit a report on its proposed
actions by March 2002. However, according to an EOUSA official, EOUSA did
not submit a written report to the Appropriations Committees explaining its
actions; instead, according to this official, a verbal report was provided and
EOUSA did not reallocate any positions among USAOs. EOUSA officials said
Congress has not passed similar language regarding the redistribution of
resources since that time.

       EOUSA has attempted to alleviate some of its allocation-related issues
by assigning new positions to particular USAOs for a specified time period, at
the conclusion of which EOUSA re-evaluates the personnel resource needs of
that and other offices and determines if those positions should remain or be
reallocated to other USAOs. Moreover, EOUSA has conducted a more in-
depth assessment of district needs in specific priority areas before it
allocated these newly appropriated positions to address those specific
activities.

       While we believe EOUSA has taken steps to mitigate staffing
discrepancies among districts, we believe that EOUSA should enhance the
reliability of its resource utilization and casework data so that it is able to
more effectively assess and allocate resources among USAOs according to
their needs.




                                     - viii -
Utilization of USAO Resources

      USAO attorney resources are measured in FTEs. The number of FTEs
assigned to an office by the Department is called its allocated amount, while
the actual use of those resources as tracked through the USA-5 time
reporting system is referred to as utilization.

      We determined that the number of attorney FTEs allocated to USAOs
rose slightly throughout our review period – increasing from 5,459 attorney
FTEs in FY 2003 to 5,708 in FY 2007, an increase of 5 percent, as depicted in
the following graph.

                TOTAL ATTORNEY FTEs ALLOCATED TO USAOs
                         FYs 2003 THROUGH 2007




                    Source: OIG analysis of EOUSA Resource Management and
                            Planning Staff data

       In addition, we compared the allocation and utilization of attorney
FTEs within each USAO throughout our review period and found that, in
total, USAOs were utilizing fewer attorney FTEs than allocated during each
fiscal year of our review period, as reflected in the following graph. EOUSA
officials attributed this shortfall primarily to budget limitations, which
prevented USAOs from actually filling positions allocated to them. As
discussed below, we also determined that several USAOs were not utilizing
attorney resources in accordance with the funding provided for specific
activities, including counterterrorism, health care fraud, and OCDETF. 9

       9
            As mentioned above, we identified several concerns with the accuracy and
reliability of the USAOs’ personnel utilization and casework data. While these concerns may
affect the analyses we performed, we believe the overall results presented have utility for
examining the activities of the U.S. Attorney organization. Further, this data is the only
utilization and casework data available for purposes of our audit and is used and relied upon
by EOUSA.


                                           - ix -
       COMPARISON OF ALLOCATED AND UTILIZED ATTORNEY FTEs
                     FYs 2003 THROUGH 2007




         Source: OIG analysis of EOUSA Resource Management and Planning Staff and USA-5 data


       According to EOUSA officials, this underutilization occurred primarily
because USAOs had limited budgets to address annual rising costs, such as
cost-of-living adjustments and increases in rent. In addition, EOUSA stated
that it could not fully fund all of its reimbursable positions with the money
provided for these positions. EOUSA explained that it had to supplement
reimbursable funding with its own direct appropriations because the
reimbursable funding remained constant during our review period while
costs increased. As a result, these officials stated that USAOs did not have
adequate funds remaining to fill vacant positions, even though the positions
were allocated to the offices.

      We found, however, that the gaps between allocated and utilized
attorney FTEs were mitigated when the additional hours worked by attorneys
in excess of a standard 40-hour work week were factored into our
evaluation, as illustrated in the following graph. When combining these
additional attorney work hours to the regular time charged by attorneys, the
USAOs actually utilized a greater number of attorney FTEs than allocated
throughout our review period. Thus, the previously discussed gaps between
allocated and utilized attorney FTEs were absorbed by existing attorneys
recording more hours. However, even when including these additional




                                          -x-
hours, the overall utilization of attorney FTEs was still less in FY 2007
(5,982 FTEs) than it was in FY 2003 (6,274 FTEs).

                   COMPARISON OF ATTORNEY FTEs
                ALLOCATED, UTILIZED, AND ADDITIONAL
                      FYs 2003 THROUGH 2007




        Source: OIG analysis of EOUSA Resource Management and Planning Staff
                and USA-5 data

Increase in USAO Unused Attorney FTEs

       We also examined the percentage gap between allocated and utilized
attorney FTEs (excluding additional time recorded by attorneys) of USAOs by
office size and found that the gaps within all groups generally increased from
FYs 2003 to 2007, as shown in the following table. 10 As the table illustrates,
large and extra-large offices were affected more than smaller offices.




       10
          EOUSA categorizes offices based upon the allocated attorney staff levels. During
our review period, EOUSA used the following distinctions: (1) extra-large (greater than or
equal to 100 attorneys), (2) large (between 45 and 99.9 attorneys), (3) medium (between
25 and 44.9 attorneys), and (4) small (less than 25 attorneys).


                                          - xi -
           PERCENTAGES OF USAO UNUSED ATTORNEY FTEs
                    FYs 2003 THROUGH 2007
   USAO Category       FY 2003     FY 2004      FY 2005   FY 2006     FY 2007
   Extra-large          4.11%       4.56%        5.79%    11.62%      14.50%
   Large                3.33%       2.45%        4.92%     7.54%       9.18%
   Medium               2.58%       1.81%        4.46%     4.60%       6.28%
   Small                3.41%       3.40%        4.23%     5.39%       5.85%
   Source: OIG analysis of EOUSA Resource Management and Planning Staff and
           USA-5 data

“Burn” Rates

      Additionally, we analyzed the “burn” rates of attorney FTEs in various
prosecutorial areas to determine if USAOs were utilizing resources in
accordance with the specific activities for which funding was provided by
Congress. EOUSA uses the term “burn” rate to refer to the difference
between allocated resources and actual utilized resources. An “overburn”
occurs when more resources are utilized than allocated. In turn, an
“underburn” occurs when fewer resources are utilized than allocated.

      We limited our burn rate analyses to counterterrorism, firearms, health
care fraud, and OCDETF because these are specific areas in which EOUSA
separately tracks both the allocation and utilization of attorney FTEs.

      Based upon this analysis, we determined that USAOs expended fewer
attorney FTEs on counterterrorism matters than were allocated for this
purpose. Specifically, as reflected in the following chart, between 189 and
204 attorney FTEs were utilized annually on counterterrorism matters during
FYs 2003 through 2005, while USAOs were allocated a total of 250 attorney
FTEs for counterterrorism matters during the same time period.




                                      - xii -
               COMPARISON OF ATTORNEY FTEs
   ALLOCATED AND UTILIZED ON COUNTERTERRORISM MATTERS
                  FYs 2003 THROUGH 2007

                       Allocated FTEs     Regular & Additional FTEs Utilized

      350

      300

      250

      200

      150

      100

       50

        0
             FY 2003       FY 2004        FY 2005          FY 2006         FY 2007

     Source: OIG analysis of EOUSA Resource Management and Planning Staff and
             USA-5 data

        In FY 2006, an additional 43 attorney FTEs were allocated for
counterterrorism work, resulting in a total of 293 attorney FTEs for this
initiative during FYs 2006 and 2007. However, our analyses revealed that
USAOs continued to utilize approximately the same number of attorney FTEs
on counterterrorism matters in FYs 2006 and 2007 as they had in FYs 2003
through 2005. During the audit close-out meeting, the EOUSA Director
explained that due to the timing of the FY 2006 appropriations, these
additional counterterrorism attorney FTEs would not have been captured (or
utilized) until FY 2007 or later.

      The EOUSA Director informed us that EOUSA had recently become
aware of this underutilization and reported the matter to the Deputy
Attorney General. The EOUSA Director further explained that he believed a
portion of this underburn was caused by inaccurate time reporting by
AUSAs, as well as fewer terrorism-related matters being referred by
investigative agencies than had been referred in the past. He stated that he
is working to enhance the AUSAs’ time reporting and ensure that USAOs are
expending appropriate resources in priority areas.

       In contrast to our review of counterterrorism burn rates, throughout
our review period USAOs, in total, utilized more attorney FTEs than were
allocated on firearms, health care fraud, and OCDETF matters. Burn rates for
all district offices in these areas can be found in Appendices VII through X.


                                        - xiii -
Lack of Comprehensive Resource Review

       Through discussions with EOUSA officials, we determined that EOUSA
does not regularly perform comprehensive reviews of the use of attorney
resources in USAOs. Instead, EOUSA, with assistance from USAOs,
performs periodic district office evaluations, called Evaluation and Review
Staff (EARS) reviews, which include an assessment of the personnel
resources utilized on priority areas. 11 While these evaluations are intended
to be conducted every 3 years, according to EOUSA officials, during the
period that we reviewed recent budget limitations resulted in the evaluations
being conducted every 4 to 5 years.

       Because EOUSA relies primarily on these evaluations to obtain detailed
information about USAOs’ resource usage, EOUSA does not have an accurate
perception of how many and what kind of resources USAOs are utilizing from
one fiscal year to the next in specific areas, such as counterterrorism and
OCDETF. This makes it difficult for EOUSA to determine what resources a
district may need, as well as whether districts are using resources in
accordance with the specific purpose for which they were allocated.

       EOUSA executive management informed us they were aware of this
deficiency and said they plan to develop and implement a model in which
this information would be routinely collected and reviewed for all district
offices. We believe that such a model would provide critical information and
allow EOUSA to review USAO resource allocation and utilization data on a
more objective and frequent basis. However, EOUSA must also address the
deficiencies affecting the reliability of the USA-5 data on which the model
will rely. In addition, we recommend that EOUSA include in its new model
an analysis of USAO burn rates to ensure the expected number of resources
is being utilized as intended.

USAO Casework

      When a law enforcement agency presents information about an
investigation to a USAO, the USAO records this information in LIONS as a
“matter referred.” The matter then becomes a “case” in LIONS once the
USAO files an indictment or information in court.

      USAOs handle a wide variety of criminal and civil matters, and
according to EOUSA and USAO officials, several factors affect the type of
      11
            EOUSA monitors the activities of USAOs through a formal evaluation process
overseen by its Evaluation and Review Staff (EARS). Among other things, the EARS
reviewers examine whether USAOs are following DOJ polices and the Attorney General’s
priorities in their allocation of prosecutive resources.


                                         - xiv -
cases worked by USAOs, including national and district priorities, availability
of resources, complexity of cases, and changes in priorities within
investigative agencies.

      We determined that from FYs 2003 through 2007, 554,675 criminal
matters were referred to USAOs. We analyzed this data as of
September 30, 2007, to determine how many matters were filed for
prosecution, declined, or were still pending. From FYs 2003 through 2007,
424,538 civil matters were referred to USAOs. We analyzed these matters
to determine if any matters were still pending as of September 30, 2007.

Criminal Casework

       In total, the USAOs filed for prosecution approximately 50 percent of
all criminal matters referred between FYs 2003 and 2007 and declined
13 percent of the total matters referred. As of September 30, 2007, the
remaining 35 percent were still pending a decision whether or not to
prosecute. Of the 196,906 pending matters, 54,127, or nearly 30 percent,
had been in a pending status for at least 3 years as shown in the following
graph.




                                     - xv -
            TOTAL CRIMINAL MATTERS REFERRED TO USAOs 12
                      FYs 2003 THROUGH 2007




      Source: OIG analysis of LIONS data

       When we presented this information to EOUSA officials, they were
surprised at the large number of pending matters, particularly the large
number of cases in pending status for such long periods of time, and said
they were unable to fully explain this data without reviewing individual district
files. We therefore judgmentally selected a limited sample of 50 pending
matters from several different USAOs and requested that these USAOs notify
us whether the matters were, in fact, pending. According to the USAOs’
responses, 44 percent of the matters we tested were accurately reflected as
awaiting a decision to prosecute as of September 30, 2007 – half of which
were referred to USAOs between FYs 2003 and 2005. However, the
remaining 56 percent of matters in our sample were not actually in pending
status. Instead, the USAOs explained that many of these matters had been
prosecuted and the defendants sentenced prior to September 30, 2007.


       12
           This graph illustrates the total number of criminal matters referred during each
fiscal year of our review period and the action taken on those matters from the time they
were referred to the end of our review period (FY 2007). For example, in FY 2004,
115,983 criminal matters were referred to USAOs. Between FYs 2004 and 2007, 60,824 of
the 115,983 matters were filed for prosecution and 19,363 were declined. The remaining
35,796 remained pending as of September 30, 2007.


                                          - xvi -
      When discussing this data with EOUSA officials, they provided a variety
of reasons as to why some of the matters in our sample would have had
subsequent case filings and terminations in the districts’ LIONS that were
not reflected in the National LIONS. For instance, EOUSA officials explained
that the National LIONS was not capturing all cases filed by districts due to
an error in the transmission process. EOUSA officials also stated that some
matters may have been terminated without a case having been filed because
they were handled in a certain court setting, such as magistrate court, but
that these actions were not reflected in LIONS as case filings.

       EOUSA officials further stated that EOUSA does not check the accuracy
of the data in the National LIONS by comparing it to what was transmitted
from the USAOs or what is reflected in the LIONS databases accessible in the
district offices. EOUSA officials stated that EOUSA instead relies upon data
certifications performed semiannually by district offices. However, these
certifications are done in the districts and address only the data that the
districts submit to EOUSA, not what is ultimately stored in the National
LIONS, and our work shows that these data sets are inconsistent. We
believe that this analysis has revealed significant concerns over the accuracy
and reliability of LIONS data.

      We also assessed criminal casework in each USAO for each
prosecutorial area we reviewed. These individual USAO criminal casework
analyses are contained within Appendices XI through XIX.

Civil Casework

      The USAOs received 9,118 fewer civil referrals during FY 2007 than
during FY 2003 – decreasing from 89,961 matters in FY 2003 to
80,843 matters in FY 2007. Unlike criminal casework, USAOs do not record
declinations of civil matters because USAOs must accept the majority of civil
matters referred, which involve defensive litigation where the USAOs defend
the U.S. government.

      As a result, our analyses of civil casework assessed the number of civil
matters filed or pending as of September 30, 2007. We found that the
percentage of civil matters filed remained relatively steady throughout our
review period – ranging from 87 to 90 percent of all civil matters referred
during each of the 5 fiscal years under review.

Casework per Attorney FTE

      Using USAO case data, we computed the average caseload per
attorney FTE for FYs 2003 through 2007. As shown in the following graph,


                                   - xvii -
the average number of cases per attorney FTE generally increased
throughout our review period.

    AVERAGE NUMBER OF TOTAL CASES PER USAO ATTORNEY FTE
                  FYs 2003 THROUGH 2007




         Source: OIG analysis of LIONS data

Lack of Comprehensive Casework Review

      As with the utilization of attorneys, we found that EOUSA does not
routinely receive reports that provide a comprehensive assessment of the
number and types of cases handled by each USAO. As discussed previously,
EOUSA generally monitors USAO casework and workloads as part of the
EARS evaluations of offices, which are to be performed every 3 years.
However, during the period that we reviewed, evaluations generally occurred
every 4 to 5 years.

      Besides these evaluations, the Data Analysis Staff at EOUSA analyzes
USAO data on an ad hoc basis when it receives a request, and it also
compiles an annual statistical report that provides details on the entire
caseload of individual USAOs. However, EOUSA’s annual statistical report
does not include specific caseload information for the districts, such as the
number of narcotics trafficking cases filed by each USAO.

     EOUSA informed us that it intends to implement a method to routinely
examine the casework of all 94 USAOs instead of continuing to rely mainly
upon peer evaluations. As explained by the EOUSA Director, EOUSA intends


                                      - xviii -
to develop a method to examine the resource management of each USAO on
a consistent basis and will provide measurable results, including various
casework and caseload statistics. We believe that such an effort is
important, and we recommend that this review include analyses similar to
those that we performed.

Conclusion and Recommendations

       We found weaknesses in the process used by EOUSA and the USAOs to
allocate personnel resources. EOUSA has not developed an objectively
sound statistical model to determine the optimal staffing levels for USAOs.
In addition, while data from the USA-5 and LIONS are considered by EOUSA
in resource planning and allocation decisions, as well as in responding to
inquiries from the Department and Congress, we identified substantial
deficiencies in the data that calls into question its accuracy and reliability.
Additionally, EOUSA generally does not reallocate positions from one USAO
to another for a variety of reasons. Most importantly, one of those reasons
is opposition from several sources, including USAOs that strongly oppose
losing any resources from their offices.

      We found that USAOs, in total, utilized fewer attorney resources than
intended for counterterrorism matters during each fiscal year of our review
period. The EOUSA Director stated that this underutilization was partially
caused by inaccurate time reporting by USAO attorneys and partially due to
investigative agencies not bringing as many terrorism-related matters to the
USAOs as they had in the past.

       EOUSA conducts evaluations of individual USAOs that include an
assessment of USAO resources utilized on certain prosecutorial areas, as
well as a review of USAO casework and workloads. According to EOUSA
officials, these evaluations are to be conducted on a triennial basis, but have
recently occurred less frequently because of budget limitations. Rather than
waiting for an extended period of time to collect detailed data on district
activities, we believe that EOUSA should regularly collect and review
resource utilization and casework data for all USAOs to ensure effective
resource management within district offices.

     Our audit work and findings resulted in 10 recommendations to assist
EOUSA in its resource planning and allocation decisions, as well as in
overseeing the operations of USAOs. Our recommendations include
implementing policies and processes to assist in improving the accuracy of
USAO data, as well as recommendations for EOUSA to regularly conduct
comprehensive reviews on the utilization of attorney resources and USAO
casework.


                                    - xix -
                     RESOURCE MANAGEMENT OF
                 UNITED STATES ATTORNEYS’ OFFICES

                                TABLE OF CONTENTS

CHAPTER 1: INTRODUCTION ........................................................... 1
Organizational Structure ...................................................................... 1
Budget Overview................................................................................. 3
Prior Reviews ..................................................................................... 4
OIG Audit Approach............................................................................. 5

CHAPTER 2: WEAKNESSES IN RESOURCE ALLOCATION ................... 6
USAO Personnel Resource Allocation Process........................................... 6
Time Reporting Process........................................................................ 8
Casework Reporting Process ................................................................. 9
Concerns with Resource Allocation....................................................... 10
Conclusion ....................................................................................... 18
Recommendations............................................................................. 19

CHAPTER 3: UTILIZATION OF ATTORNEY RESOURCES................... 20
Overall Utilization of Attorney Resources .............................................. 20
EOUSA Monitoring of Attorney Utilization .............................................. 33
Conclusion ....................................................................................... 34
Recommendation .............................................................................. 35

CHAPTER 4: USAO CASEWORK ....................................................... 36
Factors Affecting USAO Casework ........................................................ 36
USAO Criminal Casework.................................................................... 37
USAO Civil Casework ......................................................................... 51
Criminal and Civil Casework per Attorney FTE ....................................... 53
EOUSA Monitoring ............................................................................. 55
Conclusion ....................................................................................... 55
Recommendation .............................................................................. 56

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 57

APPENDIX II: MAP OF USA DISTRICT OFFICES.............................. 65

APPENDIX III: USAO ACRONYMS................................................... 66

APPENDIX IV: USA-5 PAPER FORM ................................................ 67

APPENDIX V: TOTAL USAO ATTORNEY UTILIZATION..................... 71
APPENDIX VI: UNUSED USAO ATTORNEY FTEs .............................. 74

APPENDIX VII: COUNTERTERRORISM BURN RATES....................... 77

APPENDIX VIII: HEALTH CARE FRAUD BURN RATES...................... 80

APPENDIX IX: OCDETF BURN RATES.............................................. 83

APPENDIX X: FIREARMS BURN RATES ........................................... 86

APPENDIX XI: TERRORISM-RELATED CASEWORK .......................... 89

APPENDIX XII: NARCOTICS CASEWORK ........................................ 93

APPENDIX XIII: VIOLENT CRIME CASEWORK ................................ 97

APPENDIX XIV: WHITE COLLAR CRIME CASEWORK..................... 101

APPENDIX XV: CRIMINAL IMMIGRATION CASEWORK ................. 105

APPENDIX XVI: PUBLIC CORRUPTION CASEWORK ...................... 109

APPENDIX XVII: ORGANIZED CRIME CASEWORK ........................ 113

APPENDIX XVIII: CIVIL RIGHTS CASEWORK ............................... 117

APPENDIX XIX: ALL OTHER CRIMINAL CASEWORK...................... 121

APPENDIX XX: CIVIL MATTERS BY USAO ..................................... 125

APPENDIX XXI: CASELOADS PER ATTORNEY FTE ......................... 129

APPENDIX XXII: EXECUTIVE OFFICE FOR
               U.S. ATTORNEYS RESPONSE ............................. 132

APPENDIX XXIII: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                 AND SUMMARY OF ACTIONS NECESSARY TO
                 CLOSE THE REPORT ........................................ 139
                       CHAPTER 1: INTRODUCTION

      The U.S. Attorneys are the principal litigators of the United States
government and are responsible for handling litigation involving a wide
variety of criminal and civil matters. Examples of criminal matters they
handle include narcotics trafficking, terrorism, and public corruption
offenses. Examples of civil matters include bankruptcy, foreclosure, and
medical malpractice cases. U.S. Attorneys must decide where to focus their
prosecutorial efforts, within the framework of the national priorities
established by the Attorney General. Therefore, the criminal and civil
casework of individual district offices differ based upon a variety of factors.

      The purpose of this review was to evaluate the accuracy and
completeness of the United States Attorneys’ Offices’ (USAO) utilization and
casework data to determine if decision-makers were utilizing reliable
information during the budget and resource allocation processes, as well as to
assess the process by which human resources are allocated among the various
USAOs. In addition, we identified the criminal and civil areas to which
attorneys were allocated and utilized during fiscal years (FY) 2003 through
2007. We also reviewed the changes occurring between FYs 2003 and 2007 in
the type and number of criminal and civil matters addressed by USAOs.

Organizational Structure

      Ninety-four USAOs are located throughout the United States,
Puerto Rico, the Virgin Islands, Guam, and the Northern Mariana Islands. 13
Each USAO is headed by a U.S. Attorney who is appointed by the President
and confirmed by the Senate. The U.S. Attorney serves as the district’s
principal litigator under the direction of the Attorney General. USAOs are
responsible for investigating and prosecuting individuals who violate U.S.
criminal laws, representing and defending the United States in civil litigation
(including debt collection), and handling both criminal and civil appeals. As
of April 21, 2008, the USAOs employed 5,381 U.S. Attorneys and Assistant
U.S. Attorneys (AUSA) and 5,921 support personnel.

     The Attorney General, through the Deputy Attorney General, directs
the work of the U.S. Attorneys, and the Executive Office for U.S. Attorneys
(EOUSA) acts as a liaison between the Department of Justice (DOJ or the
Department) and the U.S. Attorneys. Each U.S. Attorney operates with a

      13
         The U.S. Attorney for the District of Guam also oversees the District of the
Northern Mariana Islands, resulting in 93 U.S. Attorneys for 94 USAOs. See Appendix II for
the geographical boundaries of the USAOs and Appendix III for the acronyms of each USAO.
   significant level of autonomy, while EOUSA provides management oversight
   and administrative support to the USAOs, including general executive
   assistance and direction and policy development. EOUSA officials stated that
   EOUSA does not instruct individual USAOs how to focus their prosecutorial
   efforts.

          The following chart illustrates EOUSA’s operational structure. As of
   April 21, 2008, the various operational units within EOUSA were comprised
   of 36 attorneys and 237 support staff, primarily in Washington, D.C. During
   FY 2008, the enacted budget for the entire U.S. Attorney organization,
   including the USAOs and EOUSA, was $1.755 billion. According to EOUSA
   officials, when including reimbursable funding the total budget managed by
   EOUSA was approximately $2 billion.

                               EXHIBIT 1-1
                        EOUSA OPERATIONAL CHART
                            (as of March 2008)




Source: EOUSA




                                      -2-
Monitoring

       EOUSA monitors the activities of USAOs through a formal evaluation
process overseen by its Evaluation and Review Staff (EARS), which conducts
peer evaluations of individual district offices. 14 EARS attempts to perform an
evaluation of each USAO every 3 years. However, according to EOUSA
officials, during the period that we reviewed, due to recent budget
constraints, the evaluation cycle had occurred about every 4 to 5 years.
However, at the audit close-out meeting, EOUSA officials stated that these
evaluations have resumed their triennial cycle.

      Among other things, the EARS reviews examine each USAO’s
compliance with EOUSA management standards regarding criminal and civil
workload. The EARS process is also used to assess how well USAOs are
following DOJ polices and the Attorney General’s priorities.

Budget Overview

       EOUSA coordinates with the Attorney General's Advisory Committee
(AGAC) in formulating a budget submission for all USAOs. 15 During this
process, the AGAC reviews the Attorney General’s priorities, USAO casework
and utilization data, and any new legislation affecting USAO workload. From
this review, the AGAC provides its recommendations on resource needs to
EOUSA for consideration during budget formulation. This information,
including a draft budget, is then presented to the EOUSA Director for review
and approval before the final submission is made to DOJ. The following
table depicts the amounts requested and enacted for USAOs during FYs 2003
through 2008.




       14
         EARS reviews are conducted jointly by EARS and USAO personnel, including
experienced AUSAs from other districts.
       15
         The AGAC, which is comprised of 16 U.S. Attorneys and 1 AUSA: (1) provides a
mechanism for U.S. Attorneys to provide input on DOJ policies, and (2) advises the Attorney
General on a variety of operational and programmatic issues affecting U.S. Attorneys.

                                          -3-
                             EXHIBIT 1-2
    U.S. ATTORNEY FUNDING AND FULL-TIME EQUIVALENT (FTE)
            REQUESTS AND ENACTED APPROPRIATIONS
                       FYs 2003 THROUGH 2008
        Amount Requested
          in President’s       Amount      FTEs Requested
Fiscal        Budget           Enacted      in President’s   FTEs
Year       (in billions)     (in billions)      Budget     Enacted
2003          $1.489            $1.506          11,022      11,372
2004          $1.557            $1.525          11,542      11,540
2005          $1.548            $1.542          11,699      11,628
2006          $1.626            $1.589          11,920      11,631
2007          $1.664            $1.655          11,722      11,687
2008          $1.748            $1.755          11,938      11,787
Source: DOJ and EOUSA budget documents

Prior Reviews

       No recent reports by the Government Accountability Office (GAO) and
the DOJ Office of the Inspector General (OIG) have examined USAO
resource management. However, we identified two reports – one GAO-
report issued in FY 2004 and one OIG report issued in FY 2007 – pertaining
to the accuracy of federal prosecution data, particularly terrorism-related
statistics reported by DOJ. The GAO concluded that DOJ does not have
sufficient management oversight and internal controls in place to ensure the
accuracy and reliability of EOUSA’s terrorism-related statistics. 16
Specifically, the GAO stated that approximately 46 percent of the FY 2002
terrorism-related convictions were misclassified.

      The OIG’s February 2007 review examined the reporting of terrorism-
related statistics by three DOJ components, including EOUSA. 17 The OIG
report found that EOUSA and the USAOs did not accurately report the
11 terrorism-related statistics that were reviewed, including the number of
terrorism-related convictions and the number of terrorism and anti-terrorism
cases terminated against defendants. The OIG report also found that, in
general, EOUSA and the USAOs had not established effective internal control
procedures for verifying the accuracy of the Legal Information Office
Network System (LIONS) data to ensure statistics reported based on LIONS

       16
          U.S. Government Accountability Office. Justice Department: Better Management
Oversight and Internal Controls Needed to Ensure Accuracy of Terrorism-Related Statistics,
GAO-03-266 (January 17, 2003).
       17
           U.S. Department of Justice Office of the Inspector General, The Department of
Justice’s Internal Controls Over Terrorism Reporting, Audit Report 07-20 (February 2007).

                                           -4-
data were accurate. Finally, the OIG report concluded that EOUSA’s
definition of terrorism-related program activity was not clear. EOUSA has
taken corrective action, and all of the OIG’s recommendations to the agency
have been closed.

OIG Audit Approach

     The objectives of this audit were to:

     (1)   examine the accuracy and completeness of USAO utilization and
           casework data, as well as assess the process by which personnel
           resources are allocated to USAOs;

     (2)   determine the allocation and utilization of attorneys within
           USAOs; and

     (3)   determine the changes in USAO casework from FY 2003 through
           FY 2007.

      To accomplish these audit objectives, we reviewed EOUSA data related
to the allocation of attorneys to USAOs, the actual utilization of these
attorneys, and the USAOs’ casework for FYs 2003 through 2007. In
addition, we interviewed EOUSA officials, including the Director and other
senior management within the Director’s Office, regarding the allocation
process, USAO priorities, and the performance of USAOs.

       Chapters 2 through 4 present an overview of our audit results, while
the audit scope and methodology are presented in Appendix I. In Chapter 2,
we examine the methods for collecting utilization and casework data, and we
assess the reliability of this data. We also discuss EOUSA’s process for
allocating human resources among the USAOs. Chapter 3 focuses on the
utilization of attorneys in comparison to USAO allocated staffing levels. In
Chapter 4, we examine the criminal and civil matters referred to USAOs,
including the number of matters filed, declined, or pending, as well as the
average caseload per attorney FTE.




                                    -5-
   CHAPTER 2: WEAKNESSES IN RESOURCE ALLOCATION

      We found that the process used by EOUSA and the USAOs to
      allocate personnel resources has weaknesses. For example,
      EOUSA does not regularly collect reliable and specific data to
      make fully informed resource allocation decisions and to use in
      reporting statistical data to others, including to the Attorney
      General and Congress. We also found data inconsistencies in the
      systems used to record time and casework information, which
      occurred because the time and case reporting guidance for USAO
      employees were too general and implementation of the guidance
      varied among USAOs. In addition, EOUSA has not developed a
      process to objectively determine the appropriate staffing levels
      of individual USAOs. Moreover, EOUSA generally had difficulty
      reallocating positions from one USAO to another for a variety of
      reasons.

USAO Personnel Resource Allocation Process

       EOUSA informed us that its first priority in distributing appropriated
funding is to support the historic base-level of attorney resources among
USAOs. According to EOUSA officials, each USAO has been authorized a
base level of funding for attorneys that is generally maintained from one
fiscal year to the next. EOUSA does not reexamine this base FTE level for
each office on a regular basis. However, these base levels may be increased
when additional resources are provided to EOUSA.

       If the annual appropriation provides for additional USAO positions,
EOUSA notifies the district offices via a memorandum explaining the type of
positions available and the criteria to be considered in determining where to
place the resources. Those interested USAOs submit a response to EOUSA
explaining the reasons why the district should receive additional positions,
including any related data supporting its request. EOUSA, in turn, reviews
these responses, formulates basic recommendations, and forwards this
information along with other district-specific data to the Resource Allocation
Working Group (RAWG). 18 This working group reviews the district
submissions, as well as EOUSA-provided data and input, revises EOUSA’s
recommendations as it deems necessary, and forwards that information to
the EOUSA Director, who reviews and makes any necessary revisions to the
proposed allocations. The recommendations are then provided to the

      18
          The RAWG, which is one of the AGAC’s working groups, is composed of eight U.S.
Attorneys.

                                         -6-
Deputy Attorney General, who determines where to place any new positions
among the USAOs.

    The following diagram illustrates the current process for allocating
human resources among the USAOs.

                               EXHIBIT 2-1
                    HUMAN RESOURCE ALLOCATION PROCESS




 Source: OIG-created diagram based upon discussions with EOUSA and USAO officials

      Besides direct appropriations, EOUSA also receives additional funding
and resources through reimbursable programs, such as the Organized Crime
Drug Enforcement Task Force (OCDETF). 19 According to an EOUSA official,
the process of allocating reimbursable positions may differ from that
depicted in Exhibit 2-1 depending on the particular reimbursable program.
This official further explained that the Executive Office of OCDETF decides in
which USAOs reimbursable positions should be placed, and EOUSA provides
the additional resources to those USAOs. Moreover, an appropriation may
dictate the specific USAO to which EOUSA should assign new positions. For
example, the FY 2005 appropriations language stated that the District of
New Hampshire USAO was to receive seven positions in support of Operation
Streetsweeper, which was associated with the New Hampshire Violent Crime
Task Force. Regardless of the source of funding, EOUSA is responsible for
overseeing the allocation of all FTEs among USAOs.


       19
          The OCDETF Program is a multi-agency effort created to identify, disrupt, and
dismantle the most serious drug trafficking and money laundering organizations.

                                           -7-
      According to an EOUSA official, the majority of new positions allocated
among USAOs have historically been provided to address specific initiatives
or activities, such as firearms enforcement or counterterrorism
investigations, as opposed to being left to the discretion of each U.S.
Attorney. For example, in FY 1998 EOUSA allocated 61 attorney positions
among the USAOs to address narcotics matters, which was based upon
funding directed by Congress for such purposes. However, the congressional
reports associated with the FY 2002 appropriations stated that, “all previous
congressional guidance to the U.S. Attorneys regarding initiatives and the
designation of funds is waived.” 20 As a result, this EOUSA official stated that
U.S. Attorneys were able to assign these attorney resources as they saw fit
and that they have been able to do so for these positions since that time.

Time Reporting Process

       USAOs use the United States Attorneys’ Monthly Resource Summary
Reporting System (referred to as the USA-5) to record time spent by most
USAO personnel on various types of activities. 21 According to EOUSA
officials, data from the USA-5 is used for statistical reporting purposes,
including ad hoc requests from the Attorney General, Congress, and the
public. Additionally, EOUSA uses USA-5 data when considering how to
allocate human resources among USAOs, and the data is relied upon, in
part, for determining and justifying EOUSA’s annual budget requests.

      In the USA-5, USAO personnel assign time to various categories
according to the types of matters or cases they have worked on, such as
violent crime. Moreover, USAO personnel have the ability to record time to
a more specific area by selecting a subcategory – a USA-5A designation,
such as criminal gang prosecution – associated with the particular USA-5
category chosen. 22 According to the USA-5 manual, the USA-5A categories
were established to report to senior Department managers and Congress the


      20
           U.S. Senate, Departments of Commerce, Justice, and State, The Judiciary, and
Related Agencies Appropriation Bill, 2002, S. Rept. 107-42; and U.S. House of
Representatives, Making Appropriations for the Departments of Commerce, Justice, and
State, The Judiciary, and Related Agencies for the Fiscal Year Ending September 30, 2002,
and for Other Purposes, 2002, H. Rept. 107-278.
      21
           The USA-5 system tracks the time of attorneys, paralegals, and support
personnel, as well as the time of Special Assistant U.S. Attorneys (SAUSAs). However, the
USA-5 system does not track the time of contractors and students working in USAOs. In
addition, the system does not include any case-specific information.
      22
         Each USA-5 category has USA-5A categories associated with it. Additionally, in
some instances, the same USA-5A categories apply to multiple USA-5 categories.

                                          -8-
number of resources being expended on priority areas. However, the use of
USA-5A categories is not mandatory.

      USAO personnel using the USA-5 system can record either the actual
number of hours worked or the percentage of time spent addressing various
prosecutorial matters electronically or on a paper form. The USA-5 system
then translates the information into FTEs. 23

       USAO personnel are required to enter time into the USA-5 system, at a
minimum, on a monthly basis. According to an official from EOUSA’s Case
Management Staff, it is each USAO's responsibility to ensure that the data
entered into the system is reliable. Each USAO submits a monthly
transmission of its USA-5 data to EOUSA, which is then uploaded by EOUSA
into its database. EOUSA maintains this utilization data in a summary
format for each district but is unable to compile detailed information on the
amount of time individual AUSAs spend on particular types of matters. As a
result, EOUSA is only able to identify the total amount of time spent by each
position type, such as attorneys or paralegals, on various investigative areas
within each USAO.

      In FY 2008, EOUSA implemented a new version of the USA-5 system
that allows it to review utilization data at the employee level. With this new
system, EOUSA is able to review a district’s utilization data without having to
wait for it to be submitted by individual USAOs. In addition, EOUSA now has
the ability to review the time records of specific individuals. With this
information, EOUSA can assess the amount of time, including additional
hours beyond an 8-hour day, that is worked by attorneys, while in the past
EOUSA could only identify the aggregate time worked by all attorneys in a
USAO.

Casework Reporting Process

      USAOs use the Legal Information Office Network System (LIONS),
which became operational in 1998, to manage and record casework
information, including matters referred by investigative agencies and cases
prosecuted. 24 When first implemented, LIONS was a decentralized system
that required each USAO to transmit case information to EOUSA manually.

      23
           One FTE equates to 2,080 hours.
      24
            According to EOUSA officials, LIONS will be replaced by a new DOJ-wide case
management system called the Litigation Case Management System (LCMS). The EOUSA
officials stated that the LCMS should be piloted during FY 2009. According to the EOUSA
Director, EOUSA is also considering using the LCMS to track attorney time in addition to
case information.

                                             -9-
In 2003, EOUSA created the National LIONS (N-LIONS), which eliminated
the manual transmission process. The N-LIONS is a centralized system that
is automatically updated with case information from each district’s LIONS.
EOUSA utilizes the N-LIONS to assist in formulating annual statistical reports
and obtain information to respond to various inquiries from Congress, the
Attorney General, and the public.

       USAO personnel must complete several fields when entering
information into LIONS, such as the type of matter or case, the agency
referring the matter to the USAO, and the final disposition of the case. In
particular, LIONS contains two fields that define the type of case – the
program category for criminal matters and the cause of action for civil
matters. Each field has its own set of codes that identifies the specific area
being addressed for that particular matter or case, such as domestic
terrorism, bank robbery, or civil rights. However, these codes are different
from the categories used by USAO personnel when recording their time
using the USA-5 system.

       Although the LIONS User’s Manual describes the codes that should be
used to categorize cases, EOUSA has no mechanism to determine if a record
has been classified and reported correctly. Instead, EOUSA relies upon case
certifications from each district office in which USAO personnel are required
to verify data in their local databases on a semi-annual basis. 25 Following
this certification by individual USAO personnel, the U.S. Attorney must
certify the accuracy of his or her district’s data as a whole before it is
submitted to EOUSA.

Concerns with Resource Allocation

       Our audit identified weaknesses in the way EOUSA evaluates the needs
of individual USAOs. In addition, while EOUSA considers both attorney
utilization and casework data in determining where to allocate new positions,
we found substantial deficiencies in the USA-5 and LIONS data that call into
question whether the attorney utilization and casework data should be relied
upon. As a result, some offices may be given additional resources based, in
part, on inaccurate data when, in fact, other USAOs are in greater need of
those positions. Moreover, EOUSA officials stated that it is very difficult to
reallocate positions among USAOs and that any such attempt is regularly
met with opposition by those USAOs slated to lose positions.




      25
          This procedure applies to docket personnel, system managers, line attorneys and
their administrative assistants, and supervisory attorneys.

                                         - 10 -
Lack of Comprehensive Resource Needs Assessment

      In April 2006, the AGAC began an unsuccessful attempt to create a
formula to compute appropriate staffing levels but concluded that it was not
feasible to develop a simple, reliable, and objective formula to determine
how personnel should be allocated among the USAOs. 26 This conclusion
mirrored those of previous EOUSA efforts. As a result, EOUSA has been
unable to objectively determine the resource needs of the USAOs and thus
cannot statistically justify the reallocation of current FTEs. The EOUSA
Director stated, however, that even if such a model were available, one of
the AGAC’s working groups concluded that it would be politically impractical
to reallocate existing positions among USAOs.

Weaknesses in the Reporting of Utilization Data

       Given the nature of the data, the USA-5 system relies upon the self-
reporting of each employee and therefore is only as valid as the information
reported by USAO personnel. During our review of the time reporting
system, we identified weaknesses in the methods used to identify and
categorize the various types of activities worked by USAO personnel, the
level of detail to which time is recorded, the frequency of recording time, the
format used to record time, and the cultural environment regarding the time
reporting process. Each of these weaknesses can increase the inaccuracy
and incompleteness of the USAOs’ human resource utilization data. We
discuss each of these issues in turn.

      Categorization of Time – EOUSA does not have a standardized
categorization method that USAO personnel use when recording time to
specific activities. This creates a dilemma for AUSAs, particularly with
respect to cases involving multiple offenses. For instance, an AUSA may be
addressing a case associated with terrorism, narcotics, and fraud. However,
there is no standard approach for recording the AUSA’s activities on such a
multi-faceted case. As a result, AUSAs may not record their work on these
types of cases consistently and the USA-5 may not accurately reflect the
amount of time AUSAs spend on certain activities. In order to ensure that
the data is as accurate as possible, we believe that EOUSA should evaluate
the current USA-5, determine how AUSAs should record time for cases that
involve multiple offenses, and issue clear guidance.

      Recording Time to More Specific Activities – As noted above, attorneys
record time to broad USA-5 categories, such as violent crime, and also have

       26
          This initiative began in April 2006 and concluded in June 2008 with the issuance
of the U.S. Attorneys’ Procedure entitled Personnel Resource Allocation Process.

                                          - 11 -
the ability to record time to a more specific activity by selecting a USA-5A
category, such as criminal gang prosecution, that is associated with the
particular USA-5 category chosen. However, use of the more specific
USA-5A categories is not mandatory. Based upon our review of the resource
utilization data, we determined that attorneys generally do not record time
to these more specific categories. EOUSA officials stated that not every case
may necessitate a USA-5A category. For example, if a matter involves a
simple drug trafficking matter, there may not be a corresponding USA-5A
category.

      Nevertheless, we believe that USAOs are significantly underutilizing
these more specific USA-5A categories when it would have been applicable
to record time to these activities. We determined that only 13 to 16 percent
of the total reported attorney FTEs were associated with a USA-5A category
during any fiscal year in our review period. As a result, EOUSA is unable to
provide a detailed description of how much time was expended by USAOs on
specific types of activities, such as gang prosecutions, health care fraud, and
terrorism-related matters, to those requesting this information, including
senior Department managers and Congress. We believe that the use of
USA-5A categories should be mandatory, if a USA-5A category is applicable,
when recording time in the USA-5 system.

       During our discussions with the EOUSA Director, he agreed that
attorneys do not always record their time to the specific activities on which
they work and that this was of great concern to him. The Director stated
that it is imperative that USAOs accurately reflect this information because
the USA-5 data is a significant factor considered when determining where to
place new attorney positions. He said that U.S. Attorneys have often
informed him that their office’s USA-5 data is inaccurate and should not be
relied upon in making allocation decisions. The Director said he will no
longer accept U.S. Attorneys’ explanations for discrepancies in the
recordation of USA-5 data and will consider USA-5 data at face value as an
accurate depiction of USAO personnel utilization.

       Frequency of Recording Time – Another factor affecting the accuracy of
USA-5 data involves the varying methods used by USAOs for capturing AUSA
time. As mentioned above, USAO personnel must record time to the USA-5
system at least monthly. As confirmed during our discussions with USAO
personnel, AUSAs may decide to enter their time into the system daily or
with any other frequency that satisfies the monthly reporting requirement.
We believe the probability of incorrect data is much greater when there is a
significant span of time between the actual work performed and the time
those activities are recorded in the USA-5 system. While EOUSA officials
said they encourage USAO personnel to enter time on a daily basis, no policy

                                    - 12 -
has been established to require more frequent data entry than the current
monthly requirement. We believe that implementing a policy requiring at
least weekly entry would help improve the accuracy of USAO human
resource utilization data.

      Format Used to Report Time – As previously mentioned, USAO
personnel can either record their time on a paper form or electronically. The
USA-5 paper form contains 4 pages and lists 51 USA-5 categories to which
AUSAs can record their time. 27 Although an electronic version of this form is
available to USAOs, USAO personnel we interviewed stated that the
electronic form is not user-friendly. Therefore, some USAO personnel
decided to complete the paper format of the USA-5, which subsequently
must be entered electronically into the USA-5. We believe that use of the
paper form to enter attorney time is more cumbersome and time-consuming
than the electronic form because it requires additional work by USAO
personnel. Therefore, we believe that EOUSA needs to develop a more user-
friendly electronic form for USAO personnel to record their time.

      Timekeeping – During our discussions with EOUSA and USAO officials,
some USAO personnel stated that completing the USA-5 in an accurate
manner requires too much time. They noted with approval that while
private law firms require personnel to record time in small increments
throughout each day, this type of timekeeping is not required of USAO
personnel. Some officials remarked that USAO personnel view their primary
objective as working cases rather than accurately depicting the time
expended on specific activities. However, with appropriate guidance and a
streamlined approach, we do not believe that recording time at least weekly
in the USA-5 system is too onerous or similar to the private sector
requirement and would not require a significant level of additional effort.

Weaknesses in Casework Data

       During our review of EOUSA’s casework reporting system, we
identified weaknesses in the methods used to identify and categorize the
various types of cases handled, the timing of casework data entry, and
oversight of the casework system.

      Categorization of Cases – According to EOUSA officials, the process for
entering information into LIONS varies by district. Some districts have a
centralized process in which a few people enter all case-related information


       27
           The USA-5 has separate forms to record time to criminal and civil matters. The
criminal form is 3 pages and contains 22 USA-5 categories. The civil form is 1 page and
contains 29 USA-5 categories. Appendix IV contains a copy of these paper forms.

                                          - 13 -
into LIONS, while others have a decentralized process in which many people
enter case information into LIONS. As a result, the categorization of case
information in LIONS relies on the discretion of the USAO personnel entering
it and may result in districts classifying similar cases differently. For
example, two districts may each have a case involving firearms and drug
trafficking violations. One district may identify its case using the drug
trafficking program category code, while the other district identifies its case
using the firearms code. Therefore, as noted by EOUSA officials, the
information contained in LIONS will be inconsistent and result in reporting
imprecise information on the number of specific types of cases being
handled by USAOs.

      Timing of Data Entry – During our initial review of data accuracy and
completeness, we performed testing on the various date fields contained in
LIONS, including the filing date, system filing date, and fiscal year fields.
We identified delays in USAOs entering case filing information, as well as
inconsistencies with the date information contained in LIONS.

       Among the several date fields contained in LIONS, we focused our
review on the filing date and system filing date fields. The filing date field
indicates the actual date a matter is filed in court, while the system filing
date field reflects the date when the filing date is entered into LIONS. For
statistical reporting purposes, EOUSA relies upon the date when the case
information is entered into LIONS, or the system filing date. However, there
can be a lag between these two dates and the extent of the lag can affect
statistical reporting and management assessments of USAO workload. For
example, a matter may be filed in court in July 2007, yet the data may not
be entered in LIONS until November 2007, which would reflect a system
filing date of November 2007. Consequently, EOUSA would include this
matter as a new case filing in FY 2008 when, in fact, the matter was actually
filed in court in FY 2007. As a result, a district’s workload may appear to be
greater or less than it actually is during a given fiscal year, which can affect
allocation and budget decisions.

       As part of our casework analyses, we found a significant number of
cases in which there was a lag between the date the matter was filed in
court and the date the information was recorded in LIONS. Specifically, we
identified 254,481 cases, or almost 40 percent of the total 680,551 criminal
and civil cases filed by USAOs between FYs 2003 and 2007, where there was
a difference between the date the matter was filed and the date of entry into
LIONS. The following table shows the span of time between the case filings
and entry into LIONS for these 254,481 cases, as well as the percentage of
the total for each range of time.


                                     - 14 -
                          EXHIBIT 2-2
  SPAN OF TIME BETWEEN CASE FILINGS AND ENTRY INTO LIONS
         Range          Number of Cases Percentage of Total 28
      1 to 30 Days          179,991           70.73%
     31 to 180 Days          53,521           21.03%
  181 Days to 365 Days       14,596            5.74%
      1+ to 2 Years          4,220             1.66%
      2+ to 5 Years          1,829             0.72%
     5+ to 10 Years           224              0.09%
  Greater than 10 Years       100              0.04%
          Total            254,481           100.01%
 Source: OIG analysis of LIONS data

       EOUSA and USAO officials said that the case filing date should be
entered in LIONS shortly after the matter is filed, a period they defined as
no longer than 30 days after the matter is filed in court. We understand that
the filing date cannot always be entered into LIONS immediately following
the matter being filed in court and thus believe that a 30-day window is
reasonable. As shown in the preceding table, the information was entered
into LIONS for the majority of cases within the first 30 days of the matter
being filed. However, we identified 74,490 cases (or 29 percent) with
system filing dates greater than 30 days following the actual case filing
dates. We are concerned with the significant number of cases that were
entered into LIONS in excess of 30 days after the official court filing date
and the effect that this lag can have on statistical reporting and
management assessments of USAO workload.

       When we presented this information to EOUSA officials, they offered
various explanations for the delays, including resource constraints leading to
case entry backlog, as well as the possibility of delays in receiving the
necessary court documents. We also inquired about the more significant
intervals that we identified in the data. For example, we found one matter
that was shown as being filed during FY 1994, yet the system filing date
indicated that this case filing was not entered until FY 2005. In response,
EOUSA officials explained that this can occur when cases are “reopened” by
USAO personnel, which happens when case information is updated in LIONS
after the case had been closed. As a result, the system filing date reflects
the date the updated information was entered in LIONS. This process,
however, results in a statistical misrepresentation of cases filed by USAOs.
Specifically, these “reopened” cases are shown as new cases when they
were previously counted as new cases in prior fiscal years. Consequently,
the actual number of cases filed per district office and by specific activity is

      28
           Due to rounding, the percentages in this table total 100.01 percent.

                                           - 15 -
imprecise, which could cause inaccurate assessments by management.
EOUSA officials said that they cannot identify the number of instances in
which this occurred unless they reviewed each individual case file.

      Oversight of LIONS – EOUSA relies on the USAOs to review the
information in LIONS to ensure its accuracy. In addition to EOUSA’s guidance,
LIONS contains error edits and drop-down lists that serve as a quality control
device for entering casework data. 29 However, during our review of the
LIONS data we discovered inconsistencies in the completeness and accuracy
of the data that call into question whether the automated controls over the
system are operating as intended. In particular, we identified several
instances in which records contained mandatory fields that were unpopulated.
For example, LIONS system documentation indicates that the field that is
designed to identify the referring agency for incoming cases is mandatory.
However, this field was not always populated in the data file we received.
Although these inconsistencies generally accounted for less than 1 percent of
the total number of records in the data file, EOUSA officials were uncertain
how or why the system allowed this to happen.

       Our review also identified another potential weakness in LIONS
concerning immediate declinations. Immediate declinations refer to matters
where USAOs expend less than 1 hour reviewing a matter before deciding not
to prosecute. We found that no data from the District of Minnesota was
included in the immediate declination data file provided to us. When we
asked EOUSA officials about this anomaly, they were surprised that
information covering several fiscal years would not be listed for an entire
district. However, after following up with the district, EOUSA officials
confirmed that the Minnesota USAO does not track immediate declinations.

       As discussed previously, EOUSA has informed the USAOs that it will no
longer accept assertions from USAOs that LIONS data (which originates at
the district level) should not be relied upon in making decisions on requests
for additional resources. Further, EOUSA officials said that their
consideration of such resource requests will be based, in part, upon available
data. According to the EOUSA Director, this should be a strong
encouragement to the USAOs to ensure that the data originating from their
offices is accurate.




       29
          Error edits and lists are designed to prohibit users from entering invalid codes and
dates or skipping a required field.

                                           - 16 -
Lack of Existing Resource Reallocation

       According to EOUSA officials, USAOs have historically maintained a
base level of attorney FTEs from one fiscal year to the next and positions are
rarely moved from one office to another. Consequently, when different
offices’ workloads evolve over time, some offices may be overstaffed while
others may be understaffed.

      EOUSA officials offered several reasons to explain EOUSA’s difficulty in
reallocating positions among USAOs once those positions have been
assigned. According to EOUSA, the primary challenge is the resistance and
opposition from several sources, including U.S. Attorneys, individual offices,
and the AGAC.

       According to EOUSA officials, involvement of the Attorney General or
Deputy Attorney General is necessary for any widespread reallocation of
resources. Moreover, in some instances annual congressional appropriations
language specifies that a certain number of positions are to be placed in a
specific district office to address a particular prosecutorial initiative. When
that initiative is ended, the district office may no longer need those
resources for that specific purpose. However, according to EOUSA officials,
there is little EOUSA can do to take these positions away from the USAO and
reallocate them elsewhere.

      The working group that performed the most recent evaluation of the
USAO resource allocation process concluded that it was politically impractical
to reallocate existing positions among USAOs. The EOUSA Director
discussed this conclusion with us and indicated that, although difficult, he
believed that reallocation was possible and that EOUSA missed an
opportunity to reallocate positions when the USAOs had a significant number
of vacancies.

      EOUSA was given a congressionally directed opportunity to redistribute
resources among districts during the FY 2002 appropriations. In the reports
accompanying the Department’s 2002 appropriations, the Committees on
Appropriations stated that they had attempted to revise the process of
allocating resources among the USAOs to better align USAO staffing levels
with their caseloads. 30 Some of the actions suggested by the Committees
were the use of term positions and transferring specific numbers of

      30
           U.S. Senate, Departments of Commerce, Justice, and State, The Judiciary, and
Related Agencies Appropriation Bill, 2002, S. Rept. 107-42; and U.S. House of
Representatives, Making Appropriations for the Departments of Commerce, Justice, and
State, The Judiciary, and Related Agencies for the Fiscal Year Ending September 30, 2002,
and for Other Purposes, 2002, H. Rept. 107-278.

                                          - 17 -
personnel to and from certain offices. However, the congressional reports
state that each of the suggested actions was rejected by the U.S. Attorneys.
As a result, the Committees concluded that EOUSA should step in and
distribute human resources and funding among the USAOs so that “the
interests of the American people were best served.” To provide EOUSA
more freedom in this initiative, the Committees included language in its
report to waive previous congressional guidance regarding the designation of
funds for specific activities and locations. By March 2002, EOUSA was to
submit to the Committee a report on the actions it planned to take.

       According to an EOUSA official, EOUSA provided the Committees with
a verbal report but did not reallocate any positions. EOUSA officials further
told us that they were unaware of any additional congressional language on
this topic since that time.

       EOUSA has attempted to mitigate some of the resource discrepancies
by assigning term positions to USAOs. Term positions are allocated to
district offices for a specified time period. At the conclusion of this period,
EOUSA has the ability to reallocate those positions to other offices based
upon a reassessment of district office needs. Additionally, EOUSA officials
explained that they have relied upon the current process for allocating new
positions among the USAOs, which requires an evaluation of individual
district needs and DOJ priorities, to resolve any staffing discrepancies.
However, these officials also stated that there have not been a sufficient
number of new positions provided in recent years to significantly alter the
historic resource allocation levels of USAOs.

Conclusion

       We concluded that EOUSA does not have the necessary information to
effectively evaluate and determine the optimal staffing levels of individual
USAOs. Although the AGAC attempted in April 2006 to develop an objective
model to statistically identify the appropriate level of resources for each
district, it concluded that such a model was not feasible.

       In addition, the data systems used by EOUSA and the USAOs to help
manage personnel resources have significant deficiencies. The USA-5
system was created to capture the time spent by USAO personnel on various
activities, while LIONS tracks each district’s casework data. EOUSA
considers this information in resource planning and allocation decisions and
relies upon this data to answer requests from Congress, the Attorney
General, and the public. Given the widespread use of this data, it is
important that it be accurate and complete. However, we found problems
surrounding the accuracy of the data in both systems and recommend that

                                     - 18 -
EOUSA and the USAOs place greater emphasis on accurately and specifically
reporting attorneys’ time and casework information.

      EOUSA generally has not reallocated existing attorney positions from
one USAO to another for a variety of reasons, including opposition from
several sources, including individual USAOs that would be affected by the
reallocations. Furthermore, EOUSA did not take advantage of a
congressionally provided opportunity in FY 2002 to reallocate resources
among USAOs.

       We believe that EOUSA should take steps to address the data
inconsistencies, develop a process to objectively determine the appropriate
staffing levels of individual USAOs, and move to ensure that allocations are
in accord with that process.

Recommendations

We recommend that EOUSA:

   1. Establish a standardized process for tracking time to cases involving
      multiple offenses to more accurately reflect attorney utilization.

   2. Implement a policy requiring USAO personnel to record time in the
      USA-5 system on at least a weekly basis, as well as to record all time
      to a USA-5A category when such a category is available.

   3. Develop a more user friendly electronic form for USAO personnel to
      report their time in the USA-5 system.

   4. Implement a standardized approach among USAOs for categorizing
      cases within LIONS and the USAOs’ new case management system –
      Litigation Case Management System.

   5. Ensure that “reopened” cases are not reflected in the statistical
      reports in the fiscal years in which the cases were reopened.

   6. More closely monitor the casework data transmitted by USAOs to
      ensure it is accurate and complete.

   7. Re-emphasize to the USAOs the importance of utilization and
      casework data, how the data is used, and the necessity of accurately
      capturing this data.

   8. Examine the current staffing levels of USAOs, and develop methods to
      reallocate resources among USAOs.

                                    - 19 -
    CHAPTER 3: UTILIZATION OF ATTORNEY RESOURCES

       While the number of attorney FTEs allocated to USAOs increased
       approximately 5 percent during our 5-year review period, USAOs
       utilized 5 percent fewer attorney FTEs in FY 2007 than in
       FY 2003. EOUSA officials attributed this situation to budget
       constraints. In addition to USAOs utilizing fewer attorney FTEs
       than allocated, we found that USAOs were not always utilizing
       attorney resources as funded by Congress. For example, USAOs
       expended more FTEs than allocated on firearms violations,
       health care fraud, and OCDETF matters, and expended
       significantly fewer FTEs than allocated on counterterrorism
       matters. Moreover, we found that EOUSA does not routinely
       perform comprehensive reviews of the number of attorneys
       utilized on specific types of criminal matters within each USAO.
       Instead, EOUSA relies on infrequent EARS reviews of utilization
       data and therefore does not receive timely information about
       district resource management issues.

Overall Utilization of Attorney Resources

      USAO attorney resources are measured in FTEs, and the number of
FTEs assigned to an office by the Department is called its allocated amount.
The use of these resources, which is referred to as utilization, is tracked
through the USA-5 time reporting system.

       We obtained and analyzed data on both the allocation and utilization of
attorney FTEs for FYs 2003 through 2007. As noted in Chapter 2, we
identified several concerns with the accuracy and reliability of the USA-5
data. While we believe that these concerns may affect the analyses we
performed, the overall results presented are useful for examining the
utilization of attorneys in the USAOs. Further, the USA-5 data is the only
utilization data available for purposes of our audit.

       The number of attorney FTEs allocated to USAOs increased by
5 percent from 5,459 attorney FTEs in FY 2003 to 5,708 in FY 2007. 31 The
following exhibit depicts attorney FTEs allocated to USAOs, which includes
positions directly funded through the U.S. Attorney organization’s budget
and those funded through reimbursable programs such as OCDETF.


       31
          For purposes of our report, “attorneys” refer to both U.S. Attorneys and Assistant
U.S. Attorneys.

                                           - 20 -
                              EXHIBIT 3-1
               TOTAL ATTORNEY FTEs ALLOCATED TO USAOs
                        FYs 2003 THROUGH 2007




             Source: OIG analysis of EOUSA Resource Management and Planning Staff
                     Data

      We also analyzed the allocations among individual USAOs and found
that 4 of 93 offices had fewer allocated attorney FTEs in FY 2007 than in
FY 2003, 73 offices had a greater number of allocated attorney FTEs, and
16 offices had the same number of allocated attorney FTEs during the same
period. 32

      The following exhibit presents the USAOs experiencing the greatest
changes - both increases and decreases – in allocated attorney FTEs from
FYs 2003 to 2007. As shown, the Districts of South Dakota and the Virgin
Islands each decreased by 1 FTE, or 3 percent and nearly 5 percent,
respectively. In contrast, the greatest increase experienced by any single
USAO in our review period occurred in the Northern District of Illinois, which
was allocated 15 more attorney FTEs in FY 2007 than in FY 2003, equating
to a 10-percent growth.



       32
          While there are 94 USAOs, the allocation figures for the Districts of Guam and the
Northern Mariana Islands are combined, resulting in the 93 USAOs presented in our
analysis.

                                          - 21 -
                            EXHIBIT 3-2
             USAOs EXPERIENCING THE GREATEST CHANGES
                    IN ALLOCATED ATTORNEY FTEs
                          FYs 2003 TO 2007




    Source: OIG analysis of EOUSA Resource Management and Planning Staff data

      As shown in Exhibit 3-3, in contrast to the total number of attorney
FTEs allocated, which increased by about 5 percent from FYs 2003 to 2007,
the total number of attorney FTEs utilized decreased during this same
period.

      We analyzed the USA-5 data for all attorney FTEs utilized by USAOs,
grouped into three broad areas: (1) criminal matters, (2) civil matters, and
(3) management and administration. 33 For this analysis, we included
regular time worked as well as additional hours worked in excess of a
regular 40-hour work week (which we refer to as additional hours or
additional




      33
           According to the USA-5 user’s manual, management and administration applies to
both criminal and civil matters. However, there is no way to distinguish between criminal
and civil matters in the system. As a result, we considered management and administration
as its own category.


                                         - 22 -
    FTEs). 34 While these figures do not represent the actual number of
    attorneys within USAOs, we believe it more closely reflects the total level of
    effort expended by attorneys. 35

           The following exhibit presents the total number of attorney FTEs
    utilized from FYs 2003 to 2007. As illustrated in the following table, USAOs
    utilized 292 fewer attorney FTEs in FY 2007 than in FY 2003 and expended
    the majority of their attorney resources on criminal matters.

                                     EXHIBIT 3-3
                            TOTAL ATTORNEY FTEs UTILIZED
                               FYs 2003 THROUGH 2007
                                                                         Number           Percent
                                                                         Change           Change
                    FY         FY        FY        FY        FY          FY 2007 –        FY 2007 –
  Category         2003       2004      2005      2006      2007         FY 2003          FY 2003
   Criminal        4,382      4,421     4,353     4,288     4,243          -139            -3.17%

     Civil         1,247      1,263     1,261     1,232     1,204           -43            -3.45%
Management &
                    645        603       563       559       535           -110            -17.05%
Administration
     Total         6,274     6,287      6,177    6,079      5,982          -292            -4.65%
Source: OIG analysis of USA-5 data


         EOUSA officials explained that the decline in attorney FTEs utilized was
    primarily a result of budget limitations occurring throughout most of our

             34
               The USA-5 system tracks regular time and additional hours separately. Generally,
    attorneys are not compensated for additional hours they work beyond a 40 hour week.
    Federal law provides that most federal employees may be compensated only for additional
    time they work that is officially ordered or approved in writing by a supervisor. Although
    many Department attorneys work more than 40 hours per week, this additional time is
    generally not ordered or approved in writing and therefore not compensable. In 1999, a
    class of over 9,000 DOJ attorneys brought a lawsuit against the Department seeking pay for
    additional hours of work performed between 1992 and 1999, on the theory that although
    the additional hours were not approved in writing, the Department had expected and
    induced the attorneys to work additional time. Their claims were rejected by the United
    States Court of Appeals for the Federal Circuit. Doe v. U.S., 463 F.3d 1314 (Fed. Cir.
    2006), cert. denied, 127 S. Ct. 1910 (2007).
             35
               Individual USAO personnel may record time to more than one activity during the
    course of a single day, week, month, or year. This means that a single FTE does not
    necessarily indicate one individual worked an entire year on a single activity; it could mean
    that 4 employees each worked 25 percent of their time during the year on that specific
    activity. Yet, in both cases the data would indicate that one FTE was expended on that
    activity for the entire fiscal year.

                                                - 23 -
review period. According to EOUSA officials, the USAOs have not received
enough funding to support the number of FTEs authorized in the annual
appropriations. A senior EOUSA official informed us that EOUSA allocates all
FTEs regardless of whether it has the necessary funding to actually support
the FTEs. Appendix V lists each USAO and the total number of attorney FTEs
utilized during FYs 2003 and 2007.

Agency-wide Gap between Allocated and Utilized Attorney FTEs

      During our review, we examined each USAO’s total allocated attorney
FTEs to the actual number of attorney FTEs utilized. 36 The following exhibit
displays the comparison of allocated FTEs to utilized FTEs for FYs 2003
through 2007.

                                EXHIBIT 3-4
                       COMPARISON OF ATTORNEY FTEs
                         ALLOCATED AND UTILIZED
                          FYs 2003 THROUGH 2007




       Source: OIG analysis of EOUSA Resource Management and Planning Staff and
               USA-5 data




      36
          We excluded the additional hours worked by USAO attorneys from this analysis.
Therefore, the utilization figures shown in Exhibit 3-4 differ from those presented in
Exhibit 3-3.

                                         - 24 -
       From this analysis, we determined that, in general, the gap between
the allocated attorney FTEs and the attorney FTEs actually expended
increased significantly throughout our review period. The largest gap
between the allocated and utilized FTEs occurred in FY 2007, when USAOs
utilized 628 fewer FTEs than allocated. Overall, this gap ranged from 3 to
11 percent during our review period.

       According to EOUSA officials, the increase in the gap between
allocated and expended FTEs was primarily a result of budget limitations in
which USAOs did not have adequate funding to hire personnel up to the
authorized level of FTEs. An EOUSA Assistant Director responsible for
budget matters told us that the funding increases the organization received
between FYs 2003 and 2007 were not enough to cover cost-of-living
adjustments, increases in rent, and similar types of annual rising costs.
Moreover, this official stated that EOUSA could not fully fund all of its
reimbursable positions, such as OCDETF, with the reimbursable money
provided for these positions. According to this official, since the
reimbursable funding remained constant during our review period while
costs increased, EOUSA had to supplement reimbursable funding with its
direct appropriations. The EOUSA official said that, as a result, there were
insufficient funds to fill these unused attorney FTEs.

       We found, however, that additional hours worked by existing attorneys
made up for the gaps between allocated and expended attorney FTEs that
we identified. The USA-5 data we analyzed indicated that attorneys worked
significantly in excess of 40 hours per week, which, as discussed previously,
is uncompensated. When these additional attorney work hours are
incorporated into the utilization data, the results reflect that the USAOs
actually utilized a greater number of attorney FTEs than allocated, as shown
in Exhibit 3-5.




                                    - 25 -
                                 EXHIBIT 3-5
                        COMPARISON OF ATTORNEY FTEs
                     ALLOCATED, UTILIZED, AND ADDITIONAL
                           FYs 2003 THROUGH 2007




            Source: OIG analysis of EOUSA Resource Management and Planning Staff and
                    USA-5 data

USAO-specific Gaps between Allocated and Utilized Attorney FTEs

       Despite the overall results presented in Exhibit 3-4, we identified
34 offices utilizing more attorney FTEs (ranging from 0.01 FTE to 3.82 FTEs),
when excluding additional hours, than they were allocated during at least
one fiscal year of our review period. According to EOUSA officials, this
occurred due to the use of term positions as well as waivers granted by
EOUSA that were not recorded in the allocation database. 37 Specifically,
districts are sometimes provided term positions to backfill for AUSAs who are
detailed to another DOJ component. During such details, both the detailed
AUSA and the backfilled term position report their time on the USA-5 of the
detailed AUSA’s home district, which will indicate that a district is utilizing
more resources than allocated. Further, a waiver allows a district to over-
hire for a specific purpose or time period. As a result, the USAO may report

       37
           According to an EOUSA official, waivers are provided to help when a district
experiences a temporary increase in workload by granting additional resources for a specific
period of time.

                                          - 26 -
a greater utilization of resources on the USA-5 than resources allocated for
the period. However, EOUSA did not confirm that these explanations applied
to each of the instances identified in our analysis.

       We further examined the gap between the allocation and utilization of
USAO attorney FTEs according to office size. During our review period,
EOUSA categorized offices into 4 types based upon the allocated attorney
staffing levels – extra-large (greater than or equal to 100 attorneys), large
(between 45 and 99.9 attorneys), medium (between 25 and 44.9 attorneys),
and small (less than 25 attorneys). Using this categorization scheme, we
found that the percentage of unused attorney FTEs (expending fewer
attorney FTEs than allocated) within each group generally increased from
FYs 2003 to 2007 as depicted in Exhibit 3-6.

                           EXHIBIT 3-6
               PERCENTAGE OF UNUSED ATTORNEY FTEs
                     FYs 2003 THROUGH 2007
   USAO Category       FY 2003     FY 2004     FY 2005    FY 2006     FY 2007
   Extra-large          4.11%       4.56%       5.79%     11.62%      14.50%
   Large                3.33%       2.45%       4.92%      7.54%       9.18%
   Medium               2.58%       1.81%       4.46%      4.60%       6.28%
   Small                3.41%       3.40%       4.23%      5.39%       5.85%
   Source: OIG analysis of EOUSA Resource Management and Planning Staff and
           USA-5 data

      We determined that the percentage of unused attorney FTEs was, on
average, highest among the extra-large and large offices. An EOUSA official
explained that the extra-large and large offices maintain larger budgets with
considerable staffs. Therefore, when EOUSA began experiencing budget
shortages, EOUSA decided to target these offices first because it believed
that the extra-large and large offices could better sustain greater budget
cuts and vacancies than the medium and small offices. Moreover, this
EOUSA official explained that the extra-large and large offices tend to be
located in metropolitan areas that generally experience greater cost of living
fluctuations, as well as larger job markets, which affect the turnover of staff
and attrition rates at these USAOs. Appendix VI displays the percentage gap
between allocated and expended attorney FTEs for each USAO.

“Burn” Rates

      EOUSA uses the term “burn rate” to refer to the difference between
allocated resources and actual utilized resources. An “overburn” occurs
when more resources are utilized than allocated, and an “underburn” occurs
when fewer resources are utilized than allocated. We calculated burn rates

                                      - 27 -
by comparing the numbers of attorney FTEs allocated to specific program
areas to time utilization data from the USA-5 system to determine if USAOs
were utilizing attorneys in accordance with the funding provided by Congress
for specific activities to which the FTEs were allocated.

       We focused this analysis on the program areas of counterterrorism,
firearms, health care fraud, and OCDETF because EOUSA specifically tracks
the allocation and utilization of attorneys for each of these areas. We found
that in total USAOs were expending more resources than were allocated in
several of these areas. However, the USAOs were not expending as many
attorney FTEs on counterterrorism matters as allocated throughout our
review period.

      As shown in Exhibit 3-7, USAOs were allocated 250 attorney FTEs for
counterterrorism matters during FYs 2003 through 2005. The USAOs only
expended between 151 and 163 FTEs on these matters during this period.
Including additional hours worked by attorneys, the USAOs utilized between
189 and 204 attorney FTEs, significantly less than the allocated FTE levels.

       An additional 43 attorney FTEs were allocated to USAOs for
counterterrorism in FY 2006. During FYs 2006 and 2007, the USAOs had a
total of 293 attorney FTEs allocated for counterterrorism matters.
Nonetheless, as reflected in the following exhibit, the USAOs continued
expending approximately the same number of attorney FTEs on
counterterrorism matters in FYs 2006 and 2007 as they had during FYs 2003
through 2005. During the audit close-out meeting, the EOUSA Director
explained that due to the timing of the FY 2006 appropriations, these
additional counterterrorism attorney FTEs would not have been captured (or
utilized) until FY 2007 or later. Nonetheless, based on our analysis of this
data collected during our review period, it appears that USAOs are not
devoting the full amount of allocated attorney resources to counterterrorism
matters.




                                    - 28 -
                        EXHIBIT 3-7
               COMPARISON OF ATTORNEY FTEs
   ALLOCATED AND UTILIZED ON COUNTERTERRORISM MATTERS
                  FYs 2003 THROUGH 2007

         Allocated FTEs   Regular FTEs Utilized     Regular & Additional FTEs Utilized

   350

   300

   250

   200

   150

   100

    50

     0
             FY 2003      FY 2004         FY 2005         FY 2006          FY 2007

  Source: OIG analysis of EOUSA Resource Management and Planning Staff and USA-5
          data

       We discussed this discrepancy with the EOUSA Director, who told us
that EOUSA recently became aware of this underutilization and had reported
the matter to the Deputy Attorney General and the AGAC. He explained that
this underburn was partially due to inaccurate time reporting by AUSAs and
partially due to investigative agencies not bringing as many terrorism-
related matters to the USAOs as they had in the past. He stated that USAOs
should be expending appropriate resources in priority areas, such as
counterterrorism, and said he is working with the AGAC to enhance
utilization of AUSAs in counterterrorism. In particular, the Director stressed
the importance of USAOs being proactive in their terrorism-related work,
such as participating in local task forces and other activities that may not be
associated with specific terrorism cases.

      We also reviewed the counterterrorism burn rates within each USAO
and found that the number of districts that used at least 1.50 fewer attorney
FTEs in counterterrorism matters than allocated increased from 11 USAOs in
FY 2003 to 28 USAOs in FY 2007. For example, during FYs 2003 to 2006,
the Southern District of New York was allocated 15 attorney FTEs for
counterterrorism work, yet the district consistently utilized less than was
allocated – ranging from an underutilization of 5.65 to 11.80 FTEs.

                                       - 29 -
Additionally, we determined that the Eastern District of Virginia underutilized
7.54 attorney FTEs allocated to counterterrorism during FY 2007.

       In addition to the counterterrorism underburns identified among
districts, we found that some districts received an additional allocation of
counterterrorism resources in FY 2006 even though those districts had not
fully expended the allotment of counterterrorism FTEs provided to them
during FYs 2003 through 2005. For instance, the District of New Jersey was
allocated 8 attorney FTEs for counterterrorism purposes during FYs 2003
through 2005, but only utilized between 5.38 and 6.33 attorney FTEs to
address such matters during this time period. In FYs 2006 and 2007, the
District of New Jersey’s counterterrorism allocation increased to 9 attorney
FTEs, yet the district expended even fewer attorney FTEs on such matters
during this timeframe – thus resulting in a greater underburn. Appendix VII
illustrates the underutilization or overutilization of attorney FTEs on
counterterrorism matters for each USAO.

      In contrast to our review of counterterrorism burn rates, throughout
our review period USAOs generally expended more attorney FTEs than were
allocated on firearms, health care fraud, and OCDETF matters. For example,
USAOs continued to utilize more attorney FTEs than were allocated on health
care fraud matters during FYs 2003 through 2007, as depicted in
Exhibit 3-8. Although the number of attorney FTEs addressing health care
fraud matters has steadily declined from FYs 2004 to 2007, USAOs were still
expending at least 65 more FTEs (including additional hours worked by
attorneys) than allocated during this timeframe.




                                    - 30 -
                         EXHIBIT 3-8
               COMPARISON OF ATTORNEY FTEs
    ALLOCATED AND UTILIZED ON HEALTH CARE FRAUD MATTERS
                   FYs 2003 THROUGH 2007

            Allocated FTEs      Regular FTEs Utilized   Regular & Additional FTEs Utilized

  200
  180
  160
  140
  120
  100
   80
   60
   40
   20
    0
           FY 2003           FY 2004         FY 2005         FY 2006           FY 2007

  Source: OIG analysis of EOUSA Resource Management and Planning Staff and USA-5
          data

      Several USAOs were utilizing fewer attorney FTEs than allocated for
health care matters. For example, the Southern District of New York was
allocated six attorney FTEs for health care fraud purposes but, on average,
only utilized half of these resources on such matters during FYs 2005
through 2007. Moreover, we found that some offices were allocated an
attorney FTE to address health care fraud matters but expended little, if any,
attorney resources on such matters during our review period. An illustration
of the overutilization and underutilization by individual USAOs on health care
fraud matters is provided in Appendix VIII.

      USAOs in total have been allocated a significant number of attorney
FTEs for OCDETF drug cases, ranging from 468 FTEs in FY 2003 to 582 FTEs
in FY 2007. Except for a slight decline in FY 2004, there has been a
continual increase in the number of attorney FTEs utilized by USAOs on
OCDETF matters throughout our review period. Exhibit 3-9 presents the
attorney resource data related to OCDETF.




                                          - 31 -
                            EXHIBIT 3-9
                   COMPARISON OF ATTORNEY FTEs
             ALLOCATED AND UTILIZED ON OCDETF MATTERS
                      FYs 2003 THROUGH 2007

         Allocated FTEs   Regular FTEs Utilized     Regular & Additional FTEs Utilized

   800

   700

   600

   500

   400

   300

   200

   100

     0
             FY 2003      FY 2004         FY 2005         FY 2006          FY 2007

 Source: OIG analysis of EOUSA Resource Management and Planning Staff and USA-5
         data

       Throughout our review period, the majority of USAOs utilized more
attorney FTEs on OCDETF matters than were allocated for this purpose. The
District of Columbia, Southern District of Florida, and Northern District of
Illinois were among the top five USAOs that experienced an overburn in this
area during each of the 5 fiscal years under review. Appendix IX shows
which USAOs underutilized or overutilized attorney FTEs on OCDETF matters.

       Similar to our results regarding OCDETF, USAOs have continued to
utilize more attorney FTEs than allocated on firearms matters from FYs 2003
through 2007. However, the overburn has gradually decreased from
FY 2004 to FY 2007, as reflected in Exhibit 3-10.




                                       - 32 -
                          EXHIBIT 3-10
                 COMPARISON OF ATTORNEY FTEs
          ALLOCATED AND UTILIZED ON FIREARMS MATTERS
                     FYs 2003 THROUGH 2007

            Allocated FTEs      Regular FTEs Utilized   Regular & Additional FTEs Utilized

  400

  350

  300

  250

  200

  150

  100

   50

    0
          FY 2003            FY 2004         FY 2005         FY 2006            FY 2007

 Source: OIG analysis of EOUSA Resource Management and Planning Staff and USA-5
         data

      Overall, USAOs used more attorney resources than allocated on
firearms matters. However, 20 districts expended at least 1 fewer attorney
FTE than allocated on such matters during FY 2007. For example, the
Eastern District of Missouri was allocated six attorney FTEs for firearms
matters but only used approximately one attorney FTE on such matters
during each fiscal year of our review period. In contrast, the District of
Columbia significantly exceeded its FTE firearms allotment during each fiscal
year of our review, ranging from an overutilization of 23.39 FTEs in one year
to 61.77 FTEs in another year. A district-by-district assessment of attorney
FTEs addressing firearms matters is contained in Appendix X.

      At the audit close-out meeting, EOUSA officials stated that EOUSA and
the USAOs have begun to address the underutilization of personnel
resources in particular prosecutive areas.

EOUSA Monitoring of Attorney Utilization

       EOUSA does not receive routine resource utilization reports that
provide a comprehensive assessment of the number of attorneys being
utilized on specific types of matters within each USAO. Rather, EOUSA

                                          - 33 -
monitors the utilization of resources to some degree as part of each district’s
EARS reviews, which, as explained in Chapter 1, were being conducted every
4 to 5 years during our review period. The Data Analysis Staff at EOUSA
also analyzes USAO data on an ad hoc basis when the office receives a
request. According to a high-ranking EOUSA official, however, EOUSA does
not have sufficient and regular knowledge of how many and what kind of
resources the USAOs utilize, which makes it difficult to determine what
resources an office needs. Because EOUSA relies on the infrequent EARS
reports and ad hoc Data Analysis Staff reviews, it has remained unaware of
district resource usage for lengthy periods of time.

       We believe that EOUSA should perform comprehensive assessments
on the number of attorneys utilized on specific types of matters within each
USAO on a regular basis. These types of assessments would provide EOUSA
with a better understanding on how many and what kind of resources USAOs
utilize, which would provide important information to determine what
resources an office needs. EOUSA told us that they are aware of this
problem and that they plan to create a systematic model to regularly collect
and review this type of information. However, while we believe such
comprehensive reviews will provide EOUSA with critical information, as
discussed in Chapter 2, EOUSA must first correct the deficiencies affecting
the reliability of this data.

      In addition, as part of its efforts we believe that EOUSA should include
analyses that are similar to what we have described in this chapter.
Specifically, EOUSA should include in this process routine reviews of USAO
burn rates in specific prosecutorial areas to help it identify potential
misallocations of resources and take corrective action in a timely manner.

Conclusion

      We determined that the number of attorney FTEs allocated to USAOs
increased by approximately 5 percent throughout our review period. In
contrast, USAOs utilized 5 percent fewer attorney FTEs in FY 2007 than in
FY 2003.

       Our analyses revealed that, in general, the overall gap between
allocated and utilized attorney FTEs significantly increased throughout our
review period. According to EOUSA officials, this increase occurred mainly
because USAOs had limited budgets to address annual rising costs, such as
cost-of-living adjustments and increases in rent, and also had to use a
portion of their budgets to fully staff reimbursable program areas. As a
result, USAOs did not have adequate funds remaining to fill the authorized
level of attorney FTEs.

                                    - 34 -
       However, we determined that these gaps between allocated and
utilized attorney FTEs were mitigated when we factored additional hours
worked by attorneys into our evaluation. When combining the additional
hours with the regular time charged by attorneys, the USAOs utilized a
greater number of attorney FTEs than allocated throughout our review
period.

       We also analyzed the utilization of attorney resources on specific
prosecutorial matters. Based upon this analysis, we determined that EOUSA
is not regularly monitoring the use of USAO resources and the purposes for
which the resources were allocated. We found that USAOs did not devote
the allocated level of attorney resources on counterterrorism matters
throughout our review period. We also identified an underutilization of
attorney resources in other prosecutorial areas within some individual
USAOs, including health care fraud and OCDETF matters. In contrast, we
identified an “overburn” of attorney resources addressing firearms, health
care fraud, and OCDETF matters. At the audit close-out meeting, EOUSA
officials stated that EOUSA and the USAOs have begun to address the
underutilization of personnel resources in particular prosecutive areas.

       EOUSA management does not receive routine resource utilization
reports that provide a comprehensive assessment of the number of
attorneys being utilized on specific types of matters within each office.
Although EOUSA asks about the utilization of resources as part of periodic
EARS reviews, individual offices have recently been reviewed only every 4 to
5 years. We believe that EOUSA should perform a comprehensive
assessment on the number of attorney FTEs utilized on specific types of
matters within each USAO on a regular basis to identify any resource
utilization issues similar to what we found and to obtain information for
assessing what resources an office needs.

Recommendation

We recommend that EOUSA:

   9. Perform comprehensive assessments on a regular basis of the number
      of attorneys utilized on specific types of matters within each USAO,
      including a comparison to where the resources were allocated.




                                   - 35 -
                     CHAPTER 4: USAO CASEWORK

      We examined USAO casework data to determine the rates at
      which criminal matters referred to USAOs were prosecuted,
      declined, or still pending. We found that a large percentage of
      the total criminal matters referred to USAOs throughout our
      5-year review period remained in a pending status as of the end
      of FY 2007, including 27 percent of all criminal matters referred
      during FYs 2003 and 2004. We further evaluated this
      information by specific prosecutorial areas and found that the
      rates at which USAOs prosecuted referred narcotics, violent
      crime, and immigration matters were higher than the rates for
      public corruption, civil rights, and terrorism matters.

Factors Affecting USAO Casework

      According to EOUSA officials, several factors influence the type of
cases worked by USAOs, including national and district priorities, availability
of personnel resources, complexity of cases, and changes in priorities within
investigative agencies. While some of these factors are within the control of
USAOs, most are not.

National and District Priorities

        USAOs are supposed to consider DOJ national priorities when
managing their workload. Since the terrorist attacks of September 11, the
top priority of the Department has been the prevention of terrorist attacks.
According to the U.S. Attorneys’ Annual Statistical Report, in addition to
counterterrorism the national criminal prosecution priorities for USAOs
between FYs 2003 and 2006 were firearms, narcotics, corporate fraud, and
civil rights. 38 In FY 2007, cyber crime, crimes against children, and official
corruption were added as national USAO priorities. According to EOUSA and
USAO officials, the Department does not establish specific priorities for civil
litigation because USAOs are required to accept all defensive litigation cases,
which are the majority of civil cases handled by USAOs.

      In addition to the national priorities, each USAO must meet the
prosecutorial needs of its district. As a result, a district has the ability to
target crime areas that, while not national priorities, pose problems or
threats in its jurisdiction.

      38
         According to EOUSA officials, EOUSA does not rank non-terrorism priorities
because each is considered equally important within DOJ.

                                         - 36 -
Availability of Resources and Case Complexity

       Authorized positions that remain unfilled may limit the types and
number of cases handled by individual USAOs. As noted previously, budget
limitations have resulted in an inability to staff USAOs at allocated levels,
which in turn has led to a high rate of unused attorney FTEs and a decrease
in the amount of attorney FTEs utilized.

      In addition, the types of cases that USAOs handle vary in complexity
with USAOs expending more time and resources developing and prosecuting
complex cases. EOUSA attempted to develop a formula to measure case
complexity, but determined it was not feasible to develop such a metric.

Focus of Investigative Agencies

      The workload of USAOs is also dependent upon referrals from
investigative agencies. When investigative agencies reprioritize their
workloads, the USAOs may experience a similar shift in their casework.
Moreover, declines or increases in certain types of criminal matters
prosecuted by USAOs are often a direct reflection of the work done by
investigative agencies. USAOs do not control the types of cases referred to
them and thus cannot always control the changes in the types of cases
prosecuted.

USAO Criminal Casework

       Law enforcement agencies present information about their matters to
the appropriate USAO, which decides if criminal charges will be filed. A
district office records this information in LIONS as a matter referred. The
matter becomes a case in LIONS once a USAO files an indictment or
information in court.

       According to the U.S. Attorneys’ Manual, USAOs must consider
whether there is sufficient admissible evidence to obtain and sustain a
conviction when making their determination about accepting matters for
prosecution. The Manual advises USAOs to weigh additional relevant
considerations, including: (1) federal law enforcement priorities, (2) the
nature and seriousness of the offense, (3) the deterrent effect of
prosecution, (4) the person's culpability in connection with the offense,
(5) the person's history with respect to criminal activity, (6) the person's
willingness to cooperate in the investigation or prosecution of others, and
(7) the probable sentence or other consequences if the person is convicted.
When USAOs determine not to accept a matter for federal prosecution, it is
referred to as a declination.

                                    - 37 -
       Several factors affect the timing of decisions to accept or decline a
matter for prosecution. In certain instances, the matters referred require
additional investigation before USAOs are able to decide whether to
prosecute. In addition, USAOs may not have available resources to
thoroughly review all matters referred at any given time. Moreover, for
certain types of matters, USAOs must request approval from other entities
prior to making a decision whether to prosecute. For example, the DOJ
National Security Division must review and approve terrorism-related
matters before USAOs file for prosecution. In each of these instances,
referred matters remain in a pending status until a decision is made to either
prosecute or decline the matter. 39

Total Criminal Casework Analysis

      In our review of USAO criminal casework, we first examined the total
number of criminal matters referred to USAOs that were filed, declined, or
pending. This data is provided in Exhibit 4-1. 40 Matters filed and declined
may not have occurred in the same fiscal year in which the matters were
referred. Therefore, we focused on the criminal matters referred to USAOs
during each fiscal year and the status of those matters over the span of our
review period. 41




       39
           “Immediate declinations” are recorded when attorneys decide to decline a matter
after reviewing it for less than 1 hour. In contrast, “later declinations” are recorded when a
decision is made not to continue with the investigation of a matter that has been opened in
LIONS and has been under consideration for prosecution for more than 1 hour.
       40
            For purposes of our analysis, we combined immediate and later declinations.
       41
            As noted in Chapter 2, we identified several concerns with the accuracy and
reliability of the LIONS data. While we believe that these concerns may affect the analyses
we performed, we believe the overall results presented have utility for examining the
prosecutorial activity in the USAOs. Further, the LIONS data is the only such data available
for purposes of our audit and is relied upon by EOUSA.

                                            - 38 -
                           EXHIBIT 4-1
           TOTAL CRIMINAL MATTERS REFERRED TO USAOs
                     FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

     As noted in Exhibit 4-1, the total number of criminal matters referred
to USAOs increased by 10,463, or 10 percent, from FYs 2003 through 2007
– growing from 102,561 in FY 2003 to 113,024 in FY 2007. We also found a
growing number of pending matters throughout our review period. In total,
196,906 matters referred between FYs 2003 and 2007 still remained
pending as of September 30, 2007. Over 25 percent of the total pending
matters were referred during FYs 2003 and 2004.

      When we provided this data to EOUSA officials, they expressed
surprise at the high rate of pending matters, particularly in certain
prosecutorial areas (discussed later in this chapter). Although several
factors affect the timing of USAOs’ decisions to prosecute or decline matters,
the large number of matters that LIONS reflected as still pending at least
3 years after being initially referred to the USAOs seemed unusual. In
addition, EOUSA was unable to explain this high percentage of pending cases
without reviewing individual USAO files.


                                          - 39 -
      Given EOUSA’s surprise at the large percentage of pending matters
and its inability to fully explain the results of our LIONS data analysis, we
attempted to assess whether the matters were actually still pending or
whether the LIONS data was inaccurate. We therefore judgmentally
selected a limited sample of 50 pending matters – 10 matters from 5 of the
prosecutorial areas reviewed. Through coordination with EOUSA, we asked
the applicable USAOs to review the matters and notify us, in writing,
whether the matters were, in fact, pending and if so why they remained
pending.

      According to the USAOs’ responses, 22 of the 50 pending matters were
accurately reflected as awaiting a decision to prosecute as of September 30,
2007. Of these 22 pending matters, several were either still under
investigation or the decision to file or decline the matter for prosecution had
been made during FY 2008. Moreover, 11 of the 22 pending matters were
referred to the USAOs between FYs 2003 and 2005, while the remaining 11
were referred during FYs 2006 and 2007.

       The USAOs responded that the remaining 28 matters were not actually
pending and were instead shown as being terminated within the local LIONS
databases, but not in National LIONS, which is the system that EOUSA uses
for statistical reporting and resource decision-making. The USAOs stated
that several of the matters had been prosecuted and the defendants
sentenced prior to September 30, 2007.

       When we discussed these discrepancies with EOUSA officials, they
stated that EOUSA does not check the accuracy of the data in the National
LIONS by comparing it to what was transmitted from the USAOs or what is
reflected in the LIONS databases maintained in the district offices. EOUSA
officials stated that EOUSA instead relies upon data certifications performed
semiannually by district offices. 42 However, these certifications are done in
the districts and address only the data that the districts submit to EOUSA,
not what is ultimately stored in the National LIONS. Our analysis shows that
these data sets are inconsistent.

      EOUSA officials provided a variety of reasons as to why some of the
matters in our sample would have had subsequent case filings and
terminations in the districts’ LIONS that were not reflected in the National
LIONS. For instance, EOUSA officials explained that the National LIONS was
not capturing all cases filed by districts due to an error in the transmission


       42
          EOUSA requires all districts to prepare semi-annual certifications, signed by the
U.S. Attorney, indicating that the information contained in each USAO’s local database has
been reviewed and accurately reflects the status of pending matters, cases, and appeals.

                                           - 40 -
process. Specifically, the National LIONS does not contain information on
any cases filed by USAOs during a 24-hour timeframe between noon on
September 30 and noon on October 1 of each fiscal year. EOUSA officials
also stated that some matters may have been terminated without a case
having been filed because the matter was handled in a certain court setting,
such as magistrate court, and that these actions are not reflected in LIONS
as case filings. During the audit close-out meeting, EOUSA officials were
interested in these results and advised that EOUSA would look into this
matter.

     We believe that our analysis has revealed significant additional
concerns over the accuracy and reliability of LIONS data. Therefore, EOUSA
needs to implement a mechanism for testing the reliability of the National
LIONS data and communicating with the districts on a regular basis to
ensure that all the information in this system accurately depicts the districts’
casework.

Criminal Casework Analysis by Prosecutorial Area

      We also reviewed the matters referred to USAOs by program
categories to determine if there were any trends in the types of matters
USAOs accepted or declined, as well as those that remained in a pending
status. Specifically, we analyzed matters referred during FYs 2003 through
2007 and assessed the percentage of those matters that were filed,
declined, or pending.

      Terrorism – As reflected in the following exhibit, we determined that
the number of terrorism-related matters referred to USAOs gradually
declined from FYs 2003 through 2007. In addition, the percentage of
terrorism-related matters accepted for prosecution gradually declined
between FYs 2004 and 2007 – from 32 percent in FY 2004 to 18 percent in
FY 2007. According to EOUSA officials, these types of matters usually
remain in a pending status for a longer period of time because the
investigative agencies oftentimes ask the USAOs to refrain from filing any
charges while the agencies gather intelligence and complete their
investigations.




                                     - 41 -
                        EXHIBIT 4-2
 NUMBER OF TERRORISM-RELATED MATTERS REFERRED TO USAOs
               FILED, DECLINED, OR PENDING
                  FYs 2003 THROUGH 2007




       Source: OIG analysis of LIONS data

      From a district perspective, our analysis showed that from FYs 2003 to
2007, the extra-large USAOs generally received the majority of terrorism-
related referrals.

      We also identified substantial variations in the number of matters filed,
declined, or pending among similar-sized district offices, including the
following:

      Of the 296 terrorism-related matters referred to the Northern District
       of California, only 7 percent were accepted for prosecution.

      In contrast, of the 440 terrorism-related matters referred to the Middle
       District of Florida, 52 percent were accepted.

      Appendix XI provides a detailed listing of the total number of
terrorism-related matters referred to each USAO during FYs 2003 through

                                        - 42 -
2007, including the number and percent of those matters filed, declined, or
pending as of September 30, 2007.

       Narcotics – USAOs filed for prosecution a significant percentage of the
referred narcotics matters during each fiscal year of our review period, as
reflected in Exhibit 4-3. In particular, the USAOs filed approximately
75 percent of the narcotics matters referred during each given fiscal year
between FYs 2003 and 2006, and 66 percent of the FY 2007 matters.
According to EOUSA and USAO officials, a large number of narcotics matters
are filed for prosecution because the requisite evidence is generally
presented upon referral or the evidence needed to establish the case is
easily obtainable.

                         EXHIBIT 4-3
       NUMBER OF NARCOTICS MATTERS REFERRED TO USAOs
                FILED, DECLINED, OR PENDING
                   FYs 2003 THROUGH 2007




      Source: OIG analysis of LIONS data

      Appendix XII contains a district-by-district overview of the total
number of narcotics matters referred between FYs 2003 and 2007, as well as
the status of those referred matters as of September 30, 2007.

                                       - 43 -
       Violent Crime – Similar to narcotics matters, the USAOs prosecuted
approximately 70 percent of the violent crime matters referred during each
fiscal year between FYs 2003 and 2006 and 55 percent of the FY 2007
matters. The percentage of matters declined for prosecution decreased
significantly from 25 percent of the matters referred during FY 2003 to
9 percent of the matters referred during FY 2007, as reflected in Exhibit 4-4.

                         EXHIBIT 4-4
     NUMBER OF VIOLENT CRIME MATTERS REFERRED TO USAOs
                FILED, DECLINED, OR PENDING
                   FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

      Appendix XIII provides a detailed listing of the total number of violent
crime matters referred to each USAO during FYs 2003 through 2007,
including the number and percent of those matters filed, declined, or
pending as of September 30, 2007.

       White Collar Crime – The results of our analyses of white collar crime
matters were similar to those associated with terrorism-related matters. As
reflected in the following exhibit, we determined that the percentage of
white collar crime matters accepted for prosecution steadily declined from

                                      - 44 -
FYs 2003 through 2007 – decreasing from 50 percent in FY 2003 to
28 percent in FY 2007. Similarly, we found that the percentage of matters
declined for prosecution decreased from 37 percent of the matters referred
during FY 2003 to 7 percent referred during FY 2007.

                       EXHIBIT 4-5
 NUMBER OF WHITE COLLAR CRIME MATTERS REFERRED TO USAOs
              FILED, DECLINED, OR PENDING
                 FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

     Appendix XIV contains a district-by-district overview of the total
number of white collar crime matters referred between FYs 2003 and 2007,
as well as the status of those referred matters as of September 30, 2007.

      Immigration – During our review period, the USAOs received more
immigration-related referrals than any other single type of criminal matter.
Unlike the other prosecutorial areas we reviewed, USAOs declined for
prosecution very few immigration matters during FYs 2003 through 2007 –
only 1.5 percent of the total immigration matters referred during this 5-year
period.


                                      - 45 -
                           EXHIBIT 4-6
       NUMBER OF IMMIGRATION MATTERS REFERRED TO USAOs
                  FILED, DECLINED, OR PENDING
                     FYs 2003 THROUGH 2007




       Source: OIG analysis of LIONS data

      USAOs located along the Southwest border accounted for nearly
80 percent of all immigration matters referred to USAOs between FYs 2003
and 2007. 43 Appendix XV provides a detailed listing of the total number of
immigration matters referred to each USAO during FYs 2003 through 2007,
including the number and percent of those matters filed, declined, or
pending as of September 30, 2007.

        Public Corruption – We found that between 23 and 46 percent of
public corruption matters referred to USAOs were declined for prosecution
between FYs 2003 and 2006. The percentage of matters filed for
prosecution gradually declined from FYs 2003 through 2007. Exhibit 4-7


       43
            The following USAOs are considered Southwest border districts: (1) Southern
District of California, (2) District of Arizona, (3) District of New Mexico, (4) Western District
of Texas, and (5) Southern District of Texas.

                                             - 46 -
shows the number of public corruption matters filed, declined, or pending by
USAOs throughout our review period.
                       EXHIBIT 4-7
 NUMBER OF PUBLIC CORRUPTION MATTERS REFERRED TO USAOs
              FILED, DECLINED, OR PENDING
                 FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

     Appendix XVI contains more detailed information on public corruption
matters within each USAO.

      Organized Crime – USAOs were referred fewer organized crime
matters between FYs 2003 and 2007 than any other prosecutorial area we
reviewed. We found that between 41 and 53 percent of organized crime
matters referred to USAOs were filed for prosecution between FYs 2003 and
2007. The percentage of matters declined for prosecution gradually
decreased throughout our review period.




                                      - 47 -
                        EXHIBIT 4-8
   NUMBER OF ORGANIZED CRIME MATTERS REFERRED TO USAOs
               FILED, DECLINED, OR PENDING
                  FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

      Among USAOs, we identified 24 offices that were not referred any
organized crime matters between FYs 2003 and 2007. Moreover, we found
that the following 4 USAOs were referred 756 of the 1,864 total matters
during this time period: (1) District of Massachusetts, (2) District of
New Jersey, (3) Eastern District of New York, and (4) Southern District of
New York.

     Appendix XVII provides a detailed listing of the total number of
organized crime matters referred to each USAO during FYs 2003 through
2007, including the number and percent of those matters filed, declined, or
pending as of September 30, 2007.

      Civil Rights – Compared to the other prosecutorial areas that we
reviewed, we found that civil rights matters were more likely to be declined
than filed for prosecution. Our analysis showed that only 8 percent of all



                                      - 48 -
civil rights matters referred during FYs 2003 to 2007 were filed for
prosecution, and nearly 70 percent were declined.

      According to a USAO official, the majority of civil rights matters
declined are “color of law” violations, which we found to be the case during
our analysis of the civil rights casework data. 44 This official further
explained that the USAOs generally decline these matters because they are
usually based upon circumstantial evidence and are very dependent upon
the perceived credibility of the plaintiff and witnesses. Exhibit 4-9 shows the
number of civil rights matters filed, declined, or pending by USAOs
throughout our review period.

                           EXHIBIT 4-9
       NUMBER OF CIVIL RIGHTS MATTERS REFERRED TO USAOs
                  FILED, DECLINED, OR PENDING
                     FYs 2003 THROUGH 2007




      Source: OIG analysis of LIONS data




       44
          "Color of law" is a legal term used in official misconduct cases. It means that a
law enforcement officer allegedly abused the authority provided by reason of the individual’s
employment as a public official.

                                           - 49 -
     Appendix XVIII contains more detailed information on civil rights
matters within each USAO.

      All Other Criminal Matters – Several criminal activities fall into the
category of “All Other Criminal,” including fugitive violations,
pornography/obscenity violations, and government regulatory offenses.
Exhibit 4-10 shows the number of other criminal matters filed, declined, or
pending by USAOs throughout our review period. Appendix XIX provides a
detailed listing of the total number of all other criminal matters referred to
each USAO during FYs 2003 through 2007, including the number and
percent of those matters filed, declined, or pending as of September 30,
2007.

                       EXHIBIT 4-10
 NUMBER OF ALL OTHER CRIMINAL MATTERS REFERRED TO USAOs
               FILED, DECLINED, OR PENDING
                  FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data




                                      - 50 -
Summary of Criminal Casework Analyses

      As reflected in the results of our criminal casework analyses, USAOs
are more likely to file certain types of criminal matters for prosecution than
others. We found that USAOs filed the majority of immigration, narcotics,
and violent crime matters referred to them during the 5 years of our review.
According to EOUSA and USAO officials, certain types of these matters are
usually supported by adequate evidence at the time of referral. In contrast,
matters such as civil rights, public corruption, and terrorism were more likely
to be declined. According to EOUSA and USAO officials, the primary
determinant for declining such matters is insufficient evidence.

       Our analyses also revealed that a significant number of matters
referred between FYs 2003 and 2007 remained in a pending status as of
September 30, 2007, although our sampling of a limited number of cases
indicated that the LIONS data is unreliable and inaccurate as to the pending
status of cases. However, according to EOUSA officials, various factors can
cause delays in accepting or declining a matter, including their complexity,
the availability of resources, and the attainability of evidentiary support.
Nevertheless, EOUSA and USAO officials informed us that they believed that
certain matters, such as immigration and narcotics, should not generally
remain pending for an extended period of time, and they were surprised by
our findings that a large percentage remained pending as of September 30,
2007. Upon further inquiry, we determined that many of the pending
matters had been closed within their local LIONS systems and that these
matters should not be considered pending. We believe that EOUSA must
ensure that the information entered at the district level is accurately
reflected within the National LIONS.

USAO Civil Casework

       We also analyzed data on the civil casework of USAOs for FYs 2003
through 2007. Unlike criminal casework, USAOs do not record declinations of
civil matters referred because in the majority of instances civil cases are
defensive matters that USAOs must accept. However, EOUSA maintains data
on the number of civil matters referred to USAOs as well as the status of the
cases (filed or pending). Civil cases handled by USAOs include issues such as
affirmative civil enforcement and asset forfeiture cases. Exhibit 4-11
presents the number of total civil matters referred that were either filed or
pending during our 5-year review period. As with our criminal casework
analysis, the date a case was filed may not be the same fiscal year in which
the matter was referred.



                                    - 51 -
                          EXHIBIT 4-11
            OVERALL CIVIL MATTERS REFERRED TO USAOs
                     FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data

      As shown in the preceding exhibit, the total number of civil matters
referred to USAOs decreased by 9,118, or 10 percent, from FYs 2003
through 2007. Of the civil matters referred during those 5 fiscal years, the
percentage of matters filed remained relatively steady – ranging from
87 percent to 90 percent of all matters referred during each fiscal year.
According to EOUSA officials, because a large proportion of the civil workload
involves defensive litigation (defending the federal government) that USAOs
must accept, the number of civil matters filed (as a percentage of the
number of matters referred) should be relatively high. Appendix XX
presents civil casework information for each USAO.




                                      - 52 -
Criminal and Civil Casework per Attorney FTE 45

      In addition to our analyses of matters filed, declined, or pending, we
reviewed case data in association with the utilization of attorneys within
USAOs to determine the average caseload per attorney FTE for FYs 2003
through 2007. 46 As reflected in Exhibit 4-12, the average caseload per
attorney FTE did not change drastically from one fiscal year to the next
throughout our review period. There was only a 2.46 increase, or 7 percent,
of cases per attorney FTE from FY 2003 to FY 2007.

                       EXHIBIT 4-12
    AVERAGE NUMBER OF TOTAL CASES PER USAO ATTORNEY FTE
                  FYs 2003 THROUGH 2007




     Source: OIG analysis of LIONS data



       45
          For our casework per attorney FTE analyses, we relied upon the number of FTEs
associated with criminal and civil activities as recorded in the USA-5 system. We excluded
time recorded to management and administration. In addition, our analyses exclude time
expended by Special AUSAs who may have assisted USAOs with their casework during our
review period.
       46
           For our attorney caseload analysis, we utilized information on pending cases and
did not include pending matters in this assessment. As described previously, cases are
different than matters, which we analyzed and presented earlier in this chapter. In
particular, a pending matter is awaiting a decision to prosecute, while a pending case
indicates that a court action has been taken and is awaiting a final disposition, such as a
verdict.

                                          - 53 -
       We also performed separate analyses of the average criminal and civil
 caseload per attorney FTE for FYs 2003 and 2007. We grouped these results
 by EOUSA’s categorization of USAOs based upon office size, as shown in the
 following table.

                           EXHIBIT 4-13
          CRIMINAL AND CIVIL CASELOADS PER ATTORNEY FTE
                        FYs 2003 AND 2007
                        FY 2003                 FY 2007
                                            Cases                             Cases
                                              per                               per
                      Active    Utilized   Attorney     Active    Utilized   Attorney
                      Cases       FTE        FTE        Cases       FTE        FTE
Criminal:
Small USAOs            4,591     305.65        15.02     5,389     312.78     17.23
Medium USAOs          10,944     644.11        16.99    12,491     649.15     19.24
Large USAOs           14,114     846.67        16.67    15,217     852.15     17.86
Extra-large USAOs     33,850    1,856.14       18.24    38,809    1,758.82    22.07
Total                 63,499    3,652.57       17.38    71,906    3,572.90    20.13

Civil:
Small USAOs             8,201     103.27        79.41    8,269     102.86      80.39
Medium USAOs           26,447     207.73       127.32    22,700    213.54     106.30
Large USAOs            28,484     275.58       103.36    29,180    266.27     109.59
Extra-large USAOs      49,956     489.65       102.02    51,918    466.70     111.24
Total                 113,088 1,076.23         105.08   112,067   1,049.37    106.79
Source: OIG analysis of USA-5 and LIONS data

       As depicted in the preceding exhibit, the criminal cases per attorney
 FTE increased from FYs 2003 to 2007 among each grouping of USAOs.
 Similarly, with the exception of medium-sized USAOs, the civil cases per
 attorney FTE increased within each group from FYs 2003 to 2007.

        Appendix XXI contains a listing of criminal and civil caseloads per
 attorney FTE for each USAO. We used this information to compare an
 individual USAO’s criminal and civil caseload per attorney FTE to those of
 other similar-sized offices. This analysis revealed several districts that
 experienced significant deviations from the average criminal and civil
 caseloads per attorney FTE. Regarding criminal caseloads, we determined
 that the extra-large offices generally had 22 cases per attorney FTE in
 FY 2007. However, the Districts of Arizona and Western Texas each had an
 average of more than 50 criminal cases per attorney FTE, while the District
 of Columbia and the District of Massachusetts had average criminal
 caseloads of 3 and 10 cases per attorney FTE, respectively.


                                        - 54 -
       However, the problems with the LIONS data and the failure of USAOs
to close pending cases in LIONS could affect this analysis. This results in
cases that are no longer part of a USAO’s active workload being shown as
on-going instead of terminated, which leads to an inaccurate view of a
district’s workload. Therefore, the caseloads per attorney FTE presented in
Exhibits 4-12 and 4-13 may be higher than what is actually occurring.

EOUSA Monitoring

      As with the utilization of attorneys, EOUSA executive management
does not receive routine casework-related reports that provide a
comprehensive assessment of the number and types of cases handled by
each USAO. Again, EOUSA monitors USAO casework and workloads during
its EARS reviews of district offices, which occurred every 4 to 5 years.47 In
addition to the EARS reviews, the Data Analysis Staff at EOUSA analyzes
USAO data on an ad hoc basis when it receives requests, including inquiries
received from EOUSA executive management, the Attorney General, and
Congress. The Data Analysis Staff also compiles an annual statistical report
that provides details on the entire caseload of individual USAOs. However,
the Data Analysis Staff does not include specific district caseload
information, such as the number of narcotics trafficking cases filed by each
USAO, in these annual statistical reports.

      As discussed in Chapter 3, EOUSA hopes to address this issue by
developing a method to evaluate the resource management of all 94 USAOs
on a consistent basis – including examining the casework of USAOs.

Conclusion

      In total, we determined that 554,675 criminal matters were referred to
USAOs between FYs 2003 through 2007. According to LIONS data, of these
criminal matters, over 50 percent were filed for prosecution, 13 percent
were declined, and 35 percent remained in a pending status as of the end of
FY 2007.

       We evaluated the status of criminal matters referred in specific
prosecutorial areas and identified certain matters that were more likely to be
filed for prosecution, such as narcotics and violent crime, which officials said
generally have more concrete evidence upon referral. USAOs declined more


      47
          As mentioned in Chapter 1, these EARS reviews were designed to be performed
on a triennial cycle. However, EOUSA officials stated that during the period that we
reviewed, the EARS reviews were occurring every 4 to 5 years because of budget
constraints.

                                        - 55 -
referrals involving civil rights and public corruption cases, where officials said
evidence is more difficult to obtain.

       We also analyzed the civil casework of USAOs and found that
88 percent of the 424,538 civil matters referred to USAOs during FYs 2003
through 2007 were filed, while the remaining 12 percent were in a pending
status. We assessed the average total caseload per attorney FTE and found
that it remained relatively constant throughout our review period – ranging
from 37 cases per attorney FTE in FY 2003 to 40 cases per attorney FTE in
FY 2007.

      Our review of the criminal and civil caseloads per attorney FTE showed
that the overall criminal and civil caseloads per attorney FTE increased from
FYs 2003 to 2007. Specifically, the average criminal caseload increased
from 17 cases per attorney FTE in FY 2003 to 20 cases per attorney FTE in
FY 2007. Civil casework increased by 2 percent from FYs 2003 to 2007 from
105 cases per attorney FTE to 107 cases per attorney FTE.

      During our review period, we found that EOUSA assesses the workload
of USAOs during EARS evaluations, which took place every 4-5 years.
EOUSA’s Data Analysis Staff generates annual statistical reports, but they do
not include detailed district analyses. Although EOUSA examines the
casework of USAOs on a general level, we believe it should perform regular
comprehensive assessments. We were told that EOUSA has recently begun
to develop such a program. We believe that regularly generating and
reviewing analyses similar to those presented in this chapter could help
EOUSA in overseeing the USAOs’ operations.

Recommendation

We recommend that EOUSA:

   10. Ensure that a comprehensive review of each USAO’s casework is
      performed annually, including a comparison of the data maintained in
      individual district LIONS databases to the information reflected in the
      National LIONS.




                                     - 56 -
                                                                  APPENDIX I


             OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

      The objectives of this audit were to: (1) examine the accuracy and
completeness of the data regarding USAO resource utilization and cases, as
well as to assess the process by which personnel resources are allocated
among USAOs; (2) determine the allocation and utilization of attorneys
within USAOs; and (3) determine the changes in USAO casework from
FY 2003 through FY 2007.

Scope and Methodology

      We performed our audit in accordance with the Government Auditing
Standards and included such tests of the records and procedures that we
considered necessary to achieve the audit objectives.

      To accomplish our objectives, we interviewed officials at EOUSA and
reviewed empirical USAO resource allocation, resource utilization, and
casework data.

Interviews

      During the course of our review, we interviewed officials within the
various sections of EOUSA, including the Director and Deputy Directors.
Additionally, we spoke with USAO officials detailed to EOUSA; officials from
the Northern District of Illinois, including the U.S. Attorney; and the U.S.
Attorney from the Central District of Illinois. These interviews, as well as
documentation obtained during these discussions, provided perspective on
the resource-related and casework issues covered by our audit objectives.
In total, we interviewed 44 EOUSA and USAO officials.

Resource and Casework Data

       To assist in accomplishing our audit objectives, we analyzed data
provided by EOUSA. Specifically, we conducted analyses of USAO resource
allocation, resource utilization, and casework data. To examine the USAOs’
human resource utilization, we analyzed data from the USAOs’ time
recordkeeping system – the USA-5 – for the period of FYs 2003 through
2007. This system captures the time of attorneys, paralegals, and support
staff within each USAO. To examine the types and quantity of work handled
by the USAOs during this same time period, we analyzed data from the
USAOs’ case management system – LIONS.


                                    - 57 -
                                                                      APPENDIX I


Internal Controls and Compliance with Laws and Regulations

       Our audit objectives were informational in nature. Our assessment of
internal controls was limited to our review of USAO data contained in the
USA-5 system and LIONS. As noted in the body of this report, we identified
concerns with the accuracy and reliability of the data contained within these
automated systems. While we believe that these issues may affect the
analyses performed, we believe that the overall results presented have
utility for looking at the USAOs as a whole to gain a basic understanding of
the agency’s resource utilization and workload. We did not perform an
independent, overall assessment of the reliability of the data in the USAOs’
automated systems. Further, we determined examining compliance with
laws and regulations was not significant to our objectives.

Data Analysis

       We performed analyses of USAO resource allocation, resource
utilization, and casework data to identify trends and note significant changes
in the USAOs’ operations from FY 2003 to FY 2007. In total, this data was
comprised of 4,086,902 records.

USAO Human Resources

        We conducted analyses of USAO resource allocation and utilization
data.

        Allocated Resource Levels

       We used data maintained in the Resource Management and Planning
Staff’s database to analyze the allocation of USAO resources. 48 EOUSA has
tracked the specific areas to which positions have been allocated to district
offices since 2000, such as counterterrorism and corporate fraud.
Allocations made prior to 2000 are combined into a category entitled
“general.” We obtained the attorney allocations of each USAO to the
greatest level of detail available for each fiscal year of our review period,
focusing on changes occurring between FYs 2003 and 2007. The total
allocated attorney FTE data amounted to 5,818 records.




        48
             EOUSA maintains this allocation data in terms of FTEs.


                                             - 58 -
                                                                             APPENDIX I


       Resource Utilization Levels

      Most USAO employees record their time into the USA-5 system, at a
minimum, on a monthly basis. 49 When completing the USA-5, USAO
personnel record either the actual number of hours worked or the
percentage of hours worked (based on an 8-hour day) to USA-5 categories
that are attributed to the type of function or duty being performed. For
example, for any 8-hour day, an attorney might record that he worked
4 hours handling a civil rights case, 2 hours on a narcotics-related trial, and
another 2 hours on criminal appeals. The data entered into the USA-5 is
then converted into FTEs. However, the USA-5 data is only as valid as the
information reported by USAO personnel. EOUSA considers the USA-5
system’s data to be the best way to assess the actual amount worked by
USAO attorneys in specific prosecutorial areas.

       During our review period, the USA-5A information was tracked
separately and was not maintained in association with a particular USA-5
category. As a result, the USA-5 data run associated with attorney regular
time was provided in two text files, which we imported into two separate
database files. These data runs contained a total of 351,430 records and
contained information within 5 different fields. Each data run had the same
fields. However, the category field within one of the data runs tracked time
recorded to USA-5 categories, while the category field in the other data run
indicated the USA-5A category used. Following is a listing of the fields used
as part of our analyses:

Field Name                            Field Description
    District                         2- or 3-character designation for USAO
    Month-Year                       Identifier of month and year to which
                                      record applies (mmm-yyyy format)
      Category                       USA-5 or USA-5A category code
      Category Description           Description of USA-5 or USA-5A category
      Attorney Permanent FTE         Number of attorney FTEs spent on a
                                      particular activity

      We analyzed the resource utilization data by fiscal year. Since the
data provided was according to month, we totaled the attorney FTEs for all
months within each fiscal year for each USA-5 and USA-5A category. Next,
we divided this total by 12 months to obtain the annualized average number
of personnel working on a particular prosecutorial area in a given fiscal year.


       49
           Attorneys, paralegals, support personnel, and Special Assistant U.S. Attorneys
(SAUSAs) record their time into the USA-5 system. However, the USA-5 system does not
track the time of contractors and students working in USAOs.


                                          - 59 -
                                                                   APPENDIX I


      Additionally, we found that EOUSA tracks attorney’s additional time
separately, which is maintained in terms of hours. Therefore, we obtained
another USA-5 data run associated with additional attorney hours, which
was provided in two text files – one for the USA-5 categories and another for
the USA-5A categories. These data runs, in total, amounted to
351,430 records, which we imported into 2 separate database files. As with
the attorney regular time, each data run had the same fields and was
tracked in the same way.

      We also analyzed the additional resource utilization data by fiscal year.
Since the data provided was in terms of hours, we totaled the additional
attorney hours for all months within each fiscal year for each USA-5 and
USA-5A category. Next, we divided each total by 2,080 hours to obtain the
average number of personnel working on a particular prosecutorial area in a
given fiscal year. This computation provided us with the reported number of
FTEs involved in the various prosecutorial areas. Finally, to provide an
overall evaluation of the number of attorney resources expended on various
prosecutorial areas, we combined the results of the regular attorney FTEs
with the additional attorney FTEs by USA-5 category and USA-5A category.

      On-board Attorney Levels

      We also attempted to analyze the actual number of on-board attorneys
over the course of our review period. However, the on-board data provided
by EOUSA was not consistent and contained anomalies. After we found that
the initial data appeared illogical, we requested more detailed on-board
data. However, our review of the new on-board attorney data provided by
EOUSA continued to reveal inconsistencies and anomalies. For example, the
data showed significant variations in the number of on-board attorneys
within individual USAOs from pay period to pay period. EOUSA was unable
to explain these variations but provided us with new data files containing on-
board attorney information. We reviewed these new data files and
continued to have questions surrounding the accuracy of the information.
Given the concerns about the accuracy of the information in the various on-
board data files provided, we did not include an on-board attorney analysis
within our report.

USAO Casework

      For our analyses of the USAO casework, we received various data runs
from LIONS, focusing on matters referred, matters declined, cases filed,
cases pending, and cases terminated from FY 2003 to FY 2007. The data
runs were provided in text files and each one was imported into separate
database files.


                                    - 60 -
                                                                         APPENDIX I


       Matters Referred

       The text file received on the matters referred to USAOs was imported
into a database file and contained 979,213 records. The data was separated
into the following fields:

Field Name                  Field Description
      Fiscal Year          The fiscal year of the matter
                            Number that identifies all tables connected to a
      USAOID
                            civil/criminal matter (USAO Number)
      District             Code for the district handling the civil/criminal matter
      Program Category     Code for the program category that further defines the
       (Criminal)           type of criminal matter, e.g., Health Care Fraud
      Cause of Action      Code for the cause of action of the civil matter, e.g.,
       (Civil)              COSL (Student Loan)
                            Date when the civil/criminal matter was received in the
      Received Date
                            USAO

       Declinations

       We received two separate text files for criminal matters declined by
USAOs, one for immediate declinations and another for later declinations.
After importing these files into two separate database files, we appended
them and created one file for all declinations, which totaled 152,392 records.
The data was separated into the following fields:

Field Name                   Field Description
      Fiscal Year           The fiscal year of the declination
                             Number that identifies all tables connected to a
      USAOID
                             criminal action (USAO Number)
      District              Code for the district handling the criminal action
      Program Category      Code for the program category that further defines the
       (Criminal)            type of criminal action, e.g., Health Care Fraud
                             Code that identifies the reason a criminal action was
      Declination Reason
                             declined, e.g., JTRD (Jury Trial District Court)

       Cases Filed

      The text file received on the cases filed by USAOs was imported into a
database file and contained 680,551 records. The data was separated into
the following fields:




                                        - 61 -
                                                                     APPENDIX I


Field Name                 Field Description
     Fiscal Year          The fiscal year of the filed case
                           Number that identifies all tables connected to a
     USAOID
                           civil/criminal case (USAO Number)
     District             Code for the district handling the civil/criminal case
     Cause of Action      Code for the cause of action of the civil case, e.g.,
      (Civil)              COSL (Student Loan)
     Program Category     Code for the program category that further defines the
      (Criminal)           type of criminal case, e.g., Health Care Fraud
     Filing Date          Date the instrument was filed in court
                           Date that the filing date information was entered into
     System Filing Date
                           LIONS

      Cases Pending

       The text file received on the cases pending at USAOs was imported
into a database file and contained 910,347 records. The data was separated
into the following fields:

Field Name                 Field Description
     Fiscal Year          The fiscal year of the filed case
                           Number that identifies all tables connected to a
     USAOID
                           civil/criminal case (USAO Number)
     District             Code for the district handling the civil/criminal case
     Cause of Action      Code for the cause of action of the civil case, e.g.,
      (Civil)              COSL (Student Loan)
     Program Category     Code for the program category that further defines the
      (Criminal)           type of criminal case, e.g., Health Care Fraud

      Cases Terminated

       The text file received on the cases terminated by USAOs was imported
into a database file and contained 655,721 records. The data was separated
into the same fields as the cases pending data.

      Methodology for Analyses

       According to an EOUSA official, each matter or case is assigned a
unique USAOID within a particular district. However, multiple districts could
have the same USAOID associated with their own particular matter or case.
As a result, EOUSA examines both the USAOID and district fields to ensure
that it accounts for all matters and cases handled by USAOs, including those
matters and cases with the same USAOID but associated with different
district offices. For purposes of our review, we created a unique USAOID
field that combined the USAOID number with the district name for each of
the casework data runs previously mentioned.


                                     - 62 -
                                                                   APPENDIX I


      Further, within each data run, we separated the information into civil-
related casework and criminal-related casework. To obtain all criminal-
related records, we extracted the data according to the program category
codes. Similarly, to obtain all civil-related records, we extracted the data
according to the cause of action codes. It should be noted that the
immediate and later declinations tracked within LIONS apply only to criminal
matters. Therefore, we did not have to separate the declination data into
criminal and civil declinations.

       For the majority of our casework analyses, we reviewed the types and
numbers of criminal matters referred to USAOs and determined if those
matters were filed for prosecution, declined, or remained pending. To
perform this analysis, we joined data from the matters referred database to
the cases filed and declinations databases according to the unique USAOID
field contained within each database. The results of this analysis showed the
status of criminal matters referred to USAOs during a particular fiscal year.
It did not show when a matter was actually filed for prosecution or declined.
For example, our analyses may have revealed that between FYs 2003 and
2007, the USAOs filed 1,000 narcotics matters that were referred during
FY 2003. Although these 1,000 matters were referred in FY 2003, they may
not have all been filed during that fiscal year. Some of them may also have
been filed in FYs 2004, 2005, 2006, or 2007. We were then able to compute
the number of criminal matters that remained pending as of September 30,
2007, by subtracting the number of matters filed and declined from the
matters referred during a given fiscal year.

      To gain insight into the universe of pending matters in LIONS, we
judgmentally selected a sample of 50 pending criminal matters from the
196,906 total pending criminal matters identified during our review period.
We focused our sample on five prosecutorial areas: (1) immigration,
(2) narcotics, (3) terrorism, (4) violent crime, and (5) white collar crime.
Within each of these areas, we selected 10 pending matters and opted to
choose 2 records from each fiscal year of our review period (FYs 2003
through 2007). Moreover, we decided to select no more than one record
from a district office in a particular prosecutorial area and no more than two
records per district office for our overall sample.

       To determine the criminal and civil caseloads per attorney FTE, we
relied upon the data run of pending cases and computed the total number of
pending criminal and civil cases within each office as of the end of FY 2007.
We then divided these totals by the total number of criminal and civil
attorney FTEs (regular and additional) utilized within each office during
FY 2007 as reflected in the USA-5.



                                    - 63 -
                                                                   APPENDIX I


      We confined each of our casework analyses to the data we obtained
from the LIONS system and did not review individual files to examine the
actual level of effort expended on a single matter or case. Thus, if a matter
was referred, declined, or filed for prosecution during a particular timeframe,
we considered it to be reviewed during that period.




                                    - 64 -
                                            APPENDIX II



              MAP OF USA DISTRICT OFFICES




Source: OIG




                         - 65 -
                                                               APPENDIX III



                          USAO ACRONYMS
 Acronym            District          Acronym            District
AK         Alaska                     MT        Montana
ALM        Alabama-Middle             NCE       North Carolina-Eastern
ALN        Alabama-Northern           NCM       North Carolina-Middle
ALS        Alabama-Southern           NCW       North Carolina-Western
ARE        Arkansas-Eastern           ND        North Dakota
ARW        Arkansas-Western           NE        Nebraska
AZ         Arizona                    NH        New Hampshire
CAC        California-Central         NJ        New Jersey
CAE        California-Eastern         NM        New Mexico
CAN        California-Northern        NMI       Northern Mariana Islands
CAS        California-Southern        NV        Nevada
CO         Colorado                   NYE       New York-Eastern
CT         Connecticut                NYN       New York-Northern
DC         District of Columbia       NYS       New York-Southern
DE         Delaware                   NYW       New York-Western
FLM        Florida-Middle             OHN       Ohio-Northern
FLN        Florida-Northern           OHS       Ohio-Southern
FLS        Florida-Southern           OKE       Oklahoma-Eastern
GAM        Georgia-Middle             OKN       Oklahoma-Northern
GAN        Georgia-Northern           OKW       Oklahoma-Western
GAS        Georgia-Southern           OR        Oregon
GU         Guam                       PAE       Pennsylvania-Eastern
HI         Hawaii                     PAM       Pennsylvania-Middle
IAN        Iowa-Northern              PAW       Pennsylvania-Western
IAS        Iowa-Southern              PR        Puerto Rico
ID         Idaho                      RI        Rhode Island
ILC        Illinois-Central           SC        South Carolina
ILN        Illinois-Northern          SD        South Dakota
ILS        Illinois-Southern          TNE       Tennessee-Eastern
INN        Indiana-Northern           TNM       Tennessee-Middle
INS        Indiana-Southern           TNW       Tennessee-Western
KS         Kansas                     TXE       Texas-Eastern
KYE        Kentucky-Eastern           TXN       Texas-Northern
KYW        Kentucky-Western           TXS       Texas-Southern
LAE        Louisiana-Eastern          TXW       Texas-Western
LAM        Louisiana-Middle           UT        Utah
LAW        Louisiana-Western          VAE       Virginia-Eastern
MA         Massachusetts              VAW       Virginia-Western
MD         Maryland                   VI        Virgin Islands
ME         Maine                      VT        Vermont
MIE        Michigan-Eastern           WAE       Washington-Eastern
MIW        Michigan-Western           WAW       Washington-Western
MN         Minnesota                  WIE       Wisconsin-Eastern
MOE        Missouri-Eastern           WIW       Wisconsin-Western
MOW        Missouri-Western           WVN       West Virginia-Northern
MSN        Mississippi-Northern       WVS       West Virginia-Southern
MSS        Mississippi-Southern       WY        Wyoming



                                  - 66 -
                   APPENDIX IV


USA-5 PAPER FORM




      - 67 -
         APPENDIX IV




- 68 -
         APPENDIX IV




- 69 -
         APPENDIX IV




- 70 -
                                                                    APPENDIX V



                       TOTAL USAO ATTORNEY UTILIZATION
                          FISCAL YEARS 2003 AND 2007

            In this appendix, we present the total number of attorney FTEs
     utilized, including time recorded in excess of a standard 40-hour work week
     in each USAO during FYs 2003 and 2007, as well as the change in the
     number of total attorney FTEs utilized between FYs 2003 and 2007. We also
     indicate the district size of each office using EOUSA’s categorization of
     USAOs based upon allocated attorney staff levels. During our review period,
     EOUSA used the following distinctions: (1) extra-large (greater than or
     equal to 100 attorneys), (2) large (between 45 and 99.9 attorneys),
     (3) medium (between 25 and 44.9 attorneys), and (4) small (less than
     25 attorneys).

                                                      CHANGE
                           FY 2003     FY 2007      BETWEEN FYs
      DISTRICT             TOTALS      TOTALS      2003 AND 2007      DISTRICT SIZE
Alabama Middle               20.93      24.16            3.23              Small
Alabama North                50.51      49.17            -1.34             Large
Alabama South                26.91       25.83           -1.08             Small
Alaska                       20.06      24.71             4.65             Small
Arizona                     137.38      134.69           -2.69          Extra-Large
Arkansas Eastern             29.05      27.81            -1.24            Medium
Arkansas Western             15.41       14.62           -0.79             Small
California Central          322.39      273.94          -48.45          Extra-Large
California Eastern           75.08       70.86           -4.22             Large
California Northern         127.80      112.67          -15.13          Extra-Large
California Southern         129.62      124.14           -5.48          Extra-Large
Colorado                     80.34      73.29            -7.05             Large
Connecticut                  73.68       71.24           -2.44             Large
Delaware                     19.94      19.19            -0.75             Small
District of Columbia        436.81      374.43          -62.38          Extra-Large
Florida Middle              125.72      111.20          -14.52          Extra-Large
Florida Northern             39.94       38.63           -1.31            Medium
Florida Southern            265.57      234.26          -31.31          Extra-Large
Georgia Middle               29.31       31.05            1.74            Medium
Georgia Northern             92.17      89.39            -2.78             Large
Georgia Southern             28.92       27.25           -1.67            Medium
Guam                         12.92      10.23            -2.69             Small
Hawaii                       34.62       32.09           -2.53            Medium
Idaho                        29.05      29.15             0.10             Small
Illinois Central             34.57       35.17            0.60            Medium
Illinois Northern           178.28      174.95           -3.33          Extra-Large
Illinois Southern            42.68       39.07           -3.61            Medium
Indiana Northern             40.66      38.19            -2.47            Medium



                                       - 71 -
                                                             APPENDIX V


                                                CHANGE
                         FY 2003   FY 2007    BETWEEN FYs
      DISTRICT           TOTALS    TOTALS    2003 AND 2007    DISTRICT SIZE
Indiana Southern           36.85     33.68        -3.17           Medium
Iowa Northern              25.52    26.83          1.31            Small
Iowa Southern              27.17     27.00        -0.17            Small
Kansas                     46.81    47.30          0.49           Medium
Kentucky Eastern           40.83     42.14         1.31           Medium
Kentucky Western           39.72    38.05         -1.67           Medium
Louisiana Eastern          60.50     58.69        -1.81            Large
Louisiana Middle           22.61    25.94          3.33            Small
Louisiana Western          39.77     36.70        -3.07           Medium
Maine                      25.75    26.33          0.58            Small
Maryland                   86.73     82.50        -4.23            Large
Massachusetts             124.60    117.91        -6.69         Extra-Large
Michigan Eastern          112.43    109.22        -3.21         Extra-Large
Michigan Western           40.09     35.97        -4.12           Medium
Minnesota                  55.01    52.96         -2.05            Large
Mississippi Northern       22.29     20.78        -1.51            Small
Mississippi Southern       32.44    35.59          3.15           Medium
Missouri Eastern           64.79     61.08        -3.71            Large
Missouri Western           60.33    62.47          2.14            Large
Montana                    26.19    29.57         3.38             Small
Nebraska                   31.92    27.34         -4.58           Medium
Nevada                     47.05     46.52        -0.53            Large
New Hampshire              27.32    25.77         -1.55            Small
New Jersey                154.68    153.41        -1.27         Extra-Large
New Mexico                 70.71    69.77         -0.94            Large
New York Eastern          203.82    153.28       -50.54         Extra-Large
New York Northern          43.81    46.01          2.20           Medium
New York Southern         261.32    260.20        -1.12         Extra-Large
New York Western           63.28    61.05         -2.23            Large
North Carolina Eastern     43.27     43.27         0.00           Medium
North Carolina Middle      23.78    24.28          0.50            Small
North Carolina Western     38.07     35.79        -2.28           Medium
North Dakota               18.50    18.90          0.40            Small
Ohio Northern              79.57     86.55         6.98            Large
Ohio Southern              60.52    63.53          3.01            Large
Oklahoma Eastern           14.79     14.71        -0.08            Small
Oklahoma Northern          27.79    28.69          0.90           Medium
Oklahoma Western           40.81     39.89        -0.92           Medium
Oregon                     58.73    54.25         -4.48            Large
Pennsylvania Eastern      150.90    139.01       -11.89         Extra-Large
Pennsylvania Middle        36.07    38.29          2.22           Medium
Pennsylvania Western       52.10     56.53         4.43            Large
Puerto Rico                50.23    47.98         -2.25            Large
Rhode Island               22.24     18.78        -3.46            Small


                                   - 72 -
                                                                APPENDIX V


                                                   CHANGE
                          FY 2003    FY 2007     BETWEEN FYs
      DISTRICT            TOTALS     TOTALS     2003 AND 2007    DISTRICT SIZE
South Carolina              65.58      62.44        -3.14             Large
South Dakota                31.86     26.80         -5.06            Medium
Tennessee Eastern           39.80      44.46         4.66            Medium
Tennessee Middle            27.92     36.43          8.51            Medium
Tennessee Western           42.99      39.83        -3.16            Medium
Texas Eastern               55.10     53.86         -1.24             Large
Texas Northern              88.36      93.21         4.85             Large
Texas Southern             167.59     170.75         3.16          Extra-Large
Texas Western              126.51     128.65         2.14          Extra-Large
Utah                        46.87     44.26         -2.61            Medium
Vermont                     23.48      21.81        -1.67             Small
Virginia Eastern           139.91     142.91         3.00          Extra-Large
Virginia Western            26.70     26.74          0.04             Small
Virgin Islands              22.37     18.07         -4.30             Small
Washington Eastern          28.14      29.35         1.21            Medium
Washington Western          70.97     67.51         -3.46             Large
West Virginia Northern      23.24      22.22        -1.02             Small
West Virginia Southern      30.03     29.79         -0.24            Medium
Wisconsin Eastern           42.32      43.15         0.83            Medium
Wisconsin Western           22.88     23.48          0.60             Small
Wyoming                     19.39     21.08          1.69             Small
                  Total   6,274.04   5,982.69      -291.35




                                     - 73 -
                                                                       APPENDIX VI



                         UNUSED USAO ATTORNEY FTEs

             This appendix presents the percentage of unused attorney FTEs during
       FYs 2003 through 2007. For this analysis, we compared the total attorney
       FTEs allocated to the total attorney FTEs utilized within each USAO
       throughout our review period. However, we excluded any time recorded in
       excess of a standard 40-hour work week. For example, during FY 2003, the
       Middle District of Alabama was allocated 19.1 attorney FTEs and utilized
       18.17 attorney FTEs. Thus, this district had a total of 0.93 unused attorney
       FTEs – equating to 4.86 percent. Positive percentages shown within this
       appendix indicate that a USAO did not use its entire allocation of attorney
       FTEs. In contrast, negative percentages indicate that a USAO utilized more
       than its allocated amount of attorney FTEs.

                               PERCENTAGE OF UNUSED ATTORNEY FTE
                                                                                  OFFICE
       DISTRICT           FY 2003    FY 2004       FY 2005   FY 2006   FY 2007     SIZE
Alabama - Middle           4.86%      8.97%         7.40%     1.96%     4.94%       Small
Alabama - Northern         -1.37%      1.68%       11.25%     7.13%     7.72%       Large
Alabama - Southern          3.09%     -0.38%       -0.47%     3.62%    4.23%        Small
Alaska                     18.05%     11.03%       10.44%    20.86%    11.10%       Small
Arizona                     2.91%      7.78%        7.48%    11.56%    11.06%    Extra-Large
Arkansas - Eastern         -0.52%      1.20%        1.71%     5.94%     7.37%      Medium
Arkansas - Western          5.84%     10.78%        5.16%     5.16%    13.52%       Small
California - Central        2.29%      2.20%        4.24%     9.25%    18.10%    Extra-Large
California - Eastern        8.23%      8.22%       10.52%    19.18%    18.12%       Large
California - Northern       1.03%      0.72%        4.27%    10.45%    15.67%    Extra-Large
California - Southern      10.17%     12.29%        4.32%     9.06%    17.17%    Extra-Large
Colorado                   -1.88%     -0.14%        0.51%    11.36%    10.75%       Large
Connecticut                -2.21%     -1.97%       -1.94%    -0.97%     3.72%       Large
Delaware                    4.87%     -3.61%        6.36%    12.30%     5.83%       Small
District of Columbia        3.45%      4.78%        5.67%    11.27%    13.47%    Extra-Large
Florida - Middle            1.83%      3.31%        4.52%    12.58%    15.82%    Extra-Large
Florida - Northern          0.74%      2.63%        5.99%     8.38%     9.82%      Medium
Florida - Southern          7.17%      8.99%       15.23%    18.57%    18.77%    Extra-Large
Georgia - Middle            2.42%      0.28%        4.21%     1.65%    -1.13%      Medium
Georgia - Northern         -0.60%      0.17%        2.80%     1.71%     6.57%       Large
Georgia - Southern          2.45%      3.36%        7.85%     4.76%    12.70%      Medium
Guam                       11.10%     10.60%       17.10%    19.70%    27.20%       Small
Hawaii                     -2.66%     2.29%        3.99%     2.76%      6.53%      Medium
Idaho                      -1.74%     -4.78%       -3.07%    -5.04%    -4.40%       Small
Illinois - Central          5.89%      0.88%        7.20%     6.60%     5.88%      Medium
Illinois - Northern         6.10%      3.52%        4.78%    14.43%    16.29%    Extra-Large
Illinois - Southern        -5.77%     -4.13%       -2.18%     0.80%     3.14%      Medium
Indiana - Northern          7.05%     4.73%        8.84%      4.96%     8.99%      Medium
Indiana - Southern         -2.63%     2.23%        3.45%      5.22%     7.41%      Medium



                                          - 74 -
                                                                      APPENDIX VI

                               PERCENTAGE OF UNUSED ATTORNEY FTE
                                                                                 OFFICE
       DISTRICT            FY 2003   FY 2004      FY 2005   FY 2006   FY 2007     SIZE
Iowa - Northern             -0.29%    -0.27%      -2.17%    -5.81%     0.57%       Small
Iowa - Southern             -1.36%    -1.78%      -4.32%    -3.82%    -3.44%       Small
Kansas                      -4.32%    -4.49%      -2.52%    -2.08%     2.21%      Medium
Kentucky - Eastern           2.65%     4.63%       6.89%     5.89%     6.93%      Medium
Kentucky - Western           3.35%     7.33%      10.29%     5.98%     7.46%      Medium
Louisiana - Eastern          6.98%     2.01%      13.25%    12.85%    11.64%       Large
Louisiana - Middle           9.32%     0.93%      -4.99%    -0.67%    -3.37%       Small
Louisiana - Western         -1.35%    -3.44%      -0.76%     2.69%     7.56%      Medium
Maine                        0.13%     4.42%       1.96%     4.36%     4.00%       Small
Maryland                     3.37%     3.55%       5.53%    10.33%    10.54%       Large
Massachusetts                3.47%     5.08%       6.78%     8.94%    14.69%    Extra-Large
Michigan - Eastern           0.08%     1.12%       2.30%     5.97%     6.48%    Extra-Large
Michigan - Western           6.80%     2.56%       4.21%     7.14%    14.39%      Medium
Minnesota                    4.79%     3.67%       4.49%     6.09%    14.93%       Large
Mississippi - Northern       5.12%     4.83%      12.41%     7.19%     9.68%       Small
Mississippi - Southern      -1.60%     0.02%       5.68%     9.49%    -5.15%      Medium
Missouri - Eastern          -0.52%    2.56%        3.87%    4.28%      2.56%       Large
Missouri - Western           1.71%    -2.10%      -2.15%     0.61%     1.29%       Large
Montana                      1.92%     4.78%       5.55%     4.07%     0.21%       Small
Nebraska                   -10.81%   -11.17%      -3.48%     4.01%    11.03%      Medium
Nevada                      10.85%     1.03%      -0.91%    5.81%     15.56%       Large
New Hampshire               -2.90%     3.32%       3.00%     3.99%     5.98%       Small
New Jersey                   5.95%     5.99%       6.74%     8.45%     8.84%    Extra-Large
New Mexico                   5.14%     3.83%       3.64%     6.53%     8.59%       Large
New York - Eastern           7.14%     4.06%       5.49%    29.77%    31.12%    Extra-Large
New York - Northern          9.60%     2.50%       2.27%     3.50%     5.20%      Medium
New York - Southern          1.92%     2.87%       6.43%     8.94%    15.15%    Extra-Large
New York - Western          -1.20%     2.73%       7.19%     8.80%     6.41%       Large
North Carolina - Eastern    -0.04%    0.72%        4.48%    2.62%      4.00%      Medium
North Carolina - Middle     -0.78%    -1.90%       1.38%     3.77%     6.04%       Small
North Carolina - Western     5.77%     2.42%      11.98%     7.20%     7.67%      Medium
North Dakota                 3.05%     2.22%       3.99%     2.05%     2.44%       Small
Ohio - Northern              8.45%     3.17%       0.53%    5.55%      4.67%       Large
Ohio - Southern             -4.87%    -7.22%      -3.97%    -0.89%    -0.43%       Large
Oklahoma - Eastern          10.80%    15.51%       4.65%    0.21%     11.97%       Small
Oklahoma - Northern          3.43%     1.51%       4.98%     0.88%    -0.28%      Medium
Oklahoma - Western           1.32%     0.03%       1.00%     7.73%     4.48%      Medium
Oregon                      -1.31%    -0.25%       3.98%     5.43%    13.63%       Large
Pennsylvania - Eastern       1.86%     1.12%       1.52%    10.28%    10.50%    Extra-Large
Pennsylvania - Middle        5.94%     0.08%       0.30%     1.63%     2.50%      Medium
Pennsylvania - Western      10.87%     8.63%      10.14%    12.19%    11.92%       Large
Puerto Rico                  9.15%     5.18%      17.34%    18.98%    24.34%       Large
Rhode Island                 8.43%    14.59%      13.79%    20.29%    23.54%       Small
South Carolina              -1.19%    -1.77%       5.10%     7.02%     2.27%       Large
South Dakota                 5.67%     3.49%       9.97%    10.13%    16.91%      Medium
Tennessee - Eastern         11.98%     9.41%       9.36%     5.52%     8.36%      Medium
Tennessee - Middle          13.40%    11.47%       6.24%     2.97%     5.10%      Medium



                                         - 75 -
                                                                       APPENDIX VI

                                PERCENTAGE OF UNUSED ATTORNEY FTE
                                                                                  OFFICE
       DISTRICT             FY 2003   FY 2004      FY 2005   FY 2006   FY 2007     SIZE
Tennessee - Western          0.93%     1.66%        1.52%     6.80%     8.17%      Medium
Texas - Eastern              3.12%     3.10%        3.02%    4.87%      8.37%       Large
Texas - Northern            10.94%    10.77%       11.47%     7.04%     8.58%       Large
Texas - Southern             6.86%     5.76%        4.74%    8.40%     10.23%    Extra-Large
Texas - Western              4.04%     4.74%        4.34%     4.96%     5.41%    Extra-Large
Utah                        -1.63%    -4.12%        1.56%    1.40%      5.28%      Medium
Vermont                     -4.07%    0.86%        1.02%     5.71%     5.12%        Small
Virginia - Eastern           1.89%     1.80%        1.71%    5.52%      4.50%    Extra-Large
Virginia - Western           5.75%     1.54%        0.99%    1.65%     3.72%        Small
Virgin Islands               8.64%    14.65%       31.17%    24.12%    17.60%       Small
Washington - Eastern         1.24%     2.59%        1.35%     1.69%     1.24%      Medium
Washington - Western         1.48%     2.11%        2.78%    10.30%    12.13%       Large
West Virginia - Northern    -5.16%    -6.91%       -4.94%    1.92%     1.29%        Small
West Virginia - Southern     7.25%     3.40%        7.01%    4.95%     10.72%      Medium
Wisconsin - Eastern          6.60%     7.93%        9.66%     7.02%     3.91%      Medium
Wisconsin - Western         -2.00%    -7.02%       -3.19%    2.49%     -3.04%       Small
Wyoming                      6.37%     8.85%        8.30%    6.59%     10.80%       Small
      Total Percentage of
     Unused Attorney FTE     3.59%     3.47%        5.21%     8.86%    11.01%




                                          - 76 -
                                                                      APPENDIX VII



                        COUNTERTERRORISM BURN RATES

             This appendix provides the burn rates of attorney FTEs, in percentage
      terms, for the prosecutorial area of counterterrorism. For these
      computations, we compared the number of attorney FTEs allocated to the
      total number of attorney FTEs utilized (including time recorded in excess of a
      standard 40-hour work week) within each USAO. For example, in FY 2004,
      the District of Columbia was allocated 7 attorney FTEs for counterterrorism
      and utilized a total of 9.8476 attorney FTEs on such matters. This amounted
      to an overburn of 2.8476 FTEs, which equated to a 40.68-percent overburn.

                                          PERCENT CHANGE                         OFFICE
       DISTRICT           FY 2003    FY 2004 FY 2005 FY 2006         FY 2007      SIZE
Alabama - Middle           -79.87%   -90.90%    -82.47%    -90.99%    -91.04%      Small
Alabama - Northern         -25.42%   42.16%      -6.86%    -37.10%    -66.21%      Large
Alabama - Southern         -27.90%   -79.44%    -90.46%    -99.47%    -62.87%      Small
Alaska                     -54.56%   -34.21%    -46.50%    -41.70%    -46.79%      Small
Arizona                    -21.64%    -2.30%      2.15%     -3.13%    -18.72%   Extra-Large
Arkansas - Eastern         -74.40%   -86.27%   -100.00%    -99.90%    -94.61%     Medium
Arkansas - Western        -100.00%   -91.67%    -74.57%    -64.36%    -90.46%      Small
California - Central        -5.07%   16.49%     34.71%     -46.37%    -10.66%   Extra-Large
California - Eastern        70.70%   15.74%       1.62%    -27.12%    -25.66%      Large
California - Northern      -18.87%   -54.36%    -73.66%    -32.49%    -55.91%   Extra-Large
California - Southern       20.77%   -16.43%    11.89%      -9.47%    -45.53%   Extra-Large
Colorado                   -54.68%   -67.51%    -92.28%    -97.56%    -81.07%      Large
Connecticut                -10.90%   11.36%     -16.36%    -22.96%    -26.05%      Large
Delaware                   -95.06%   -94.99%    -85.63%    -94.99%    -95.50%      Small
District of Columbia        -3.19%   40.68%     73.53%     71.32%     45.98%    Extra-Large
Florida - Middle            18.81%    -0.26%    41.27%     -35.42%    -43.81%   Extra-Large
Florida - Northern         -68.10%   -71.59%    -81.27%    -85.07%    -83.56%     Medium
Florida - Southern           2.44%    -8.63%      5.26%    25.79%     37.36%    Extra-Large
Georgia - Middle           -64.46%   -53.67%    -43.96%    -50.98%    -34.21%     Medium
Georgia - Northern         -38.41%   -60.27%    -52.54%    -43.00%    -60.91%      Large
Georgia - Southern         -71.63%     1.92%    -99.81%    -95.45%    -85.63%     Medium
Guam                       -80.23%   -94.46%    -99.90%   -100.00%   -100.00%      Small
Hawaii                     -38.99%   -49.29%    -51.99%    14.47%      -8.89%     Medium
Idaho                       95.59%   128.93%     -4.07%    -45.64%    -69.66%      Small
Illinois - Central         -62.85%   -55.38%    -69.47%    -69.76%    -21.17%     Medium
Illinois - Northern        -23.01%   -48.93%      2.04%    -28.29%    -30.54%   Extra-Large
Illinois - Southern        -64.62%   -90.22%    -74.47%    -45.87%    -63.83%     Medium
Indiana - Northern         -54.83%   -68.15%    -86.54%    -74.31%    -74.40%     Medium
Indiana - Southern         -26.53%   -56.93%    -44.49%    -23.31%    -58.22%     Medium
Iowa - Northern            -14.95%   -30.56%    10.10%     -60.13%    -55.99%      Small
Iowa - Southern            -13.56%   -44.66%    -27.80%    -28.67%    -27.13%      Small
Kansas                     -70.07%   -44.09%    -32.53%      8.34%    40.24%      Medium
Kentucky - Eastern         -34.31%   -44.04%    -53.86%    -64.84%    -51.65%     Medium
Kentucky - Western          19.58%   -11.33%    -41.67%    -32.56%    -49.38%     Medium



                                          - 77 -
                                                                      APPENDIX VII

                                          PERCENT CHANGE                         OFFICE
      DISTRICT             FY 2003   FY 2004 FY 2005 FY 2006          FY 2007     SIZE
Louisiana - Eastern         34.98%    -26.75%    -66.49%    -77.08%   -41.17%      Large
Louisiana - Middle         -48.09%    -80.45%    -61.43%    -62.53%   -89.94%      Small
Louisiana - Western        -23.26%    -29.62%      1.81%    -24.06%   -39.86%     Medium
Maine                       -4.29%      2.64%    -23.99%    -40.75%   -16.67%      Small
Maryland                    79.90%    56.17%      20.59%      1.12%   63.38%       Large
Massachusetts              -11.85%     -0.07%      7.79%    -13.41%   -17.39%   Extra-Large
Michigan - Eastern           6.82%    15.16%     10.36%     -12.83%    -0.06%   Extra-Large
Michigan - Western         -26.46%    -32.24%    -33.21%    -63.88%   -62.10%     Medium
Minnesota                   91.12%   104.41%     81.94%     -32.89%   -33.26%      Large
Mississippi - Northern     -78.53%    -44.09%    -54.34%    -60.37%   -90.22%      Small
Mississippi - Southern     -91.33%    -80.79%    -65.34%    -85.10%   -83.41%     Medium
Missouri - Eastern          19.05%    19.52%     27.57%     15.29%    -19.84%      Large
Missouri - Western         -65.58%    -50.33%    -75.23%    -21.36%   -21.12%      Large
Montana                    -17.84%    -13.29%    -36.52%    -46.12%   -68.85%      Small
Nebraska                    12.23%      1.59%     -5.06%    17.32%    -79.68%     Medium
Nevada                     -23.63%    -14.55%    -61.36%    -80.88%   -94.00%      Large
New Hampshire              -27.10%    -50.64%    -47.32%    -70.00%   -80.02%      Small
New Jersey                 -32.70%    -28.50%    -20.93%    -51.09%   -40.43%   Extra-Large
New Mexico                 174.22%    51.67%     11.15%       7.58%   26.85%       Large
New York - Eastern           6.66%    -23.94%    -52.99%    -78.69%   -57.46%   Extra-Large
New York - Northern         80.33%    94.01%     87.18%     47.56%    11.49%      Medium
New York - Southern        -52.09%    -37.69%    -78.65%    -78.26%     7.14%   Extra-Large
New York - Western         -28.72%    -49.33%    -56.77%    -49.45%   -59.14%      Large
North Carolina - Eastern   -73.49%    -53.49%    -32.88%    -44.08%   -60.85%     Medium
North Carolina - Middle    -57.61%    -65.66%    -82.08%    -83.14%   -91.47%      Small
North Carolina - Western    -8.34%    -10.47%    -41.89%    -71.37%   -54.81%     Medium
North Dakota               -99.66%    -81.31%    -90.90%   -100.00%   -99.42%      Small
Ohio - Northern            -14.97%    86.09%     58.83%     48.32%    94.68%       Large
Ohio - Southern             -5.02%    34.28%      8.72%     -22.52%   15.95%       Large
Oklahoma - Eastern         -99.23%    -83.33%    -75.00%   -100.00%   -90.80%      Small
Oklahoma - Northern        -98.75%   -100.00%   -100.00%    -90.80%   -90.08%     Medium
Oklahoma - Western          58.59%     -9.42%    -49.25%    -66.94%   -68.00%     Medium
Oregon                      21.71%    22.10%      -6.08%    -11.86%   -14.96%      Large
Pennsylvania - Eastern      30.00%    43.34%     69.67%     12.79%      7.67%   Extra-Large
Pennsylvania - Middle      -77.32%    -99.33%    -99.57%    -96.73%   -86.19%     Medium
Pennsylvania - Western     -26.53%    -35.83%    -25.07%    -42.24%   -65.85%      Large
Puerto Rico                -95.28%    -95.16%    -93.38%    -93.34%   -96.95%      Large
Rhode Island                16.46%    19.10%     -74.47%    -91.33%   -82.37%      Small
South Carolina              -2.09%      0.98%    -30.90%    -27.89%   -34.75%      Large
South Dakota                -4.21%    -72.21%    -99.81%    -99.57%   -99.47%     Medium
Tennessee - Eastern         -9.36%      3.61%    -28.76%    -25.95%   -33.41%     Medium
Tennessee - Middle         -52.68%    -72.65%    -54.94%    -68.20%   -61.63%     Medium
Tennessee - Western        -59.65%    -58.00%    -35.52%    -40.94%   -41.89%     Medium
Texas - Eastern            -27.92%    -28.25%    -21.43%    -48.14%   -66.67%      Large
Texas - Northern            12.78%     -7.73%    -15.59%    -41.94%   -41.64%      Large
Texas - Southern            69.60%    64.34%     75.05%     50.38%    35.18%    Extra-Large
Texas - Western             -2.61%     -6.63%    -21.93%     -6.27%   -26.38%   Extra-Large
Utah                       -52.83%    -45.83%    -87.50%    -99.95%   -86.71%     Medium



                                          - 78 -
                                                                    APPENDIX VII

                                          PERCENT CHANGE                        OFFICE
       DISTRICT            FY 2003   FY 2004 FY 2005 FY 2006        FY 2007      SIZE
Vermont                    -80.02%   -90.56%   -99.81%    -99.81%    -90.08%      Small
Virginia - Eastern         -20.82%    -0.13%    -2.45%    -24.51%    -41.86%   Extra-Large
Virginia - Western         -79.34%   -74.78%   -95.79%   -100.00%   -100.00%      Small
Virgin Islands             -40.54%   -95.54%   -90.10%    -95.21%   -100.00%      Small
Washington - Eastern       -40.68%   -83.48%   -62.75%    -93.74%    -90.82%     Medium
Washington - Western        -0.98%   -38.00%   -84.54%    -75.73%    -50.84%      Large
West Virginia - Northern   -33.78%   10.64%     9.29%     68.43%     86.47%       Small
West Virginia - Southern   -63.01%   -72.16%   -83.14%    -91.33%   -100.00%     Medium
Wisconsin - Eastern         85.66%   61.23%    -37.55%    41.33%     45.98%      Medium
Wisconsin - Western         11.15%   86.46%    46.52%     -15.08%     4.66%       Small
Wyoming                    -72.36%   -81.12%   -73.80%    -70.43%    -82.80%      Small

   Total Percent Change    -18.27%   -19.05%   -24.45%   -35.11%    -31.86%




                                          - 79 -
                                                                     APPENDIX VIII



                        HEALTH CARE FRAUD BURN RATES

             This appendix provides the burn rates of attorney FTEs, in percentage
      terms, for the prosecutorial area of health care fraud. For these
      computations, we compared the number of attorney FTEs allocated to the
      total number of attorney FTEs utilized (including time recorded in excess of a
      standard 40-hour work week) within each USAO. For example, in FY 2007,
      the Central District of California was allocated 6 attorney FTEs for health
      care fraud and utilized a total of 12.3972 attorney FTEs on such matters.
      This amounted to an overburn of 6.3972 FTEs, which equated to a
      106.62-percent overburn.

                                         PERCENT CHANGE                          OFFICE
       DISTRICT          FY 2003    FY 2004 FY 2005 FY 2006          FY 2007      SIZE
Alabama - Middle          -89.46%   -63.11%    -62.24%     -90.90%   -100.00%      Small
Alabama - Northern           N/A       N/A        N/A         N/A       N/A        Large
Alabama - Southern        -72.60%   -91.04%    -99.66%    -100.00%    -90.75%      Small
Alaska                       N/A       N/A        N/A         N/A       N/A        Small
Arizona                      N/A       N/A        N/A         N/A       N/A     Extra-Large
Arkansas - Eastern           N/A       N/A        N/A         N/A       N/A       Medium
Arkansas - Western           N/A       N/A        N/A         N/A       N/A        Small
California - Central      160.40%   203.46%    178.34%    155.37%    106.62%    Extra-Large
California - Eastern       -2.55%    -8.32%    -24.58%     -56.46%    28.04%       Large
California - Northern      29.73%   39.13%     103.72%    148.06%     30.40%    Extra-Large
California - Southern      92.95%   108.41%    205.29%    102.03%     -55.17%   Extra-Large
Colorado                    6.70%    4.33%      1.15%      22.68%      4.70%       Large
Connecticut                32.58%    43.37%     19.91%     40.99%      7.94%       Large
Delaware                  -10.29%   -42.69%    -60.32%     -72.12%    -90.46%      Small
District of Columbia      285.37%    63.00%     89.60%    120.05%    167.28%    Extra-Large
Florida - Middle           18.62%   -10.09%    -24.23%     -27.06%    -30.56%   Extra-Large
Florida - Northern           N/A       N/A        N/A         N/A       N/A       Medium
Florida - Southern        107.21%   115.83%    123.64%    110.87%    135.80%    Extra-Large
Georgia - Middle             N/A       N/A        N/A         N/A       N/A       Medium
Georgia - Northern         69.27%   51.38%     37.60%      59.00%     36.99%       Large
Georgia - Southern        -52.08%    -6.63%    180.29%    295.59%     90.43%      Medium
Guam                         N/A       N/A        N/A         N/A       N/A        Small
Hawaii                       N/A       N/A        N/A         N/A       N/A       Medium
Idaho                      17.08%   12.48%     23.62%      42.72%     -31.19%      Small
Illinois - Central         81.19%    77.26%     91.73%       3.17%    40.03%      Medium
Illinois - Northern        64.44%   82.86%     45.82%      61.16%     55.09%    Extra-Large
Illinois - Southern       328.91%   277.23%     80.48%     17.04%     -58.97%     Medium
Indiana - Northern           N/A       N/A        N/A         N/A       N/A       Medium
Indiana - Southern           N/A       N/A        N/A         N/A       N/A       Medium
Iowa - Northern              N/A       N/A        N/A         N/A       N/A        Small
Iowa - Southern           -19.23%   -26.94%    -31.46%     42.16%     -63.30%      Small
Kansas                    -26.89%   -20.66%    -15.75%     26.42%     -13.75%     Medium
Kentucky - Eastern         92.56%    36.25%     26.09%      -6.09%    -14.33%     Medium



                                          - 80 -
                                                                   APPENDIX VIII

                                          PERCENT CHANGE                      OFFICE
      DISTRICT             FY 2003   FY 2004 FY 2005 FY 2006       FY 2007     SIZE
Kentucky - Western          19.49%    28.49%    91.91%   107.29%    56.07%     Medium
Louisiana - Eastern        136.54%   149.87%   83.62%      6.92%    48.04%      Large
Louisiana - Middle            N/A       N/A       N/A       N/A       N/A       Small
Louisiana - Western        -35.22%    -7.15%   128.96%   115.69%    44.04%     Medium
Maine                         N/A    34.36%    89.57%    105.59%   63.03%       Small
Maryland                   118.97%   106.70%   173.73%   126.27%   147.18%      Large
Massachusetts              128.00%    65.84%    65.85%    67.15%    57.41%   Extra-Large
Michigan - Eastern          88.20%    92.41%   73.87%     96.59%   139.97%   Extra-Large
Michigan - Western         133.48%   104.60%   106.96%    -6.76%   46.49%      Medium
Minnesota                   61.54%   -21.11%   -12.34%    65.00%    52.61%      Large
Mississippi - Northern      35.54%   -32.28%   -23.14%   -47.12%   -12.05%      Small
Mississippi - Southern        N/A       N/A       N/A       N/A       N/A      Medium
Missouri - Eastern         149.66%   216.84%   192.13%   149.76%   213.69%      Large
Missouri - Western         -14.54%   -24.15%   16.62%     23.49%    40.74%      Large
Montana                       N/A       N/A       N/A       N/A       N/A       Small
Nebraska                      N/A       N/A       N/A       N/A       N/A      Medium
Nevada                     -75.15%    -3.27%    13.08%     7.30%   11.15%       Large
New Hampshire                 N/A       N/A       N/A       N/A       N/A       Small
New Jersey                  27.58%    40.38%    -0.83%    63.17%    78.64%   Extra-Large
New Mexico                    N/A       N/A       N/A       N/A       N/A       Large
New York - Eastern         128.96%   228.56%   252.80%   156.68%   151.46%   Extra-Large
New York - Northern         16.17%    13.59%   22.72%    -46.78%   -18.99%     Medium
New York - Southern         6.61%    -17.09%   -44.36%   -73.85%   -22.02%   Extra-Large
New York - Western            N/A       N/A       N/A       N/A       N/A       Large
North Carolina - Eastern      N/A       N/A       N/A       N/A       N/A      Medium
North Carolina - Middle    117.05%   118.49%   67.72%     69.17%    66.67%      Small
North Carolina - Western   -39.42%    -5.66%   122.93%    79.26%    52.77%     Medium
North Dakota                  N/A       N/A       N/A       N/A       N/A       Small
Ohio - Northern             86.62%   107.55%   107.94%   126.17%   75.83%       Large
Ohio - Southern            -15.43%   -26.12%   -34.31%   -15.72%    64.33%      Large
Oklahoma - Eastern            N/A       N/A       N/A       N/A       N/A       Small
Oklahoma - Northern           N/A       N/A       N/A       N/A       N/A      Medium
Oklahoma - Western            N/A       N/A       N/A       N/A       N/A      Medium
Oregon                        N/A       N/A       N/A       N/A       N/A       Large
Pennsylvania - Eastern     170.01%   148.15%   166.97%   234.00%   183.16%   Extra-Large
Pennsylvania - Middle      -83.77%   -53.58%   -47.64%   -56.06%   -54.44%     Medium
Pennsylvania - Western     -14.62%    -2.43%    -2.20%   -15.68%   -39.50%      Large
Puerto Rico                 14.68%   -19.09%   25.90%     59.49%    14.60%      Large
Rhode Island               153.24%   204.07%    28.88%    23.75%   -11.96%      Small
South Carolina             129.65%   116.04%   67.04%     92.45%    89.89%      Large
South Dakota               -13.94%   -20.24%    -3.09%     0.90%   -22.45%     Medium
Tennessee - Eastern        117.24%    80.69%   53.33%     39.13%    82.40%     Medium
Tennessee - Middle            N/A       N/A       N/A       N/A       N/A      Medium
Tennessee - Western           N/A       N/A       N/A       N/A       N/A      Medium
Texas - Eastern            176.83%   322.80%   134.05%    43.48%    -1.75%      Large
Texas - Northern           139.47%   188.62%   200.61%   248.32%   174.62%      Large
Texas - Southern              N/A    348.35%   355.96%   430.16%   427.93%   Extra-Large
Texas - Western             66.39%    26.07%    -2.86%    44.94%    28.69%   Extra-Large



                                          - 81 -
                                                                    APPENDIX VIII

                                             PERCENT CHANGE                    OFFICE
       DISTRICT            FY 2003    FY 2004    FY 2005  FY 2006   FY 2007      SIZE
Utah                       -91.57%   -100.00%   -100.00% -100.00%   -49.68%     Medium
Vermont                       N/A        N/A       N/A       N/A       N/A       Small
Virginia - Eastern         134.90%   156.68%     48.09%    17.40%    52.43%   Extra-Large
Virginia - Western            N/A        N/A       N/A       N/A       N/A       Small
Virgin Islands                N/A        N/A       N/A       N/A       N/A       Small
Washington - Eastern          N/A        N/A       N/A       N/A       N/A      Medium
Washington - Western        15.70%     -0.87%     3.08%    9.85%     2.53%       Large
West Virginia - Northern      N/A        N/A       N/A       N/A       N/A       Small
West Virginia - Southern    10.48%    26.47%     16.03%     5.24%    -9.46%     Medium
Wisconsin - Eastern        169.50%   134.20%    140.46%   132.47%    93.03%     Medium
Wisconsin - Western         73.59%    69.17%     55.96%    54.04%   163.75%      Small
Wyoming                       N/A        N/A       N/A       N/A       N/A       Small
    Total Percent Change    88.54%    84.01%     81.61%    79.48%    64.95%




                                          - 82 -
                                                                      APPENDIX IX



                             OCDETF BURN RATES

           This appendix provides the burn rates of attorney FTEs, in percentage
     terms, for the prosecutorial area of OCDETF. For these computations, we
     compared the number of attorney FTEs allocated to the total number of
     attorney FTEs utilized (including time recorded in excess of a standard
     40-hour work week) within each USAO. For example, in FY 2004, the
     Central District of California was allocated 21.62 attorney FTEs for OCDETF
     and utilized a total of 33.1706 attorney FTEs on such matters. This
     amounted to an overburn of 11.5506 FTEs, which equated to a
     53.43-percent overburn.

                                        PERCENT CHANGE                          OFFICE
       DISTRICT          FY 2003   FY 2004 FY 2005 FY 2006           FY 2007     SIZE
Alabama - Middle         86.49%    233.07%       173.37%   30.40%    -21.34%      Small
Alabama - Northern       39.52%    16.25%        15.68%    40.34%      2.46%      Large
Alabama - Southern        -1.81%    -0.44%       -21.49%   20.92%    -13.80%      Small
Alaska                   191.34%   210.64%       92.44%    23.41%    39.56%       Small
Arizona                  21.22%      7.69%       24.69%    14.01%     -1.15%   Extra-Large
Arkansas - Eastern        -9.25%   -15.99%       49.42%    52.21%    -10.29%     Medium
Arkansas - Western       31.05%     14.55%        26.68%    72.15%    88.27%      Small
California - Central     50.57%    53.43%        43.13%    20.67%     -9.19%   Extra-Large
California - Eastern     38.75%     22.11%        37.85%     9.02%    -4.03%      Large
California - Northern     -6.25%   -21.08%       -12.18%   13.32%    10.00%    Extra-Large
California - Southern    32.12%     30.03%        36.82%    19.39%    10.03%   Extra-Large
Colorado                 38.29%    30.71%        32.05%      9.64%   14.24%       Large
Connecticut              105.37%    56.71%        72.69%    47.08%    41.89%      Large
Delaware                 -32.76%   -12.14%         8.75%   -40.53%   -57.99%      Small
District of Columbia     181.74%   119.62%       123.75%   163.15%   143.27%   Extra-Large
Florida - Middle         39.57%    36.79%        41.60%    13.95%      0.53%   Extra-Large
Florida - Northern         4.40%     3.05%       -13.95%   -23.33%   -19.86%     Medium
Florida - Southern       85.20%    55.39%        36.45%    30.60%    32.71%    Extra-Large
Georgia - Middle         71.18%     21.53%        70.29%    93.82%   179.16%     Medium
Georgia - Northern       58.01%    51.69%        22.92%    17.50%    15.24%       Large
Georgia - Southern       -29.99%   -41.34%       -58.97%   -58.64%   -29.22%     Medium
Guam                        N/A       N/A         -6.51%   -56.36%   -46.11%      Small
Hawaii                   52.90%     50.88%        23.37%    -3.84%    -0.16%     Medium
Idaho                    51.34%    37.28%        72.78%    41.50%    26.25%       Small
Illinois - Central         3.67%    18.84%        60.36%    37.58%    43.35%     Medium
Illinois - Northern      53.66%    58.48%        72.45%    37.70%    27.86%    Extra-Large
Illinois - Southern      -16.58%   -21.40%        11.08%    38.44%    55.26%     Medium
Indiana - Northern       24.31%    16.14%        23.80%    -12.98%   -25.40%     Medium
Indiana - Southern       60.23%     66.99%        66.42%    39.21%    57.01%     Medium
Iowa - Northern          213.56%   210.27%       210.56%   134.32%   116.10%      Small
Iowa - Southern          59.57%     45.63%        69.70%    52.76%    15.01%      Small


                                        - 83 -
                                                                          APPENDIX IX

                                          PERCENT CHANGE                             OFFICE
      DISTRICT             FY 2003   FY 2004 FY 2005 FY 2006             FY 2007      SIZE
Kansas                     290.16%   235.74%       185.50%    133.72%     16.55%      Medium
Kentucky - Eastern         82.48%     53.70%        81.65%     37.29%     31.63%      Medium
Kentucky - Western         41.41%     55.87%        18.23%      -1.82%      9.15%     Medium
Louisiana - Eastern        14.42%     79.33%        56.06%     41.04%       0.88%      Large
Louisiana - Middle         218.69%   161.25%       100.85%    109.37%     54.89%       Small
Louisiana - Western        -15.01%     0.30%         6.37%       7.10%    42.05%      Medium
Maine                       -0.73%   -55.14%       -45.85%     -50.91%    -21.58%      Small
Maryland                   58.79%     53.09%         8.24%     19.77%     11.78%       Large
Massachusetts              10.05%     -0.02%        29.13%     25.34%     17.46%    Extra-Large
Michigan - Eastern         22.47%     12.49%         7.27%     -10.04%     -5.65%   Extra-Large
Michigan - Western          -8.13%     8.80%        29.01%     89.86%     61.21%      Medium
Minnesota                  12.48%     3.69%       34.78%     -14.75%      -2.86%       Large
Mississippi - Northern     74.89%     58.37%       50.35%     62.96%      20.11%       Small
Mississippi - Southern     31.69%    34.58%       26.87%     30.04%        9.81%      Medium
Missouri - Eastern          -3.36%    -0.93%       -7.88%    -23.43%     -38.01%       Large
Missouri - Western         73.85%    60.79%       62.99%     54.84%      79.90%        Large
Montana                    73.41%     57.13%       15.35%     22.20%      60.95%       Small
Nebraska                   247.31%   224.95%      138.56%      6.13%      -4.83%      Medium
Nevada                     -54.74%   -20.73%       -3.03%     -5.26%     -17.07%       Large
New Hampshire              11.83%    -42.21%      15.68%     13.22%      22.75%        Small
New Jersey                 43.47%     19.47%       27.38%     36.07%      49.89%    Extra-Large
New Mexico                 121.27%   170.68%      129.80%    57.89%        6.27%       Large
New York - Eastern         38.21%     44.95%       49.16%     -3.76%     15.89%     Extra-Large
New York - Northern        19.61%    11.16%        6.86%     26.76%      50.71%       Medium
New York - Southern        85.35%     59.44%        6.12%    -23.46%       3.87%    Extra-Large
New York - Western         124.61%   98.37%       93.34%     77.36%      57.05%        Large
North Carolina - Eastern   29.91%      9.75%      -10.12%    32.53%      67.58%       Medium
North Carolina - Middle      6.84%    1.56%       17.69%      -8.15%     29.27%        Small
North Carolina - Western   11.03%     33.89%       28.56%     17.85%      -1.58%      Medium
North Dakota               19.95%    100.14%      33.54%     69.72%      95.77%        Small
Ohio - Northern            18.13%     22.96%       35.73%     32.42%      44.23%       Large
Ohio - Southern              5.32%   34.18%       35.00%     26.12%      20.86%        Large
Oklahoma - Eastern         81.65%     56.35%       54.09%    143.13%      28.73%       Small
Oklahoma - Northern        15.04%    21.36%       35.26%     73.08%      58.17%       Medium
Oklahoma - Western         42.19%     40.82%       40.01%     39.52%      25.72%      Medium
Oregon                     64.27%    75.73%       20.48%     33.00%      30.25%        Large
Pennsylvania - Eastern     19.13%     13.07%       34.88%     43.81%      23.88%    Extra-Large
Pennsylvania - Middle      138.51%   127.14%      99.78%     12.23%      21.93%       Medium
Pennsylvania - Western       2.95%    -1.98%       17.15%    -12.70%     26.72%        Large
Puerto Rico                177.46%   224.93%      43.19%       4.96%     -29.04%       Large
Rhode Island               13.77%    -14.94%      14.96%     34.44%      32.96%        Small
South Carolina             69.11%    45.03%       41.02%     22.76%      18.74%        Large
South Dakota               -69.90%   -75.50%      -59.41%    -34.93%     -22.39%      Medium
Tennessee - Eastern        13.46%    23.89%       26.48%     20.89%      19.34%       Medium
Tennessee - Middle         101.18%   128.08%      121.14%     37.73%     100.83%      Medium
Tennessee - Western        -36.34%   -22.79%      17.37%     52.16%      29.55%       Medium



                                         - 84 -
                                                                       APPENDIX IX

                                          PERCENT CHANGE                         OFFICE
      DISTRICT             FY 2003   FY 2004 FY 2005 FY 2006          FY 2007     SIZE
Texas - Eastern            13.48%     -3.81%      44.42%    33.88%    37.58%       Large
Texas - Northern           16.04%    12.14%       27.00%    16.25%     9.41%       Large
Texas - Southern           24.02%    23.49%       23.09%      9.74%    12.80%   Extra-Large
Texas - Western            63.30%    43.91%       28.30%    10.95%     1.21%    Extra-Large
Utah                       11.76%    55.08%        -6.89%    -9.55%   -22.90%     Medium
Vermont                    27.67%      3.29%        5.30%   10.31%    -25.77%      Small
Virginia - Eastern         83.01%    69.37%       63.27%    56.41%     78.64%   Extra-Large
Virginia - Western         42.57%      3.02%      -17.25%   30.96%     8.42%       Small
Virgin Islands              -6.27%    -7.11%      -16.70%    9.26%    55.13%       Small
Washington - Eastern       78.67%    24.94%       90.82%     6.20%    -17.76%     Medium
Washington - Western       46.70%    73.48%       70.44%    62.26%     39.16%      Large
West Virginia - Northern   -36.43%   -63.02%      -79.46%   -81.25%   -62.69%      Small
West Virginia - Southern   26.91%     -9.86%      -13.81%    3.07%     4.32%      Medium
Wisconsin - Eastern        27.26%    19.38%       22.81%    22.14%    11.57%      Medium
Wisconsin - Western        47.49%    47.42%       63.42%    96.42%    116.22%      Small
Wyoming                    -19.79%   30.78%       30.25%    45.21%    27.66%       Small
    Total Percent Change   41.41%    34.60%       33.14%    21.55%    17.44%




                                         - 85 -
                                                                       APPENDIX X



                              FIREARMS BURN RATES

              This appendix provides the burn rates of attorney FTEs, in percentage
       terms, for the prosecutorial area of firearms. For these computations, we
       compared the number of attorney FTEs allocated to the total number of
       attorney FTEs utilized (including time recorded in excess of a standard
       40-hour work week) within each USAO. For example, in FY 2007, the
       Northern District of Georgia was allocated 7 attorney FTEs for firearms and
       utilized a total of 4.4285 attorney FTEs on such matters. This amounted to
       an underburn of 2.5715 FTEs, which equated to a 36.74-percent underburn.

                                         PERCENT CHANGE                           OFFICE
       DISTRICT          FY 2003    FY 2004  FY 2005 FY 2006          FY 2007      SIZE
Alabama - Middle         238.70%     278.33%    186.92%    182.99%    120.68%       Small
Alabama - Northern       199.67%     233.81%    169.67%    190.79%    163.91%       Large
Alabama - Southern        -7.48%     -29.35%    -18.55%    -32.79%    -17.98%       Small
Alaska                   45.49%       18.93%     40.48%    -52.45%    -31.66%       Small
Arizona                  -44.72%     -56.97%    -39.42%    -26.16%    -37.00%    Extra-Large
Arkansas - Eastern       -49.16%     -23.95%    -20.96%     -9.47%    -10.05%      Medium
Arkansas - Western       -23.57%     -11.08%    -27.57%    -49.91%    -58.70%       Small
California - Central     32.56%       31.87%     54.29%     -8.89%    -43.60%    Extra-Large
California - Eastern     13.48%       62.34%     60.32%    79.30%      44.31%       Large
California - Northern     -5.25%      40.54%     47.47%    96.32%      -7.17%    Extra-Large
California - Southern      2.48%     -17.14%    -57.78%    -42.43%    -61.08%    Extra-Large
Colorado                 36.22%       57.53%     39.60%     -0.90%    -23.85%       Large
Connecticut              13.45%       59.52%     26.93%    36.15%      51.49%       Large
Delaware                 -12.61%     -49.97%     -5.27%    -27.84%     45.16%       Small
District of Columbia    1,006.69%   1,029.52%   452.24%    439.83%    389.82%    Extra-Large
Florida - Middle         30.97%       53.81%     54.29%    61.01%      65.16%    Extra-Large
Florida - Northern       -23.33%      -1.89%    -21.47%    -21.25%    -39.37%      Medium
Florida - Southern       -54.69%      4.98%      49.50%    46.47%     138.07%    Extra-Large
Georgia - Middle         -26.83%     -19.58%     -1.04%    12.80%      14.61%      Medium
Georgia - Northern       -82.11%      8.53%       9.80%     -2.38%    -36.74%       Large
Georgia - Southern       168.32%     164.11%    135.00%    115.42%    102.50%      Medium
Guam                     -86.49%     -11.30%    -56.70%    -72.38%    -71.50%       Small
Hawaii                   234.13%     310.70%    298.44%    150.66%     22.13%      Medium
Idaho                    35.60%       68.23%    117.94%    76.50%      45.97%       Small
Illinois - Central       -24.26%     151.50%    142.56%    173.08%    204.72%      Medium
Illinois - Northern      13.16%       28.90%     61.89%     -5.62%     -9.83%    Extra-Large
Illinois - Southern      253.80%     412.55%    296.66%    248.79%    127.67%      Medium
Indiana - Northern       -39.71%     -23.37%     17.39%      2.27%      9.99%      Medium
Indiana - Southern        -8.79%      -3.73%    -24.77%    -33.42%    -24.16%      Medium
Iowa - Northern          -11.49%      46.99%     42.63%    62.51%      92.76%       Small
Iowa - Southern          184.05%     214.73%    143.76%    102.78%    105.70%       Small
Kansas                   103.75%     239.85%    190.78%    104.61%    163.09%      Medium
Kentucky - Eastern       -31.39%     -28.78%    -53.74%      2.32%     45.80%      Medium
Kentucky - Western       -51.36%      10.37%     28.42%    30.36%      61.29%      Medium



                                          - 86 -
                                                                    APPENDIX X

                                          PERCENT CHANGE                      OFFICE
      DISTRICT             FY 2003   FY 2004  FY 2005 FY 2006      FY 2007     SIZE
Louisiana - Eastern        -11.44%    -0.87%   -16.73%   -43.57%   -34.38%      Large
Louisiana - Middle           1.81%    77.44%   122.29%   114.48%   150.96%      Small
Louisiana - Western        -36.36%    68.64%   100.42%   84.10%     34.18%     Medium
Maine                      37.26%     32.89%    11.97%   19.36%     37.94%      Small
Maryland                   -96.70%   -26.68%    2.04%     -4.53%   -17.05%      Large
Massachusetts               -9.22%    6.02%     -4.76%     6.15%     6.14%   Extra-Large
Michigan - Eastern         12.28%     32.10%    35.13%    34.44%    -8.48%   Extra-Large
Michigan - Western         95.38%     81.75%    90.71%   89.06%     49.37%     Medium
Minnesota                  -54.83%   -24.73%    4.09%     6.08%     8.17%       Large
Mississippi - Northern     36.18%    102.00%   100.97%   106.09%    71.95%      Small
Mississippi - Southern     -80.69%   -81.99%   -75.08%   -26.04%   -61.95%     Medium
Missouri - Eastern         -80.09%   -80.88%   -85.38%   -78.06%   -83.43%      Large
Missouri - Western         173.90%   176.81%   193.38%   186.81%   176.16%      Large
Montana                    -55.45%   -26.17%   -15.87%   13.29%     16.14%      Small
Nebraska                   -92.91%   115.02%   182.26%   139.99%    57.42%     Medium
Nevada                     -51.11%   -28.91%   -13.04%    -8.56%   -27.40%      Large
New Hampshire              -58.57%    15.09%    -4.13%     7.00%   89.27%       Small
New Jersey                 -40.84%   -47.28%   -68.39%   -83.67%   -39.25%   Extra-Large
New Mexico                 18.56%     39.07%    93.67%   43.19%     7.73%       Large
New York - Eastern         -26.56%   -58.44%   -71.75%   -57.77%   -51.24%   Extra-Large
New York - Northern        -46.47%    2.12%     22.94%    -1.66%   -17.02%     Medium
New York - Southern        -15.90%   -39.67%   -16.75%   -42.52%   -69.61%   Extra-Large
New York - Western         -96.15%   -95.30%   -96.49%   -97.82%   -46.86%      Large
North Carolina - Eastern   178.13%   208.06%   172.22%   193.39%   192.74%     Medium
North Carolina - Middle    -51.14%   -36.72%   22.17%    26.64%    24.47%       Small
North Carolina - Western   -81.44%   -32.94%   -33.29%     0.44%    -7.66%     Medium
North Dakota               -80.38%   -14.77%   -22.84%   -20.66%    53.48%      Small
Ohio - Northern             -1.11%    61.03%    52.02%   53.83%     79.06%      Large
Ohio - Southern            64.22%     81.77%    81.73%   57.42%    35.03%       Large
Oklahoma - Eastern         -42.00%    17.78%     6.99%   -44.12%   -30.79%      Small
Oklahoma - Northern        155.97%   204.62%   214.16%   268.55%   244.61%     Medium
Oklahoma - Western         132.03%   147.05%    53.11%   33.42%     48.08%     Medium
Oregon                     21.56%     42.94%    32.67%   16.26%    31.26%       Large
Pennsylvania - Eastern     83.56%    105.27%    66.37%   36.48%     74.50%   Extra-Large
Pennsylvania - Middle      -95.33%    31.81%    36.74%   34.94%    26.62%      Medium
Pennsylvania - Western     -81.18%    66.27%   135.15%   93.86%     95.28%      Large
Puerto Rico                -47.56%   -43.03%   -38.10%   -33.86%   -25.21%      Large
Rhode Island                 0.63%    7.78%    -27.69%    -7.68%   -44.20%      Small
South Carolina             53.07%     84.20%    72.17%   110.82%    92.19%      Large
South Dakota                 5.67%    2.73%    -15.40%    -3.35%   -29.68%     Medium
Tennessee - Eastern        -92.35%   -76.76%   -68.97%   -82.78%   -74.48%     Medium
Tennessee - Middle         29.18%     77.31%    81.92%   13.49%     31.12%     Medium
Tennessee - Western        60.72%     77.95%    45.43%    39.65%    35.78%     Medium
Texas - Eastern             -9.94%    3.76%     61.46%   77.95%     60.86%      Large
Texas - Northern           15.71%     53.07%    29.89%   71.12%    77.51%       Large
Texas - Southern           -57.54%   -34.61%   -14.99%   -22.03%   -41.70%   Extra-Large
Texas - Western            -62.93%   -29.35%   -39.92%   -38.70%   -49.45%   Extra-Large
Utah                       -55.44%   -83.81%   -97.83%   -96.92%   -46.46%     Medium



                                          - 87 -
                                                                    APPENDIX X

                                          PERCENT CHANGE                      OFFICE
      DISTRICT             FY 2003   FY 2004  FY 2005 FY 2006      FY 2007     SIZE
Vermont                    -33.78%   -40.63%   -46.49%   -35.36%   -65.85%      Small
Virginia - Eastern         -15.92%    0.23%     29.26%   18.07%     10.10%   Extra-Large
Virginia - Western          -8.93%   -14.18%   -44.20%   -71.13%   -82.64%      Small
Virgin Islands             -76.54%    27.57%    12.20%   -24.95%   -13.66%      Small
Washington - Eastern       -48.21%   -21.77%    1.49%    15.59%    14.70%      Medium
Washington - Western       -55.67%   -44.41%   -24.72%   -59.72%   -85.33%      Large
West Virginia - Northern   76.76%    203.13%   112.61%    18.81%     8.90%      Small
West Virginia - Southern   -16.04%    21.91%     6.42%    9.54%     82.90%     Medium
Wisconsin - Eastern        -91.28%   -84.06%   -56.06%   -56.31%   -45.26%     Medium
Wisconsin - Western         -0.16%    44.68%    -4.99%    8.87%     -9.05%      Small
Wyoming                    23.61%     28.03%    64.09%   57.33%    60.62%       Small
    Total Percent Change   15.82%     43.04%    29.64%   20.85%     18.27%




                                          - 88 -
                                                                                              APPENDIX XI



                                   TERRORISM-RELATED CASEWORK
                                  FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                          (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT           REFERRED      NUMBER   PERCENT     NUMBER      PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                        FYs 2003-2007    FILED    FILED     DECLINED DECLINED PENDING         PENDING
Alabama – Middle              8             5     62.50%         3        37.50%        0      0.00%       Small
Alabama – Northern            35           12     34.29%        21        60.00%        2      5.71%       Large
Alabama – Southern            16            3     18.75%         6        37.50%        7      43.75%      Small
Alaska                        17            3     17.65%          9       52.94%         5     29.41%      Small
Arizona                      157           31     19.75%        43        27.39%        83     52.87%   Extra-Large
Arkansas – Eastern            23            9     39.13%         10       43.48%         4     17.39%     Medium
Arkansas – Western            15            2     13.33%         5        33.33%        8      53.33%      Small
California – Central         462           65     14.07%        237       51.30%       160     34.63%   Extra-Large
California – Eastern          74           17     22.97%        26        35.14%        31     41.89%      Large
California – Northern        296           20      6.76%         86       29.05%       190     64.19%   Extra-Large
California – Southern         76           11     14.47%        20        26.32%        45     59.21%   Extra-Large
Colorado                      86           20     23.26%         42       48.84%        24     27.91%      Large
Connecticut                  120           44     36.67%        50        41.67%        26     21.67%      Large
Delaware                      6             1     16.67%          3       50.00%         2     33.33%      Small
District of Columbia         311           56     18.01%        132       42.44%       123     39.55%   Extra-Large
Florida – Middle             440          228     51.82%        124       28.18%        88     20.00%   Extra-Large
Florida – Northern            26            5     19.23%        17        65.38%        4      15.38%     Medium
Florida – Southern           182           33     18.13%         57       31.32%        92     50.55%   Extra-Large
Georgia – Middle              53           17     32.08%         6        11.32%        30     56.60%     Medium
Georgia – Northern           140           37     26.43%        69        49.29%        34     24.29%      Large
Georgia – Southern            8             2     25.00%         3        37.50%        3      37.50%     Medium
Guam                          0           N/A       N/A         N/A         N/A        N/A       N/A       Small
Hawaii                        18            4     22.22%         9        50.00%        5      27.78%     Medium
Idaho                         63           17     26.98%         36       57.14%        10     15.87%      Small
Illinois – Central            9             0      0.00%         5        55.56%        4      44.44%     Medium
Illinois – Northern           89           15     16.85%        41        46.07%        33     37.08%   Extra-Large
Illinois – Southern           26            5     19.23%         8        30.77%        13     50.00%     Medium



                                                     - 89 -
                                                                                              APPENDIX XI

                                            TERRORISM-RELATED CASEWORK
                              MATTERS                      (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED   FILED    DECLINED DECLINED PENDING        PENDING
Indiana – Northern               12            0     0.00%        6       50.00%        6      50.00%     Medium
Indiana – Southern               67            7    10.45%       54       80.60%        6       8.96%     Medium
Iowa – Northern                  23           14    60.87%        5       21.74%        4      17.39%      Small
Iowa – Southern                  27           12    44.44%       10       37.04%        5      18.52%      Small
Kansas                           12            3    25.00%        8       66.67%        1       8.33%     Medium
Kentucky – Eastern               20            2    10.00%       10       50.00%        8      40.00%     Medium
Kentucky – Western               54           13    24.07%       31       57.41%       10      18.52%     Medium
Louisiana – Eastern             126           28    22.22%       62       49.21%       36      28.57%      Large
Louisiana – Middle                8            0     0.00%        1       12.50%        7      87.50%      Small
Louisiana – Western              45           14    31.11%       25       55.56%        6      13.33%     Medium
Maine                             4            0     0.00%        3       75.00%        1      25.00%      Small
Maryland                        188           36    19.15%      102       54.26%       50      26.60%      Large
Massachusetts                   252           41    16.27%      134       53.17%       77      30.56%   Extra-Large
Michigan – Eastern              160           36    22.50%       48       30.00%       76      47.50%   Extra-Large
Michigan – Western               40            2     5.00%       28       70.00%       10      25.00%     Medium
Minnesota                        45           10    22.22%       14       31.11%       21      46.67%      Large
Mississippi – Northern            4            0     0.00%        2       50.00%        2      50.00%      Small
Mississippi – Southern           15            3    20.00%       10       66.67%        2      13.33%     Medium
Missouri – Eastern              247          118    47.77%       84       34.01%       45      18.22%      Large
Missouri – Western               35           11    31.43%       12       34.29%       12      34.29%      Large
Montana                          48           13    27.08%       26       54.17%        9      18.75%      Small
Nebraska                         23            1     4.35%       14       60.87%        8      34.78%     Medium
Nevada                          105           27    25.71%       33       31.43%       45      42.86%      Large
New Hampshire                    11            5    45.45%        4       36.36%        2      18.18%      Small
New Jersey                      289           55    19.03%       80       27.68%       154     53.29%   Extra-Large
New Mexico                       48           10    20.83%       28       58.33%       10      20.83%      Large
New York – Eastern              283           64    22.61%       82       28.98%       137     48.41%   Extra-Large
New York – Northern              98           30    30.61%       42       42.86%       26      26.53%     Medium
New York – Southern             139           23    16.55%       62       44.60%       54      38.85%   Extra-Large
New York – Western              111           26    23.42%       39       35.14%       46      41.44%      Large
North Carolina - Eastern         78           22    28.21%       35       44.87%       21      26.92%     Medium


                                                        - 90 -
                                                                                             APPENDIX XI

                                            TERRORISM-RELATED CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                         SIZE
                           FYs 2003-2007    FILED   FILED   DECLINED DECLINED PENDING        PENDING
North Carolina – Middle          12            2    16.67%       6       50.00%        4      33.33%      Small
North Carolina – Western        109           39    35.78%      50       45.87%       20      18.35%     Medium
North Dakota                     9             6    66.67%       0        0.00%        3      33.33%      Small
Ohio – Northern                  56           15    26.79%      19       33.93%       22      39.29%      Large
Ohio – Southern                  99            6    6.06%       43       43.43%       50      50.51%      Large
Oklahoma – Eastern               2             2   100.00%       0        0.00%        0       0.00%      Small
Oklahoma – Northern              14            5    35.71%       5       35.71%        4      28.57%     Medium
Oklahoma – Western               59           11    18.64%      39       66.10%        9      15.25%     Medium
Oregon                          108           43    39.81%      36       33.33%       29      26.85%      Large
Pennsylvania – Eastern          113           31    27.43%      46       40.71%       36      31.86%   Extra-Large
Pennsylvania – Middle            41            8    19.51%      13       31.71%       20      48.78%     Medium
Pennsylvania – Western           53            6    11.32%      31       58.49%       16      30.19%      Large
Puerto Rico                      41           10    24.39%      22       53.66%        9      21.95%      Large
Rhode Island                     23            3    13.04%      13       56.52%        7      30.43%      Small
South Carolina                   86           19    22.09%      45       52.33%       22      25.58%      Large
South Dakota                     24            6    25.00%      12       50.00%        6      25.00%     Medium
Tennessee – Eastern             118           28    23.73%      53       44.92%       37      31.36%     Medium
Tennessee – Middle               58           16    27.59%      35       60.34%        7      12.07%     Medium
Tennessee – Western              92           52    56.52%      23       25.00%       17      18.48%     Medium
Texas – Northern                100           19    19.00%      54       54.00%       27      27.00%      Large
Texas – Southern                322           85    26.40%      101      31.37%       136     42.24%   Extra-Large
Texas – Eastern                  79            8    10.13%      32       40.51%       39      49.37%      Large
Texas – Western                 145           54    37.24%      63       43.45%       28      19.31%   Extra-Large
Utah                            197          150    76.14%      10        5.08%       37      18.78%     Medium
Vermont                          16            0    0.00%       15       93.75%        1       6.25%      Small
Virgin Islands                   6             1    16.67%       3       50.00%        2      33.33%      Small
Virginia – Eastern              934          242    25.91%      516      55.25%       176     18.84%   Extra-Large
Virginia – Western               12            1    8.33%       10       83.33%        1       8.33%      Small
Washington – Eastern             31            5    16.13%      11       35.48%       15      48.39%     Medium
Washington – Western             77           12    15.58%      42       54.55%       23      29.87%      Large
West Virginia – Northern         8            1     12.50%       4       50.00%        3      37.50%      Small


                                                        - 91 -
                                                                                                    APPENDIX XI

                                                  TERRORISM-RELATED CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                              DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT    NUMBER     PERCENT     NUMBER    PERCENT
                                                                                                                SIZE
                                 FYs 2003-2007    FILED   FILED   DECLINED DECLINED       PENDING   PENDING
West Virginia – Southern               15           6     40.00%       5       33.33%        4       26.67%    Medium
Wisconsin – Eastern                    10           1     10.00%       9       90.00%        0        0.00%    Medium
Wisconsin – Western                    29           4     13.79%      20       68.97%        5       17.24%     Small
Wyoming                                5            2     40.00%       2       40.00%        1       20.00%     Small
Source: OIG analysis of LIONS data




                                                              - 92 -
                                                                                                  APPENDIX XII



                                             NARCOTICS CASEWORK
                                        FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                           (As of September 30, 2007)
                                                                                                          DISTRICT
     DISTRICT             REFERRED       NUMBER   PERCENT     NUMBER      PERCENT     NUMBER    PERCENT
                                                                                                            SIZE
                        FYs 2003-2007     FILED    FILED     DECLINED DECLINED        PENDING   PENDING
Alabama – Middle              299          216     72.24%        26         8.70%         57     19.06%      Small
Alabama – Northern            636          422     66.35%        83        13.05%        131     20.60%      Large
Alabama – Southern            642          484     75.39%        66        10.28%         92     14.33%      Small
Alaska                        281          182     64.77%         35       12.46%         64     22.78%      Small
Arizona                      5,201        3,562    68.49%        216        4.15%       1,423    27.36%   Extra-Large
Arkansas – Eastern            537          308     57.36%        140       26.07%         89     16.57%     Medium
Arkansas – Western            327          227     69.42%        62        18.96%         38     11.62%      Small
California – Central         1,873         689     36.79%        129        6.89%       1,055    56.33%   Extra-Large
California – Eastern         1,203         745     61.93%        145       12.05%        313     26.02%      Large
California – Northern         792          330     41.67%        118       14.90%        344     43.43%   Extra-Large
California – Southern        5,153        4,562    88.53%        43         0.83%        548     10.63%   Extra-Large
Colorado                      523          336     64.24%         51        9.75%        136     26.00%      Large
Connecticut                   470          322     68.51%        34         7.23%        114     24.26%      Large
Delaware                      197          115     58.38%         32       16.24%         50     25.38%      Small
District of Columbia          913          749     82.04%        57         6.24%        107     11.72%   Extra-Large
Florida – Middle             2,922        2,014    68.93%        538       18.41%        370     12.66%   Extra-Large
Florida – Northern            624          490     78.53%        68        10.90%         66     10.58%     Medium
Florida – Southern           3,428        2,433    70.97%        235        6.86%        760     22.17%   Extra-Large
Georgia – Middle              781          497     63.64%        111       14.21%        173     22.15%     Medium
Georgia – Northern            874          540     61.78%        116       13.27%        218     24.94%      Large
Georgia – Southern            445          364     81.80%        47        10.56%         34      7.64%     Medium
Guam                          211          155     73.46%         21        9.95%         35     16.59%      Small
Hawaii                        990          546     55.15%        144       14.55%        300     30.30%     Medium
Idaho                         338          179     52.96%        120       35.50%         39     11.54%      Small
Illinois – Central            826          626     75.79%        67         8.11%        133     16.10%     Medium
Illinois – Northern          1,345         780     57.99%        201       14.94%        364     27.06%   Extra-Large
Illinois – Southern           594          400     67.34%        130       21.89%         64     10.77%     Medium



                                                        - 93 -
                                                                                              APPENDIX XII

                                                NARCOTICS CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT    NUMBER   PERCENT
                                                                                                         SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING       PENDING
Indiana – Northern               659         526    79.82%       78       11.84%       55      8.35%     Medium
Indiana – Southern               449         323    71.94%       75       16.70%      51      11.36%     Medium
Iowa – Northern                 1,075        724    67.35%      177       16.47%      174     16.19%      Small
Iowa – Southern                  719         588    81.78%       63       8.76%       68       9.46%      Small
Kansas                          1,204        973    80.81%      117        9.72%      114      9.47%     Medium
Kentucky – Eastern               891         662    74.30%      112       12.57%      117     13.13%     Medium
Kentucky – Western               593         317    53.46%       85       14.33%      191     32.21%     Medium
Louisiana – Eastern              602         420    69.77%       83       13.79%      99      16.45%      Large
Louisiana – Middle               281         201    71.53%       28        9.96%       52     18.51%      Small
Louisiana – Western              472         367    77.75%       48       10.17%      57      12.08%     Medium
Maine                            452         298    65.93%       96       21.24%       58     12.83%      Small
Maryland                         819         598    73.02%      123       15.02%      98      11.97%      Large
Massachusetts                    755         441    58.41%      116       15.36%      198     26.23%   Extra-Large
Michigan – Eastern              1,107        613    55.37%       96       8.67%       398     35.95%   Extra-Large
Michigan – Western               476         390    81.93%       26        5.46%       60     12.61%     Medium
Minnesota                        893         797    89.25%       26       2.91%       70       7.84%      Large
Mississippi – Northern           357         248    69.47%       42       11.76%       67     18.77%      Small
Mississippi – Southern           681         520    76.36%       34       4.99%       127     18.65%     Medium
Missouri – Eastern              1,434       1,019   71.06%      242       16.88%      173     12.06%      Large
Missouri – Western              1,262        748    59.27%      162       12.84%      352     27.89%      Large
Montana                          538         417    77.51%       77       14.31%       44      8.18%      Small
Nebraska                        2,013       1,667   82.81%      294       14.61%      52       2.58%     Medium
Nevada                           533         386    72.42%       63       11.82%       84     15.76%      Large
New Hampshire                    629         482    76.63%       53       8.43%       94      14.94%      Small
New Jersey                      1,661       1,178   70.92%      136        8.19%      347     20.89%   Extra-Large
New Mexico                      2,580       2,192   84.96%      147       5.70%       241      9.34%      Large
New York – Eastern              2,620       1,976   75.42%       98       3.74%       546     20.84%   Extra-Large
New York – Northern              610         433    70.98%       75       12.30%      102     16.72%     Medium
New York – Southern             2,405       1,591   66.15%      147       6.11%       667     27.73%   Extra-Large
New York – Western              1,173        809    68.97%       68       5.80%       296     25.23%      Large
North Carolina - Eastern         929         695    74.81%      132       14.21%      102     10.98%     Medium


                                                        - 94 -
                                                                                              APPENDIX XII

                                               NARCOTICS CASEWORK
                             MATTERS                      (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT    NUMBER     PERCENT    NUMBER    PERCENT
                                                                                                         SIZE
                           FYs 2003-2007    FILED   FILED   DECLINED DECLINED PENDING        PENDING
North Carolina – Middle          478         380   79.50%       53       11.09%        45      9.41%      Small
North Carolina – Western         706         516   73.09%       84       11.90%       106     15.01%     Medium
North Dakota                     197         139   70.56%       35       17.77%        23     11.68%      Small
Ohio – Northern                  706         535   75.78%       73       10.34%        98     13.88%      Large
Ohio – Southern                 1,024        577   56.35%       92        8.98%       355     34.67%      Large
Oklahoma – Eastern               177         122   68.93%       31       17.51%        24     13.56%      Small
Oklahoma – Northern              253         146   57.71%       65       25.69%        42     16.60%     Medium
Oklahoma – Western               385         192   49.87%       30        7.79%       163     42.34%     Medium
Oregon                           939         611   65.07%      136       14.48%       192     20.45%      Large
Pennsylvania – Eastern           888         589   66.33%      115       12.95%       184     20.72%   Extra-Large
Pennsylvania – Middle            795         625   78.62%       70        8.81%       100     12.58%     Medium
Pennsylvania – Western           715         466   65.17%      141       19.72%       108     15.10%      Large
Puerto Rico                      914         545   59.63%      202       22.10%       167     18.27%      Large
Rhode Island                     371         180   48.52%      145       39.08%        46     12.40%      Small
South Carolina                   791         610   77.12%       73        9.23%       108     13.65%      Large
South Dakota                     473         381   80.55%       64       13.53%        28      5.92%     Medium
Tennessee – Eastern              967         698   72.18%      147       15.20%       122     12.62%     Medium
Tennessee – Middle               330         235   71.21%       37       11.21%        58     17.58%     Medium
Tennessee – Western              668         560   83.83%       32        4.79%        76     11.38%     Medium
Texas – Northern                 853         529   62.02%      169       19.81%       155     18.17%      Large
Texas – Southern                6,668       5,697  85.44%      137        2.05%       834     12.51%   Extra-Large
Texas – Eastern                 1,048        835   79.68%      104        9.92%       109     10.40%      Large
Texas – Western                10,773       9,552  88.67%      253        2.35%       968      8.99%   Extra-Large
Utah                             624         570   91.35%       17        2.72%        37      5.93%     Medium
Vermont                          364         271   74.45%       40       10.99%        53     14.56%      Small
Virgin Islands                   153         110   71.90%       24       15.69%        19     12.42%      Small
Virginia – Eastern              3,523       1,682  47.74%      209        5.93%      1,632    46.32%   Extra-Large
Virginia – Western               937         762   81.32%       70        7.47%       105     11.21%      Small
Washington – Eastern             961         752   78.25%      102       10.61%       107     11.13%     Medium
Washington – Western            1,104        769   69.66%       78        7.07%       257     23.28%      Large
West Virginia – Northern         966         647   66.98%      146       15.11%       173     17.91%      Small


                                                        - 95 -
                                                                                                     APPENDIX XII

                                                     NARCOTICS CASEWORK
                                                                 (As of September 30, 2007)
                                   MATTERS
         DISTRICT                                                              PERCENT                        DISTRICT
                                   REFERRED      NUMBER PERCENT     NUMBER                NUMBER    PERCENT
                                                                               DECLINE                          SIZE
                                 FYs 2003-2007    FILED   FILED    DECLINED               PENDING   PENDING
                                                                                   D
West Virginia – Southern             1,105         609    55.11%       280      25.34%      216     19.55%     Medium
Wisconsin – Eastern                   520          371    71.35%        60      11.54%       89     17.12%     Medium
Wisconsin – Western                   426          311    73.00%        71      16.67%       44     10.33%      Small
Wyoming                               342          284    83.04%        12       3.51%       46     13.45%      Small
Source: OIG analysis of LIONS data




                                                              - 96 -
                                                                                            APPENDIX XIII



                                      VIOLENT CRIME CASEWORK
                                  FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                        (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT           REFERRED      NUMBER   PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                         SIZE
                        FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING        PENDING
Alabama – Middle              575         443     77.04%        57       9.91%       75      13.04%      Small
Alabama – Northern           1,038        840     80.92%       112      10.79%       86       8.29%      Large
Alabama – Southern            597         417     69.85%       122      20.44%       58       9.72%      Small
Alaska                        257         165     64.20%        57      22.18%        35     13.62%      Small
Arizona                      2,530       1,454    57.47%       505      19.96%       571     22.57%   Extra-Large
Arkansas – Eastern            675         458     67.85%       149      22.07%        68     10.07%     Medium
Arkansas – Western            258         155     60.08%        62      24.03%       41      15.89%      Small
California – Central         1,105        734     66.43%        92       8.33%       279     25.25%   Extra-Large
California – Eastern          738         489     66.26%       122      16.53%       127     17.21%      Large
California – Northern         937         489     52.19%       219      23.37%       229     24.44%   Extra-Large
California – Southern         262         175     66.79%        14       5.34%       73      27.86%   Extra-Large
Colorado                     1,017        692     68.04%       143      14.06%       182     17.90%      Large
Connecticut                   528         276     52.27%       142      26.89%       110     20.83%      Large
Delaware                      279         210     75.27%        39      13.98%        30     10.75%      Small
District of Columbia          857         589     68.73%       156      18.20%       112     13.07%   Extra-Large
Florida – Middle             1,412        762     53.97%       369      26.13%       281     19.90%   Extra-Large
Florida – Northern            495         343     69.29%        96      19.39%       56      11.31%     Medium
Florida – Southern           1,250        711     56.88%       308      24.64%       231     18.48%   Extra-Large
Georgia – Middle              536         354     66.04%       109      20.34%       73      13.62%     Medium
Georgia – Northern           1,102        759     68.87%       171      15.52%       172     15.61%      Large
Georgia – Southern            753         521     69.19%       181      24.04%       51       6.77%     Medium
Guam                           70          42     60.00%        11      15.71%        17     24.29%      Small
Hawaii                        538         371     68.96%        56      10.41%       111     20.63%     Medium
Idaho                         597         309     51.76%       205      34.34%        83     13.90%      Small
Illinois – Central            477         356     74.63%        77      16.14%       44       9.22%     Medium
Illinois – Northern           864         577     66.78%       131      15.16%       156     18.06%   Extra-Large
Illinois – Southern           450         271     60.22%       133      29.56%       46      10.22%     Medium


                                                     - 97 -
                                                                                               APPENDIX XIII

                                               VIOLENT CRIME CASEWORK
                             MATTERS                        (As of September 30, 2007)
                                                                                                         DISTRICT
       DISTRICT              REFERRED      NUMBER   PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                           SIZE
                           FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING        PENDING
Indiana – Northern               800         588     73.50%       150      18.75%        62      7.75%     Medium
Indiana – Southern               382         220     57.59%        99      25.92%       63      16.49%     Medium
Iowa – Northern                  491         332     67.62%        67      13.65%        92     18.74%      Small
Iowa – Southern                  564         410     72.70%        90      15.96%       64      11.35%      Small
Kansas                           848         735     86.67%        73       8.61%        40      4.72%     Medium
Kentucky – Eastern               753         535     71.05%       113      15.01%       105     13.94%     Medium
Kentucky – Western               666         372     55.86%       174      26.13%       120     18.02%     Medium
Louisiana – Eastern              627         423     67.46%       140      22.33%       64      10.21%      Large
Louisiana – Middle               530         329     62.08%       132      24.91%        69     13.02%      Small
Louisiana – Western              575         410     71.30%       110      19.13%       55       9.57%     Medium
Maine                            910         340     37.36%       405      44.51%       165     18.13%      Small
Maryland                        1,193        794     66.55%       257      21.54%       142     11.90%      Large
Massachusetts                    530         311     58.68%       117      22.08%       102     19.25%   Extra-Large
Michigan – Eastern              1,179        768     65.14%       102       8.65%       309     26.21%   Extra-Large
Michigan – Western               744         506     68.01%       138      18.55%       100     13.44%     Medium
Minnesota                        532         397     74.62%        52       9.77%       83      15.60%      Large
Mississippi – Northern           365         227     62.19%        45      12.33%        93     25.48%      Small
Mississippi – Southern           708         482     68.08%       102      14.41%       124     17.51%     Medium
Missouri – Eastern              2,325       1,496    64.34%       575      24.73%       254     10.92%      Large
Missouri – Western              2,121       1,511    71.24%       438      20.65%       172      8.11%      Large
Montana                          922         630     68.33%       190      20.61%       102     11.06%      Small
Nebraska                         801         626     78.15%       126      15.73%       49       6.12%     Medium
Nevada                          1,143        750     65.62%       266      23.27%       127     11.11%      Large
New Hampshire                    288         196     68.06%        40      13.89%       52      18.06%      Small
New Jersey                       911         652     71.57%        91       9.99%       168     18.44%   Extra-Large
New Mexico                      1,520        950     62.50%       314      20.66%       256     16.84%      Large
New York – Northern              442         233     52.71%        74      16.74%       135     30.54%     Medium
New York – Southern             1,076        740     68.77%       147      13.66%       189     17.57%   Extra-Large
New York – Eastern               738         501     67.89%        34       4.61%       203     27.51%   Extra-Large
New York – Western               867         615     70.93%       105      12.11%       147     16.96%      Large
North Carolina - Eastern        1,513       1,150    76.01%       217      14.34%       146      9.65%     Medium


                                                        - 98 -
                                                                                              APPENDIX XIII

                                               VIOLENT CRIME CASEWORK
                             MATTERS                        (As of September 30, 2007)
                                                                                                         DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT      NUMBER     PERCENT    NUMBER   PERCENT
                                                                                                           SIZE
                           FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING       PENDING
North Carolina – Middle         1,101        927     84.20%       134      12.17%       40      3.63%      Small
North Carolina – Western        1,127        960     85.18%        86       7.63%      81       7.19%     Medium
North Dakota                     540         352     65.19%       124      22.96%       64     11.85%      Small
Ohio – Northern                 1,173        874     74.51%       188      16.03%      111      9.46%      Large
Ohio – Southern                  924         675     73.05%        93      10.06%      156     16.88%      Large
Oklahoma – Eastern               197         129     65.48%        37      18.78%      31      15.74%      Small
Oklahoma – Northern              622         398     63.99%       167      26.85%      57       9.16%     Medium
Oklahoma – Western               524         331     63.17%        82      15.65%      111     21.18%     Medium
Oregon                          1,038        785     75.63%       159      15.32%       94      9.06%      Large
Pennsylvania – Eastern          2,070       1,100    53.14%       622      30.05%      348     16.81%   Extra-Large
Pennsylvania – Middle            524         344     65.65%        84      16.03%       96     18.32%     Medium
Pennsylvania – Western           950         582     61.26%       226      23.79%      142     14.95%      Large
Puerto Rico                      369         244     66.12%        75      20.33%       50     13.55%      Large
Rhode Island                     636         173     27.20%       436      68.55%      27       4.25%      Small
South Carolina                  1,795       1,378    76.77%       254      14.15%      163      9.08%      Large
South Dakota                    1,155        538     46.58%       472      40.87%      145     12.55%     Medium
Tennessee – Eastern             1,280        871     68.05%       291      22.73%      118      9.22%     Medium
Tennessee – Middle               703         429     61.02%       182      25.89%      92      13.09%     Medium
Tennessee – Western             1,926        991     51.45%       513      26.64%      422     21.91%     Medium
Texas – Eastern                 1,259        887     70.45%       254      20.17%      118      9.37%      Large
Texas – Northern                1,434        971     67.71%       319      22.25%      144     10.04%      Large
Texas – Southern                1,357        957     70.52%       190      14.00%      210     15.48%   Extra-Large
Texas – Western                 1,528       1,266    82.85%       133       8.70%      129      8.44%   Extra-Large
Utah                            2,074       1,285    61.96%       685      33.03%      104      5.01%     Medium
Vermont                          253         164     64.82%        47      18.58%       42     16.60%      Small
Virgin Islands                    80          45     56.25%        18      22.50%      17      21.25%      Small
Virginia – Eastern              1,842       1,170    63.52%       257      13.95%      415     22.53%   Extra-Large
Virginia – Western               583         458     78.56%        60      10.29%      65      11.15%      Small
Washington – Eastern             620         451     72.74%        90      14.52%       79     12.74%     Medium
Washington – Western             546         387     70.88%        69      12.64%      90      16.48%      Large
West Virginia – Northern         440         259     58.86%       121      27.50%      60      13.64%      Small


                                                        - 99 -
                                                                                                    APPENDIX XIII

                                                     VIOLENT CRIME CASEWORK
                                   MATTERS                        (As of September 30, 2007)
                                                                                                               DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT      NUMBER     PERCENT    NUMBER   PERCENT
                                                                                                                 SIZE
                                 FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING       PENDING
West Virginia – Southern              569          200     35.15%       226      39.72%      143     25.13%     Medium
Wisconsin – Eastern                   571          400     70.05%        87      15.24%      84      14.71%     Medium
Wisconsin – Western                   363          198     54.55%       122      33.61%      43      11.85%      Small
Wyoming                               506          433     85.57%        41       8.10%      32       6.32%      Small
Source: OIG analysis of LIONS data




                                                             - 100 -
                                                                                              APPENDIX XIV



                                    WHITE COLLAR CRIME CASEWORK
                                   FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                          (As of September 30, 2007)
                                                                                                        DISTRICT
      DISTRICT            REFERRED      NUMBER   PERCENT      NUMBER     PERCENT    NUMBER    PERCENT
                                                                                                          SIZE
                        FYs 2003-2007    FILED    FILED      DECLINED DECLINED PENDING        PENDING
Alabama – Middle              139          75     53.96%         31       22.30%        33     23.74%      Small
Alabama – Northern            509         249     48.92%        180       35.36%        80     15.72%      Large
Alabama – Southern            233         111     47.64%         64       27.47%        58     24.89%      Small
Alaska                        258         101     39.15%         75       29.07%        82     31.78%      Small
Arizona                       568         192     33.80%        158       27.82%       218     38.38%   Extra-Large
Arkansas – Eastern            478         161     33.68%        181       37.87%       136     28.45%     Medium
Arkansas – Western            170          71     41.76%         56       32.94%        43     25.29%      Small
California – Central         3,198       1,370    42.84%        589       18.42%      1,239    38.74%   Extra-Large
California – Eastern         1,176        576     48.98%        274       23.30%       326     27.72%      Large
California – Northern        1,248        322     25.80%        394       31.57%       532     42.63%   Extra-Large
California – Southern         468         175     37.39%        122       26.07%       171     36.54%   Extra-Large
Colorado                      632         223     35.28%        208       32.91%       201     31.80%      Large
Connecticut                   701         295     42.08%        219       31.24%       187     26.68%      Large
Delaware                      251          93     37.05%         69       27.49%        89     35.46%      Small
District of Columbia          710         264     37.18%        230       32.39%       216     30.42%   Extra-Large
Florida – Middle             1,490        529     35.50%        507       34.03%       454     30.47%   Extra-Large
Florida – Northern            250         106     42.40%         69       27.60%        75     30.00%     Medium
Florida – Southern           1,979       1,080    54.57%        198       10.01%       701     35.42%   Extra-Large
Georgia – Middle              284         112     39.44%         77       27.11%        95     33.45%     Medium
Georgia – Northern            970         414     42.68%        273       28.14%       283     29.18%      Large
Georgia – Southern            263         121     46.01%         72       27.38%        70     26.62%     Medium
Guam                          128          90     70.31%         14       10.94%        24     18.75%      Small
Hawaii                        263          95     36.12%         57       21.67%       111     42.21%     Medium
Idaho                         242          78     32.23%         94       38.84%        70     28.93%      Small
Illinois – Central            391         158     40.41%        114       29.16%       119     30.43%     Medium
Illinois – Northern          1,608        672     41.79%        336       20.90%       600     37.31%   Extra-Large
Illinois – Southern           317         118     37.22%        105       33.12%        94     29.65%     Medium


                                                    - 101 -
                                                                                              APPENDIX XIV

                                           WHITE COLLAR CRIME CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER    PERCENT     NUMBER    PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING        PENDING
Indiana – Northern               404         232    57.43%       79      19.55%         93     23.02%     Medium
Indiana – Southern               346         131    37.86%      135      39.02%         80     23.12%     Medium
Iowa – Northern                  185          73    39.46%       61      32.97%         51     27.57%      Small
Iowa – Southern                  231         101    43.72%       65      28.14%         65     28.14%      Small
Kansas                           520         268    51.54%      124      23.85%        128     24.62%     Medium
Kentucky – Eastern               309         156    50.49%       81      26.21%         72     23.30%     Medium
Kentucky – Western               373         117    31.37%      144      38.61%        112     30.03%     Medium
Louisiana – Eastern              403         168    41.69%       86      21.34%        149     36.97%      Large
Louisiana – Middle               529         223    42.16%      162      30.62%        144     27.22%      Small
Louisiana – Western              495         269    54.34%      113      22.83%        113     22.83%     Medium
Maine                            176          71    40.34%       59      33.52%         46     26.14%      Small
Maryland                         705         310    43.97%      223      31.63%        172     24.40%      Large
Massachusetts                    696         211    30.32%      218      31.32%        267     38.36%   Extra-Large
Michigan – Eastern              1,213        349    28.77%      332      27.37%        532     43.86%   Extra-Large
Michigan – Western               407         173    42.51%      112      27.52%        122     29.98%     Medium
Minnesota                        577         260    45.06%      119      20.62%        198     34.32%      Large
Mississippi – Northern           177          77    43.50%       43      24.29%         57     32.20%      Small
Mississippi – Southern          2,309        428    18.54%      450      19.49%       1,431    61.97%     Medium
Missouri – Eastern              1,516        566    37.34%      571      37.66%        379     25.00%      Large
Missouri – Western               817         288    35.25%      161      19.71%        368     45.04%      Large
Montana                          368         159    43.21%      115      31.25%         94     25.54%      Small
Nebraska                         359         156    43.45%      113      31.48%         90     25.07%     Medium
Nevada                           659         286    43.40%      203      30.80%        170     25.80%      Large
New Hampshire                    328         165    50.30%       71      21.65%         92     28.05%      Small
New Jersey                      1,495        644    43.08%      311      20.80%        540     36.12%   Extra-Large
New Mexico                       262          72    27.48%      102      38.93%         88     33.59%      Large
New York – Northern              421         179    42.52%      110      26.13%        132     31.35%     Medium
New York – Southern             2,300        968    42.09%      584      25.39%        748     32.52%   Extra-Large
New York – Eastern              1,118        497    44.45%      234      20.93%        387     34.62%   Extra-Large
New York – Western               651         205    31.49%      172      26.42%        274     42.09%      Large
North Carolina - Eastern         412         140    33.98%      120      29.13%        152     36.89%     Medium


                                                       - 102 -
                                                                                             APPENDIX XIV

                                           WHITE COLLAR CRIME CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER    PERCENT     NUMBER   PERCENT
                                                                                                         SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING       PENDING
North Carolina – Middle          253         122    48.22%       80      31.62%        51     20.16%      Small
North Carolina – Western         573         249    43.46%      156      27.23%       168     29.32%     Medium
North Dakota                     115          45    39.13%       46      40.00%        24     20.87%      Small
Ohio – Northern                 1,125        501    44.53%      305      27.11%       319     28.36%      Large
Ohio – Southern                  933         426    45.66%      210      22.51%       297     31.83%      Large
Oklahoma – Eastern               125          62    49.60%       30      24.00%        33     26.40%      Small
Oklahoma – Northern              335         153    45.67%       89      26.57%        93     27.76%     Medium
Oklahoma – Western               384         168    43.75%      108      28.13%       108     28.13%     Medium
Oregon                           670         331    49.40%      189      28.21%       150     22.39%      Large
Pennsylvania – Eastern          1,098        498    45.36%      288      26.23%       312     28.42%   Extra-Large
Pennsylvania – Middle            524         282    53.82%      120      22.90%       122     23.28%     Medium
Pennsylvania – Western           981         441    44.95%      319      32.52%       221     22.53%      Large
Puerto Rico                      241         109    45.23%       74      30.71%        58     24.07%      Large
Rhode Island                     181          56    30.94%       59      32.60%        66     36.46%      Small
South Carolina                  1,198        683    57.01%      266      22.20%       249     20.78%      Large
South Dakota                     265         150    56.60%       74      27.92%        41     15.47%     Medium
Tennessee – Eastern              348         139    39.94%      124      35.63%        85     24.43%     Medium
Tennessee – Middle               326         116    35.58%       73      22.39%       137     42.02%     Medium
Tennessee – Western              506         300    59.29%      101      19.96%       105     20.75%     Medium
Texas – Northern                1,435        550    38.33%      482      33.59%       403     28.08%      Large
Texas – Southern                 563         178    31.62%      149      26.47%       236     41.92%   Extra-Large
Texas – Eastern                  647         323    49.92%      189      29.21%       135     20.87%      Large
Texas – Western                  696         293    42.10%      176      25.29%       227     32.61%   Extra-Large
Utah                             465         215    46.24%       98      21.08%       152     32.69%     Medium
Vermont                          147          49    33.33%       62      42.18%        36     24.49%      Small
Virgin Islands                    46          8     17.39%       15      32.61%        23     50.00%      Small
Virginia – Eastern              1,511        640    42.36%      408      27.00%       463     30.64%   Extra-Large
Virginia – Western               224          96    42.86%       50      22.32%        78     34.82%      Small
Washington – Eastern             214         102    47.66%       59      27.57%        53     24.77%     Medium
Washington – Western             688         297    43.17%      199      28.92%       192     27.91%      Large
West Virginia – Northern         197          73    37.06%       68      34.52%        56     28.43%      Small


                                                       - 103 -
                                                                                                   APPENDIX XIV

                                                 WHITE COLLAR CRIME CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                             DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT     NUMBER    PERCENT     NUMBER   PERCENT
                                                                                                               SIZE
                                 FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING       PENDING
West Virginia – Southern              395           95    24.05%      163      41.27%       137     34.68%    Medium
Wisconsin – Eastern                   414          181    43.72%      106      25.60%       127     30.68%    Medium
Wisconsin – Western                   343          132    38.48%      107      31.20%       104     30.32%     Small
Wyoming                               102           50    49.02%       28      27.45%        24     23.53%     Small
Source: OIG analysis of LIONS data




                                                             - 104 -
                                                                                               APPENDIX XV



                                   CRIMINAL IMMIGRATION CASEWORK
                                    FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                         (As of September 30, 2007)
                                                                                                        DISTRICT
     DISTRICT             REFERRED      NUMBER    PERCENT    NUMBER     PERCENT     NUMBER    PERCENT
                                                                                                          SIZE
                        FYs 2003-2007    FILED     FILED    DECLINED DECLINED PENDING         PENDING
Alabama – Middle               74           68     91.89%        6        8.11%         0       0.00%      Small
Alabama – Northern             94           80     85.11%        11      11.70%         3       3.19%      Large
Alabama – Southern            100           83     83.00%        9        9.00%         8       8.00%      Small
Alaska                         64           49     76.56%         8      12.50%         7      10.94%      Small
Arizona                     29,435       10,774    36.60%       533       1.81%      18,128    61.59%   Extra-Large
Arkansas – Eastern            134          112     83.58%        14      10.45%         8       5.97%     Medium
Arkansas – Western            434          306     70.51%        13       3.00%       115      26.50%      Small
California – Central         3,156        2,683    85.01%        51       1.62%       422      13.37%   Extra-Large
California – Eastern         1,302        1,179    90.55%        30       2.30%        93       7.14%      Large
California – Northern         884          674     76.24%        52       5.88%       158      17.87%   Extra-Large
California – Southern       11,410        9,763    85.57%        20       0.18%      1,627     14.26%   Extra-Large
Colorado                      749          658     87.85%        58       7.74%        33       4.41%      Large
Connecticut                   129           75     58.14%        23      17.83%        31      24.03%      Large
Delaware                      103           86     83.50%         2       1.94%        15      14.56%      Small
District of Columbia          128           83     64.84%        29      22.66%        16      12.50%   Extra-Large
Florida – Middle             1,666        1,404    84.27%       106       6.36%       156       9.36%   Extra-Large
Florida – Northern            180          156     86.67%        10       5.56%        14       7.78%     Medium
Florida – Southern           2,514        2,160    85.92%       134       5.33%       220       8.75%   Extra-Large
Georgia – Middle               40           35     87.50%        0        0.00%         5      12.50%     Medium
Georgia – Northern            762          668     87.66%        33       4.33%        61       8.01%      Large
Georgia – Southern             49           41     83.67%        2        4.08%         6      12.24%     Medium
Guam                          168          114     67.86%         9       5.36%        45      26.79%      Small
Hawaii                         81           49     60.49%        9       11.11%        23      28.40%     Medium
Idaho                         396          372     93.94%        14       3.54%        10       2.53%      Small
Illinois – Central            139          135     97.12%        0        0.00%         4       2.88%     Medium
Illinois – Northern           404          342     84.65%        21       5.20%        41      10.15%   Extra-Large
Illinois – Southern           117          109     93.16%        6        5.13%         2       1.71%     Medium


                                                      - 105 -
                                                                                              APPENDIX XV

                                         CRIMINAL IMMIGRATION CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED     NUMBER PERCENT      NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                           FYs 2003-2007   FILED    FILED    DECLINED DECLINED PENDING        PENDING
Indiana – Northern                70          49    70.00%        13      18.57%         8     11.43%     Medium
Indiana – Southern                46          30    65.22%         9      19.57%        7      15.22%     Medium
Iowa – Northern                  490         447    91.22%        22       4.49%        21      4.29%      Small
Iowa – Southern                  411         390    94.89%         7       1.70%        14     3.41%       Small
Kansas                           546         512    93.77%        13       2.38%        21      3.85%     Medium
Kentucky – Eastern               396         221    55.81%         6       1.52%       169     42.68%     Medium
Kentucky – Western                78          60    76.92%        11      14.10%         7      8.97%     Medium
Louisiana – Eastern              269         234    86.99%        20       7.43%        15     5.58%       Large
Louisiana – Middle                44          36    81.82%         3       6.82%         5     11.36%      Small
Louisiana – Western               99          77    77.78%         6       6.06%        16     16.16%     Medium
Maine                            166         106    63.86%        19      11.45%        41     24.70%      Small
Maryland                         219         189    86.30%        14       6.39%        16     7.31%       Large
Massachusetts                    202         164    81.19%         8       3.96%        30     14.85%   Extra-Large
Michigan – Eastern               287         208    72.47%        17       5.92%        62     21.60%   Extra-Large
Michigan – Western               291         262    90.03%         6       2.06%        23      7.90%     Medium
Minnesota                        152         123    80.92%        11       7.24%        18     11.84%      Large
Mississippi – Northern            30          22    73.33%         5      16.67%         3     10.00%      Small
Mississippi – Southern           141         126    89.36%         6       4.26%        9      6.38%      Medium
Missouri – Eastern               103         100    97.09%         2       1.94%         1      0.97%      Large
Missouri – Western               327         237    72.48%        24       7.34%        66     20.18%      Large
Montana                          276         219    79.35%        30      10.87%        27      9.78%      Small
Nebraska                         384         357    92.97%        18       4.69%        9      2.34%      Medium
Nevada                           679         646    95.14%        18       2.65%        15      2.21%      Large
New Hampshire                     59          50    84.75%         1       1.69%        8      13.56%      Small
New Jersey                       272         184    67.65%        25       9.19%        63     23.16%   Extra-Large
New Mexico                      8,786       8,088   92.06%        22       0.25%       676     7.69%       Large
New York – Eastern               454         373    82.16%         8       1.76%        73     16.08%   Extra-Large
New York – Northern              987         878    88.96%        25       2.53%        84     8.51%      Medium
New York – Southern             1,045        778    74.45%       109      10.43%       158     15.12%   Extra-Large
New York – Western               691         339    49.06%        21       3.04%       331     47.90%      Large
North Carolina - Eastern         243         180    74.07%         6       2.47%        57     23.46%     Medium


                                                      - 106 -
                                                                                           APPENDIX XV

                                         CRIMINAL IMMIGRATION CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                      DISTRICT
       DISTRICT              REFERRED     NUMBER PERCENT      NUMBER     PERCENT     NUMBER PERCENT
                                                                                                        SIZE
                           FYs 2003-2007   FILED    FILED    DECLINED DECLINED PENDING PENDING
North Carolina – Middle          261         249    95.40%         5       1.92%          7   2.68%      Small
North Carolina – Western         215         196    91.16%         2       0.93%         17  7.91%      Medium
North Dakota                     438         407    92.92%        15       3.42%         16   3.65%      Small
Ohio – Northern                  185         162    87.57%         7       3.78%         16  8.65%       Large
Ohio – Southern                   88          63    71.59%         7       7.95%         18  20.45%      Large
Oklahoma – Eastern                8            6    75.00%         0       0.00%         2   25.00%      Small
Oklahoma – Northern               18          16    88.89%         0       0.00%          2  11.11%     Medium
Oklahoma – Western                44          38    86.36%         3       6.82%         3   6.82%      Medium
Oregon                          1,050       1,023   97.43%         8       0.76%         19   1.81%      Large
Pennsylvania – Eastern           333         263    78.98%        29       8.71%         41  12.31%   Extra-Large
Pennsylvania – Middle            193         152    78.76%        16       8.29%         25  12.95%     Medium
Pennsylvania – Western           214         179    83.64%        25      11.68%         10  4.67%       Large
Puerto Rico                      814         611    75.06%       112      13.76%         91  11.18%      Large
Rhode Island                     101          86    85.15%        12      11.88%         3   2.97%       Small
South Carolina                   533         400    75.05%        25       4.69%        108  20.26%      Large
South Dakota                     225         214    95.11%         4       1.78%         7   3.11%      Medium
Tennessee – Eastern              229         202    88.21%        18       7.86%          9   3.93%     Medium
Tennessee – Middle               144         124    86.11%         9       6.25%         11  7.64%      Medium
Tennessee – Western               73          64    87.67%         5       6.85%          4   5.48%     Medium
Texas – Eastern                  362         330    91.16%        14       3.87%         18  4.97%       Large
Texas – Northern                1,532        958    62.53%        58       3.79%        516  33.68%      Large
Texas – Southern               64,071      18,400   28.72%        84       0.13%      45,587 71.15%   Extra-Large
Texas – Western                15,925      11,375   71.43%        47       0.30%       4,503 28.28%   Extra-Large
Utah                            1,143       1,094   95.71%        13       1.14%         36  3.15%      Medium
Vermont                          173         130    75.14%        12       6.94%         31  17.92%      Small
Virgin Islands                   574         533    92.86%         2       0.35%         39  6.79%       Small
Virginia – Eastern               739         544    73.61%        64       8.66%        131  17.73%   Extra-Large
Virginia – Western                19          18    94.74%         1       5.26%         0   0.00%       Small
Washington – Eastern             736         659    89.54%        45       6.11%         32   4.35%     Medium
Washington – Western             589         416    70.63%        36       6.11%        137  23.26%      Large
West Virginia – Northern          30          24    80.00%         0       0.00%         6   20.00%      Small


                                                      - 107 -
                                                                                                    APPENDIX XV

                                               CRIMINAL IMMIGRATION CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                              DISTRICT
         DISTRICT                  REFERRED     NUMBER PERCENT      NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                                SIZE
                                 FYs 2003-2007   FILED    FILED    DECLINED DECLINED PENDING        PENDING
West Virginia – Southern               18          11     61.11%         2      11.11%       5       27.78%    Medium
Wisconsin – Eastern                   185         138     74.59%        22      11.89%       25      13.51%    Medium
Wisconsin – Western                    63          55     87.30%         7      11.11%       1        1.59%     Small
Wyoming                               169         131     77.51%         4      2.37%        34      20.12%     Small
Source: OIG analysis of LIONS data




                                                            - 108 -
                                                                                             APPENDIX XVI



                                   PUBLIC CORRUPTION CASEWORK
                                  FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                          (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT           REFERRED      NUMBER   PERCENT     NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                         SIZE
                        FYs 2003-2007    FILED     FILED    DECLINED DECLINED PENDING        PENDING
Alabama – Middle              14           9      64.29%         2       14.29%        3      21.43%      Small
Alabama – Northern            80           37     46.25%        23       28.75%        20     25.00%      Large
Alabama – Southern            15           4      26.67%         8       53.33%        3      20.00%      Small
Alaska                        22           9      40.91%         7       31.82%         6     27.27%      Small
Arizona                      129           27     20.93%        58       44.96%        44     34.11%   Extra-Large
Arkansas – Eastern            50           10     20.00%        21       42.00%        19     38.00%     Medium
Arkansas – Western            5            1      20.00%         1       20.00%        3      60.00%      Small
California – Central         156           66     42.31%        50       32.05%        40     25.64%   Extra-Large
California – Eastern         228           77     33.77%        45       19.74%       106     46.49%      Large
California – Northern         88           16     18.18%        29       32.95%        43     48.86%   Extra-Large
California – Southern         42           13     30.95%        14       33.33%        15     35.71%   Extra-Large
Colorado                      39           18     46.15%        11       28.21%        10     25.64%      Large
Connecticut                   40           19     47.50%        11       27.50%        10     25.00%      Large
Delaware                      26           8      30.77%         7       26.92%        11     42.31%      Small
District of Columbia         232           71     30.60%        98       42.24%        63     27.16%   Extra-Large
Florida – Middle             111           27     24.32%        41       36.94%        43     38.74%   Extra-Large
Florida – Northern            58           15     25.86%        20       34.48%        23     39.66%     Medium
Florida – Southern           114           44     38.60%        34       29.82%        36     31.58%   Extra-Large
Georgia – Middle              30           12     40.00%         5       16.67%        13     43.33%     Medium
Georgia – Northern            97           40     41.24%        27       27.84%        30     30.93%      Large
Georgia – Southern            17           3      17.65%         4       23.53%        10     58.82%     Medium
Guam                          33           7      21.21%        17       51.52%         9     27.27%      Small
Hawaii                        40           19     47.50%        10       25.00%        11     27.50%     Medium
Idaho                         16           3      18.75%         8       50.00%         5     31.25%      Small
Illinois – Central            45           8      17.78%        26       57.78%        11     24.44%     Medium
Illinois – Northern           88           36     40.91%        16       18.18%        36     40.91%   Extra-Large
Illinois – Southern           40           15     37.50%        15       37.50%        10     25.00%     Medium


                                                     - 109 -
                                                                                              APPENDIX XVI

                                            PUBLIC CORRUPTION CASEWORK
                             MATTERS                        (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING        PENDING
Indiana – Northern               53           28    52.83%       14       26.42%       11      20.75%     Medium
Indiana – Southern               17            3    17.65%        7       41.18%        7      41.18%     Medium
Iowa – Northern                  2             0     0.00%        1       50.00%        1      50.00%      Small
Iowa – Southern                  16            4    25.00%        6       37.50%        6      37.50%      Small
Kansas                           17            6    35.29%        9       52.94%        2      11.76%     Medium
Kentucky – Eastern               43           17    39.53%        8       18.60%       18      41.86%     Medium
Kentucky – Western               22            2     9.09%       11       50.00%        9      40.91%     Medium
Louisiana – Eastern              92           40    43.48%       24       26.09%       28      30.43%      Large
Louisiana – Middle               25            8    32.00%        4       16.00%       13      52.00%      Small
Louisiana – Western              38           12    31.58%       18       47.37%        8      21.05%     Medium
Maine                            8             1    12.50%        3       37.50%        4      50.00%      Small
Maryland                        126           51    40.48%       46       36.51%       29      23.02%      Large
Massachusetts                   230           57    24.78%       108      46.96%        65     28.26%   Extra-Large
Michigan – Eastern              110           33    30.00%       23       20.91%       54      49.09%   Extra-Large
Michigan – Western               50           32    64.00%       10       20.00%        8      16.00%     Medium
Minnesota                        29            4    13.79%       12       41.38%       13      44.83%      Large
Mississippi – Northern           35           15    42.86%       10       28.57%       10      28.57%      Small
Mississippi – Southern           70           17    24.29%       23       32.86%       30      42.86%     Medium
Missouri – Eastern               78           24    30.77%       20       25.64%       34      43.59%      Large
Missouri – Western               40           13    32.50%       18       45.00%        9      22.50%      Large
Montana                          49           31    63.27%        6       12.24%       12      24.49%      Small
Nebraska                         28            8    28.57%        7       25.00%       13      46.43%     Medium
Nevada                           22            6    27.27%       10       45.45%        6      27.27%      Large
New Hampshire                    13            7    53.85%        1        7.69%        5      38.46%      Small
New Jersey                      407          186    45.70%       79       19.41%       142     34.89%   Extra-Large
New Mexico                       43           14    32.56%       15       34.88%       14      32.56%      Large
New York – Eastern              173           80    46.24%       25       14.45%        68     39.31%   Extra-Large
New York – Northern              38            7    18.42%       16       42.11%       15      39.47%     Medium
New York – Southern             143           51    35.66%       35       24.48%       57      39.86%   Extra-Large
New York – Western               69           11    15.94%       30       43.48%       28      40.58%      Large
North Carolina - Eastern         78           30     38.46%      18       23.08%        30     38.46%     Medium


                                                       - 110 -
                                                                                             APPENDIX XVI

                                            PUBLIC CORRUPTION CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                       DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                         SIZE
                           FYs 2003-2007    FILED    FILED  DECLINED DECLINED PENDING        PENDING
North Carolina – Middle           6            0     0.00%       3       50.00%        3      50.00%      Small
North Carolina – Western         30           11    36.67%      10       33.33%        9      30.00%     Medium
North Dakota                     33           18    54.55%      14       42.42%        1       3.03%      Small
Ohio – Northern                 135           49    36.30%      44       32.59%       42      31.11%      Large
Ohio – Southern                  47           12    25.53%      20       42.55%       15      31.91%      Large
Oklahoma – Eastern               17            4    23.53%       4       23.53%        9      52.94%      Small
Oklahoma – Northern              14            4    28.57%       3       21.43%        7      50.00%     Medium
Oklahoma – Western               44           23    52.27%      13       29.55%        8      18.18%     Medium
Oregon                           31            9    29.03%      12       38.71%       10      32.26%      Large
Pennsylvania – Eastern          103           45    43.69%      27       26.21%       31      30.10%   Extra-Large
Pennsylvania – Middle            41           17    41.46%       7       17.07%       17      41.46%     Medium
Pennsylvania – Western           37            9    24.32%      19       51.35%        9      24.32%      Large
Puerto Rico                      85           32    37.65%      35       41.18%       18      21.18%      Large
Rhode Island                     29            4    13.79%      12       41.38%       13      44.83%      Small
South Carolina                   36           18    50.00%       8       22.22%       10      27.78%      Large
South Dakota                     10            3    30.00%       5       50.00%        2      20.00%     Medium
Tennessee – Eastern              35           21    60.00%       8       22.86%        6      17.14%     Medium
Tennessee – Middle               44           14    31.82%      15       34.09%       15      34.09%     Medium
Tennessee – Western              51           25    49.02%      13       25.49%       13      25.49%     Medium
Texas – Eastern                  23            8    34.78%      11       47.83%        4      17.39%      Large
Texas – Northern                 95           27    28.42%      37       38.95%       31      32.63%      Large
Texas – Southern                143           45    31.47%      45       31.47%       53      37.06%   Extra-Large
Texas – Western                  66           20    30.30%      22       33.33%       24      36.36%   Extra-Large
Utah                             23           10    43.48%       5       21.74%        8      34.78%     Medium
Vermont                          13            3    23.08%       7       53.85%        3      23.08%      Small
Virgin Islands                   49           17    34.69%      18       36.73%       14      28.57%      Small
Virginia – Eastern              164           57    34.76%      54       32.93%       53      32.32%   Extra-Large
Virginia – Western               30           11    36.67%      13       43.33%        6      20.00%      Small
Washington – Eastern             22            6    27.27%       6       27.27%       10      45.45%     Medium
Washington – Western             46           12    26.09%      14       30.43%       20      43.48%      Large
West Virginia – Northern         9            2     22.22%       6       66.67%       1       11.11%      Small


                                                       - 111 -
                                                                                                   APPENDIX XVI

                                                 PUBLIC CORRUPTION CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                             DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT     NUMBER     PERCENT    NUMBER   PERCENT
                                                                                                               SIZE
                                 FYs 2003-2007    FILED   FILED    DECLINED DECLINED PENDING       PENDING
West Virginia – Southern               55           12    21.82%       27       49.09%      16      29.09%    Medium
Wisconsin – Eastern                    33           17    51.52%        8       24.24%       8      24.24%    Medium
Wisconsin – Western                    21           4     19.05%        7       33.33%      10      47.62%     Small
Wyoming                                18           6     33.33%        7       38.89%       5      27.78%     Small
Source: OIG analysis of LIONS data




                                                             - 112 -
                                                                                            APPENDIX XVII


                                    ORGANIZED CRIME CASEWORK
                                  FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                       (As of September 30, 2007)
                                                                                                     DISTRICT
      DISTRICT           REFERRED      NUMBER   PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                       SIZE
                        FY 2003-2007    FILED    FILED    DECLINED DECLINED PENDING        PENDING
Alabama – Middle              0          N/A       N/A        N/A        N/A        N/A       N/A       Small
Alabama – Northern            0          N/A       N/A        N/A        N/A        N/A       N/A       Large
Alabama – Southern            2           1      50.00%         0       0.00%        1      50.00%      Small
Alaska                        6           1      16.67%         3      50.00%        2      33.33%      Small
Arizona                       2           1      50.00%         0       0.00%        1      50.00%   Extra-Large
Arkansas – Eastern            1           0       0.00%         1     100.00%        0       0.00%     Medium
Arkansas – Western            0          N/A       N/A        N/A        N/A        N/A       N/A       Small
California – Central         40           19     47.50%        11      27.50%       10      25.00%   Extra-Large
California – Eastern          6           3      50.00%         2      33.33%        1      16.67%      Large
California – Northern        95           28     29.47%        33      34.74%       34      35.79%   Extra-Large
California – Southern         9           1      11.11%         4      44.44%        4      44.44%   Extra-Large
Colorado                     27           17     62.96%         7      25.93%        3      11.11%      Large
Connecticut                  53           37     69.81%         8      15.09%        8      15.09%      Large
Delaware                      0          N/A       N/A        N/A        N/A        N/A       N/A       Small
District of Columbia          6           3      50.00%         0       0.00%        3      50.00%   Extra-Large
Florida – Middle             60           31     51.67%        14      23.33%       15      25.00%   Extra-Large
Florida – Northern            2           0       0.00%         2     100.00%        0      0.00%      Medium
Florida – Southern           44           22     50.00%         6      13.64%       16      36.36%   Extra-Large
Georgia – Middle              0          N/A       N/A        N/A        N/A        N/A       N/A      Medium
Georgia – Northern           45           32     71.11%         9      20.00%        4      8.89%       Large
Georgia – Southern            0          N/A       N/A        N/A        N/A        N/A       N/A      Medium
Guam                          2           1      50.00%         0       0.00%        1      50.00%      Small
Hawaii                       29           16     55.17%         1       3.45%       12      41.38%     Medium
Idaho                         0          N/A       N/A        N/A        N/A        N/A       N/A       Small
Illinois – Central            5           1      20.00%         1      20.00%        3      60.00%     Medium
Illinois – Northern          61           14     22.95%         9      14.75%       38      62.30%   Extra-Large
Illinois – Southern           0          N/A       N/A        N/A        N/A        N/A       N/A      Medium



                                                     - 113 -
                                                                                             APPENDIX XVII

                                            ORGANIZED CRIME CASEWORK
                             MATTERS                      (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT    NUMBER     PERCENT     NUMBER    PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED  FILED    DECLINED DECLINED PENDING         PENDING
Indiana – Northern               6            1    16.67%        0        0.00%        5       83.33%     Medium
Indiana – Southern               0           N/A     N/A       N/A         N/A        N/A        N/A      Medium
Iowa – Northern                  0           N/A     N/A       N/A         N/A        N/A        N/A       Small
Iowa – Southern                  2            0    0.00%         1       50.00%        1       50.00%      Small
Kansas                           1            1   100.00%        0        0.00%        0        0.00%     Medium
Kentucky – Eastern               0           N/A     N/A       N/A         N/A        N/A        N/A      Medium
Kentucky – Western               3            1    33.33%        2       66.67%        0        0.00%     Medium
Louisiana – Eastern              1            1   100.00%        0       0.00%         0       0.00%       Large
Louisiana – Middle               0           N/A     N/A       N/A         N/A        N/A        N/A       Small
Louisiana – Western              1            1   100.00%        0       0.00%         0       0.00%      Medium
Maine                            0           N/A     N/A       N/A         N/A        N/A        N/A       Small
Maryland                         27           16   59.26%        8       29.63%        3       11.11%      Large
Massachusetts                   177          100   56.50%       19       10.73%       58       32.77%   Extra-Large
Michigan – Eastern               40           15   37.50%        0       0.00%        25       62.50%   Extra-Large
Michigan – Western               2            0    0.00%         2      100.00%        0        0.00%     Medium
Minnesota                        0           N/A     N/A       N/A         N/A        N/A        N/A       Large
Mississippi – Northern           0           N/A     N/A       N/A         N/A        N/A        N/A       Small
Mississippi – Southern           4            1    25.00%        0       0.00%         3       75.00%     Medium
Missouri – Eastern               20           6    30.00%        4       20.00%       10       50.00%      Large
Missouri – Western               38           14   36.84%       10       26.32%       14       36.84%      Large
Montana                          1            0    0.00%         1      100.00%        0        0.00%      Small
Nebraska                         0           N/A     N/A       N/A         N/A        N/A        N/A      Medium
Nevada                           44           20   45.45%       11       25.00%       13       29.55%      Large
New Hampshire                    6            4    66.67%        2       33.33%        0       0.00%       Small
New Jersey                      131           61   46.56%       15       11.45%       55       41.98%   Extra-Large
New Mexico                       1            0    0.00%         1      100.00%        0       0.00%       Large
New York – Eastern              258          112   43.41%       49       18.99%       97       37.60%   Extra-Large
New York – Northern              11           6    54.55%        2       18.18%        3       27.27%     Medium
New York – Southern             190          125   65.79%       12       6.32%        53       27.89%   Extra-Large
New York – Western               69           40   57.97%        7       10.14%       22       31.88%      Large
North Carolina - Eastern         16           3    18.75%       11       68.75%        2       12.50%     Medium


                                                      - 114 -
                                                                                             APPENDIX XVII

                                            ORGANIZED CRIME CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT    NUMBER    PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED   FILED    DECLINED DECLINED PENDING        PENDING
North Carolina – Middle          0           N/A      N/A       N/A         N/A       N/A        N/A       Small
North Carolina – Western         6             3    50.00%        3       50.00%       0       0.00%      Medium
North Dakota                     1             0    0.00%         0        0.00%       1      100.00%      Small
Ohio – Northern                  64           36    56.25%       20       31.25%       8       12.50%      Large
Ohio – Southern                  10            2    20.00%        3       30.00%       5       50.00%      Large
Oklahoma – Eastern               1             0    0.00%         1      100.00%       0       0.00%       Small
Oklahoma – Northern              0           N/A      N/A       N/A         N/A       N/A        N/A      Medium
Oklahoma – Western               1             0    0.00%         1      100.00%       0       0.00%      Medium
Oregon                           9             2    22.22%        2       22.22%       5       55.56%      Large
Pennsylvania – Eastern           99           55    55.56%       19       19.19%      25       25.25%   Extra-Large
Pennsylvania – Middle            2             1    50.00%        1       50.00%       0        0.00%     Medium
Pennsylvania – Western           24           19    79.17%        4       16.67%       1       4.17%       Large
Puerto Rico                      2             0    0.00%         2      100.00%       0        0.00%      Large
Rhode Island                     4             3    75.00%        1       25.00%       0       0.00%       Small
South Carolina                   0           N/A      N/A       N/A         N/A       N/A        N/A       Large
South Dakota                     0           N/A      N/A       N/A         N/A       N/A        N/A      Medium
Tennessee – Eastern              8             7    87.50%        1       12.50%       0        0.00%     Medium
Tennessee – Middle               2             2   100.00%        0       0.00%        0       0.00%      Medium
Tennessee – Western              1             0    0.00%         1      100.00%       0        0.00%     Medium
Texas – Eastern                  2             0    0.00%         2      100.00%       0       0.00%       Large
Texas – Northern                 3             1    33.33%        1       33.33%       1       33.33%      Large
Texas – Southern                 29           12    41.38%        5       17.24%      12       41.38%   Extra-Large
Texas – Western                  3             1    33.33%        1       33.33%       1       33.33%   Extra-Large
Utah                             6             4    66.67%        2       33.33%       0       0.00%      Medium
Vermont                          0           N/A      N/A       N/A         N/A       N/A        N/A       Small
Virgin Islands                   0           N/A      N/A       N/A         N/A       N/A        N/A       Small
Virginia – Eastern               8             3    37.50%        2       25.00%       3       37.50%   Extra-Large
Virginia – Western               1             0    0.00%         0       0.00%        1      100.00%      Small
Washington – Eastern             9             0    0.00%         9      100.00%       0        0.00%     Medium
Washington – Western             16            8    50.00%        2       12.50%       6       37.50%      Large
West Virginia – Northern         1             0    0.00%         1      100.00%       0       0.00%       Small


                                                      - 115 -
                                                                                                APPENDIX XVII

                                                  ORGANIZED CRIME CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                              DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT     NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                                SIZE
                                 FYs 2003-2007    FILED   FILED    DECLINED DECLINED PENDING        PENDING
West Virginia – Southern               2            0     0.00%         2       100.00%       0      0.00%     Medium
Wisconsin – Eastern                    6            5     83.33%        1       16.67%        0      0.00%     Medium
Wisconsin – Western                    0           N/A      N/A        N/A        N/A        N/A      N/A       Small
Wyoming                                0           N/A      N/A        N/A        N/A        N/A      N/A       Small
Source: OIG analysis of LIONS data




                                                            - 116 -
                                                                                             APPENDIX XVIII


                                        CIVIL RIGHTS CASEWORK
                                    FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                        (As of September 30, 2007)
                                                                                                        DISTRICT
      DISTRICT            REFERRED      NUMBER   PERCENT    NUMBER      PERCENT     NUMBER    PERCENT
                                                                                                          SIZE
                        FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING          PENDING
Alabama – Middle               6           0       0.00%         5       83.33%       1        16.67%      Small
Alabama – Northern            40           3       7.50%         33      82.50%       4        10.00%      Large
Alabama – Southern             7           1      14.29%         6       85.71%       0        0.00%       Small
Alaska                        28           1       3.57%         18      64.29%        9       32.14%      Small
Arizona                       51           4       7.84%         25      49.02%       22       43.14%   Extra-Large
Arkansas – Eastern            56           7      12.50%         41      73.21%        8       14.29%     Medium
Arkansas – Western             2           0       0.00%         2      100.00%       0        0.00%       Small
California – Central         336           18      5.36%        264      78.57%       54       16.07%   Extra-Large
California – Eastern          30           3      10.00%         18      60.00%       9        30.00%      Large
California – Northern         48           5      10.42%         29      60.42%       14       29.17%   Extra-Large
California – Southern         41           5      12.20%         31      75.61%       5        12.20%   Extra-Large
Colorado                      12           1       8.33%         4       33.33%        7       58.33%      Large
Connecticut                   22           2       9.09%         15      68.18%       5        22.73%      Large
Delaware                       2           0       0.00%          2     100.00%        0        0.00%      Small
District of Columbia         745           6       0.81%        656      88.05%       83       11.14%   Extra-Large
Florida – Middle             104           11     10.58%         58      55.77%       35       33.65%   Extra-Large
Florida – Northern            31           8      25.81%         15      48.39%       8        25.81%     Medium
Florida – Southern            40           5      12.50%         21      52.50%       14       35.00%   Extra-Large
Georgia – Middle              39           2       5.13%         23      58.97%       14       35.90%     Medium
Georgia – Northern            45           8      17.78%         28      62.22%       9        20.00%      Large
Georgia – Southern             9           2      22.22%         3       33.33%       4        44.44%     Medium
Guam                           6           2      33.33%          2      33.33%        2       33.33%      Small
Hawaii                        19           6      31.58%         8       42.11%       5        26.32%     Medium
Idaho                         52           1       1.92%         47      90.38%        4        7.69%      Small
Illinois – Central            12           3      25.00%         8       66.67%       1        8.33%      Medium
Illinois – Northern           33           5      15.15%         22      66.67%       6        18.18%   Extra-Large
Illinois – Southern           29           4      13.79%         17      58.62%       8        27.59%     Medium



                                                     - 117 -
                                                                                          APPENDIX XVIII

                                              CIVIL RIGHTS CASEWORK
                             MATTERS                        (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT      NUMBER    PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING       PENDING
Indiana – Northern               15           3      20.00%        3       20.00%       9      60.00%     Medium
Indiana – Southern               28           2      7.14%        23      82.14%       3       10.71%     Medium
Iowa – Northern                  11           0      0.00%        11      100.00%       0       0.00%      Small
Iowa – Southern                   4           0      0.00%         4      100.00%      0       0.00%       Small
Kansas                           12           1      8.33%         8       66.67%       3      25.00%     Medium
Kentucky – Eastern               29           6      20.69%       17      58.62%       6       20.69%     Medium
Kentucky – Western               22           1      4.55%        17       77.27%       4      18.18%     Medium
Louisiana – Eastern              55           3      5.45%        32      58.18%       20      36.36%      Large
Louisiana – Middle               29           0      0.00%        21       72.41%       8      27.59%      Small
Louisiana – Western             112           6      5.36%        86      76.79%       20      17.86%     Medium
Maine                            26           0      0.00%        20       76.92%       6      23.08%      Small
Maryland                         17           4      23.53%       12      70.59%       1       5.88%       Large
Massachusetts                    82           4       4.88%       63       76.83%      15      18.29%   Extra-Large
Michigan – Eastern              107           7      6.54%        80      74.77%       20      18.69%   Extra-Large
Michigan – Western                4           1      25.00%        3       75.00%       0       0.00%     Medium
Minnesota                        11           3      27.27%        3      27.27%       5       45.45%      Large
Mississippi – Northern           63           4      6.35%        47       74.60%      12      19.05%      Small
Mississippi – Southern          125           13     10.40%      102      81.60%       10      8.00%      Medium
Missouri – Eastern               37           7      18.92%       12       32.43%      18      48.65%      Large
Missouri – Western               27           4      14.81%        9      33.33%       14      51.85%      Large
Montana                          10           0       0.00%        6       60.00%       4      40.00%      Small
Nebraska                         19           2      10.53%       17      89.47%       0       0.00%      Medium
Nevada                           32           6      18.75%       18       56.25%       8      25.00%      Large
New Hampshire                     4           0      0.00%         2      50.00%       2       50.00%      Small
New Jersey                       31           11     35.48%        9       29.03%      11      35.48%   Extra-Large
New Mexico                       34           1      2.94%        30      88.24%       3       8.82%       Large
New York – Eastern               54           18     33.33%       14       25.93%      22      40.74%   Extra-Large
New York – Northern              61           1      1.64%        30      49.18%       30      49.18%     Medium
New York – Southern              10           2      20.00%        4      40.00%       4       40.00%   Extra-Large
New York – Western               38           2      5.26%        17      44.74%       19      50.00%      Large
North Carolina - Eastern         20           6      30.00%        7      35.00%       7       35.00%     Medium


                                                      - 118 -
                                                                                           APPENDIX XVIII

                                              CIVIL RIGHTS CASEWORK
                             MATTERS                        (As of September 30, 2007)
                                                                                                         DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT      NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                           SIZE
                           FYs 2003-2007    FILED     FILED   DECLINED DECLINED PENDING        PENDING
North Carolina – Middle           5            0      0.00%        4       80.00%        1      20.00%      Small
North Carolina – Western         10            4     40.00%        3       30.00%        3      30.00%     Medium
North Dakota                      2            0      0.00%        2      100.00%        0       0.00%      Small
Ohio – Northern                  75            6      8.00%       31       41.33%       38      50.67%      Large
Ohio – Southern                  20            3     15.00%        7       35.00%       10      50.00%      Large
Oklahoma – Eastern                8            1     12.50%        4       50.00%        3      37.50%      Small
Oklahoma – Northern               6            1     16.67%        5       83.33%        0      0.00%      Medium
Oklahoma – Western               10            0      0.00%        9       90.00%        1      10.00%     Medium
Oregon                           39            5     12.82%       27       69.23%        7      17.95%      Large
Pennsylvania – Eastern           15            3     20.00%        7       46.67%        5      33.33%   Extra-Large
Pennsylvania – Middle            19            0      0.00%       10       52.63%        9      47.37%     Medium
Pennsylvania – Western           64            0      0.00%       57       89.06%        7      10.94%      Large
Puerto Rico                       4            1     25.00%        0       0.00%         3      75.00%      Large
Rhode Island                     15            1      6.67%       13       86.67%        1      6.67%       Small
South Carolina                   70            2      2.86%       44       62.86%       24      34.29%      Large
South Dakota                      5            0      0.00%        5      100.00%        0      0.00%      Medium
Tennessee – Eastern              35            9     25.71%       23       65.71%        3       8.57%     Medium
Tennessee – Middle               28            9     32.14%       11       39.29%        8      28.57%     Medium
Tennessee – Western              34           10     29.41%       12       35.29%       12      35.29%     Medium
Texas – Eastern                 118            4      3.39%       83       70.34%       31      26.27%      Large
Texas – Northern                133            4      3.01%       85       63.91%       44      33.08%      Large
Texas – Southern                225           13      5.78%      132       58.67%       80      35.56%   Extra-Large
Texas – Western                  48           11     22.92%       30       62.50%        7      14.58%   Extra-Large
Utah                             19            2     10.53%        6       31.58%       11      57.89%     Medium
Vermont                           2            0      0.00%        2      100.00%        0       0.00%      Small
Virgin Islands                   10            0      0.00%        3       30.00%        7      70.00%      Small
Virginia – Eastern               94            4      4.26%       61       64.89%       29      30.85%   Extra-Large
Virginia – Western               31            5     16.13%        7       22.58%       19      61.29%      Small
Washington – Eastern             12            0      0.00%        8       66.67%        4      33.33%     Medium
Washington – Western             65            5      7.69%       36       55.38%       24      36.92%      Large
West Virginia – Northern         11            0      0.00%       10       90.91%        1      9.09%       Small


                                                      - 119 -
                                                                                                     APPENDIX XVIII

                                                        CIVIL RIGHTS CASEWORK
                                       MATTERS                        (As of September 30, 2007)
                                                                                                                   DISTRICT
         DISTRICT                      REFERRED      NUMBER       %      NUMBER        %        NUMBER      %
                                                                                                                     SIZE
                                     FYs 2003-2007    FILED     FILED   DECLINED DECLINED PENDING        PENDING
West Virginia – Southern                   92           2       2.17%       73       79.35%       17      18.48%    Medium
Wisconsin – Eastern                        34           5      14.71%       24       70.59%        5      14.71%    Medium
Wisconsin – Western                        12           0       0.00%        7       58.33%        5      41.67%     Small
Wyoming                                     1           0       0.00%        1      100.00%        0      0.00%      Small
Source: OIG analysis of LIONS data




                                                                - 120 -
                                                                                             APPENDIX XIX


                                    ALL OTHER CRIMINAL CASEWORK
                                   FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                        (As of September 30, 2007)
                                                                                                      DISTRICT
      DISTRICT            REFERRED      NUMBER   PERCENT    NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                        SIZE
                        FYs 2003-2007    FILED    FILED    DECLINED DECLINED PENDING        PENDING
Alabama – Middle              685         190     27.74%       110      16.06%       385     56.20%      Small
Alabama – Northern           1,037        370     35.68%       176      16.97%       491     47.35%      Large
Alabama – Southern            425         200     47.06%       124      29.18%       101     23.76%      Small
Alaska                        837         185     22.10%       241      28.79%       411     49.10%      Small
Arizona                      3,333       1,437    43.11%       622      18.66%      1,274    38.22%   Extra-Large
Arkansas – Eastern            723         311     43.02%       261      36.10%       151     20.89%     Medium
Arkansas – Western            440         150     34.09%        89      20.23%       201     45.68%      Small
California – Central         5,186       1,613    31.10%       357       6.88%      3,216    62.01%   Extra-Large
California – Eastern         1,910        663     34.71%       331      17.33%       916     47.96%      Large
California – Northern        2,279        575     25.23%       454      19.92%      1,250    54.85%   Extra-Large
California – Southern        1,192        373     31.29%        62      5.20%        757     63.51%   Extra-Large
Colorado                      965         287     29.74%       240      24.87%       438     45.39%      Large
Connecticut                   712         226     31.74%       231      32.44%       255     35.81%      Large
Delaware                      284          54     19.01%       109      38.38%       121     42.61%      Small
District of Columbia          687         216     31.44%       291      42.36%       180     26.20%   Extra-Large
Florida – Middle             2,562        745     29.08%       979      38.21%       838     32.71%   Extra-Large
Florida – Northern            674         211     31.31%       119      17.66%       344     51.04%     Medium
Florida – Southern           2,778       1,113    40.06%       325      11.70%      1,340    48.24%   Extra-Large
Georgia – Middle             1,325        170     12.83%       117      8.83%       1,038    78.34%     Medium
Georgia – Northern           1,691        444     26.26%       183      10.82%      1,064    62.92%      Large
Georgia – Southern           2,142        266     12.42%       132      6.16%       1,744    81.42%     Medium
Guam                          285         136     47.72%        63      22.11%        86     30.18%      Small
Hawaii                       1,462        164     11.22%       240      16.42%      1,058    72.37%     Medium
Idaho                         658         200     30.40%       255      38.75%       203     30.85%      Small
Illinois – Central            780         571     73.21%       118      15.13%        91     11.67%     Medium
Illinois – Northern          1,487        522     35.10%       373      25.08%       592     39.81%   Extra-Large
Illinois – Southern           409         199     48.66%       133      32.52%        77     18.83%     Medium



                                                      - 121 -
                                                                                              APPENDIX XIX

                                           ALL OTHER CRIMINAL CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                        DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT     NUMBER   PERCENT
                                                                                                          SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING        PENDING
Indiana – Northern               477         233    48.85%       120      25.16%       124     26.00%     Medium
Indiana – Southern               586         253    43.17%       205      34.98%       128     21.84%     Medium
Iowa – Northern                  335         155    46.27%        77      22.99%       103     30.75%      Small
Iowa – Southern                  316         176    55.70%        76      24.05%        64     20.25%      Small
Kansas                           582         341    58.59%       107      18.38%       134     23.02%     Medium
Kentucky – Eastern              1,054        682    64.71%       150      14.23%       222     21.06%     Medium
Kentucky – Western               844         201    23.82%       181      21.45%       462     54.74%     Medium
Louisiana – Eastern              600         213    35.50%       122      20.33%       265     44.17%      Large
Louisiana – Middle               496         252    50.81%        62      12.50%       182     36.69%      Small
Louisiana – Western             3,015        327    10.85%       162       5.37%      2,526    83.78%     Medium
Maine                            353         130    36.83%       143      40.51%        80     22.66%      Small
Maryland                         797         290    36.39%       182      22.84%       325     40.78%      Large
Massachusetts                    956         375    39.23%       205      21.44%       376     39.33%   Extra-Large
Michigan – Eastern              1,374        376    27.37%       250      18.20%       748     54.44%   Extra-Large
Michigan – Western               649         253    38.98%       172      26.50%       224     34.51%     Medium
Minnesota                        521         212    40.69%       165      31.67%       144     27.64%      Large
Mississippi – Northern           324         124    38.27%        97      29.94%       103     31.79%      Small
Mississippi – Southern           945         355    37.57%       126      13.33%       464     49.10%     Medium
Missouri – Eastern              1,291        708    54.84%       288      22.31%       295     22.85%      Large
Missouri – Western              1,152        319    27.69%       231      20.05%       602     52.26%      Large
Montana                          710         400    56.34%       157      22.11%       153     21.55%      Small
Nebraska                         432         228    52.78%        92      21.30%       112     25.93%     Medium
Nevada                          2,426        392    16.16%       266      10.96%      1,768    72.88%      Large
New Hampshire                    444         203    45.72%       121      27.25%       120     27.03%      Small
New Jersey                      1,778        546    30.71%       382      21.48%       850     47.81%   Extra-Large
New Mexico                       855         381    44.56%       265      30.99%       209     24.44%      Large
New York – Eastern              2,855       1,243   43.54%       560      19.61%      1,052    36.85%   Extra-Large
New York – Northern             1,597        540    33.81%       246      15.40%       811     50.78%     Medium
New York – Southern             3,703       1,396   37.70%       616      16.64%      1,691    45.67%   Extra-Large
New York – Western               875         274    31.31%       257      29.37%       344     39.31%      Large
North Carolina - Eastern         965         305    31.61%       426      44.15%       234     24.25%     Medium


                                                       - 122 -
                                                                                               APPENDIX XIX

                                           ALL OTHER CRIMINAL CASEWORK
                             MATTERS                       (As of September 30, 2007)
                                                                                                         DISTRICT
       DISTRICT              REFERRED      NUMBER PERCENT     NUMBER     PERCENT    NUMBER     PERCENT
                                                                                                           SIZE
                           FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING         PENDING
North Carolina – Middle          367         211    57.49%      112       30.52%        44      11.99%      Small
North Carolina – Western         634         279    44.01%      140       22.08%       215      33.91%     Medium
North Dakota                     394         189    47.97%      142       36.04%        63      15.99%      Small
Ohio – Northern                 1,377        435    31.59%      308       22.37%       634      46.04%      Large
Ohio – Southern                 1,486        434    29.21%      197       13.26%       855      57.54%      Large
Oklahoma – Eastern               224          93    41.52%       58       25.89%        73      32.59%      Small
Oklahoma – Northern              302         164    54.30%       68       22.52%        70      23.18%     Medium
Oklahoma – Western              1,402        241    17.19%      162       11.55%       999      71.26%     Medium
Oregon                          1,279        502    39.25%      249       19.47%       528      41.28%      Large
Pennsylvania – Eastern           756         341    45.11%      225       29.76%       190      25.13%   Extra-Large
Pennsylvania – Middle           1,071        419    39.12%      264       24.65%       388      36.23%     Medium
Pennsylvania – Western           897         362    40.36%      405       45.15%       130      14.49%      Large
Puerto Rico                      848         311    36.67%      219       25.83%       318      37.50%      Large
Rhode Island                     227          69    30.40%       97       42.73%        61      26.87%      Small
South Carolina                  1,202        718    59.73%      262       21.80%       222      18.47%      Large
South Dakota                    1,416        644    45.48%      601       42.44%       171      12.08%     Medium
Tennessee – Eastern              884         284    32.13%      152       17.19%       448      50.68%     Medium
Tennessee – Middle               329         118    35.87%      107       32.52%       104      31.61%     Medium
Tennessee – Western              724         437    60.36%      107       14.78%       180      24.86%     Medium
Texas – Eastern                 1,127        554    49.16%      357       31.68%       216      19.17%      Large
Texas – Northern                1,782        818    45.90%      558       31.31%       406      22.78%      Large
Texas – Southern                2,077       1,067   51.37%      397       19.11%       613      29.51%   Extra-Large
Texas – Western                 4,878       1,018   20.87%      466        9.55%      3,394     69.58%   Extra-Large
Utah                            1,058        462    43.67%      239       22.59%       357      33.74%     Medium
Vermont                          182          62    34.07%       75       41.21%        45      24.73%      Small
Virgin Islands                   170          62    36.47%       34       20.00%        74      43.53%      Small
Virginia – Eastern             15,822        829     5.24%      675        4.27%      14,318    90.49%   Extra-Large
Virginia – Western              3,375        321     9.51%      159        4.71%      2,895     85.78%      Small
Washington – Eastern             619         317    51.21%      158       25.53%       144      23.26%     Medium
Washington – Western            3,852        582    15.11%      324        8.41%      2,946     76.48%      Large
West Virginia – Northern         329         126    38.30%      134       40.73%        69      20.97%      Small


                                                       - 123 -
                                                                                                    APPENDIX XIX

                                                 ALL OTHER CRIMINAL CASEWORK
                                   MATTERS                       (As of September 30, 2007)
                                                                                                              DISTRICT
         DISTRICT                  REFERRED      NUMBER PERCENT     NUMBER     PERCENT    NUMBER    PERCENT
                                                                                                                SIZE
                                 FYs 2003-2007    FILED    FILED   DECLINED DECLINED PENDING        PENDING
West Virginia – Southern               567         170    29.98%      212       37.39%       185     32.63%    Medium
Wisconsin – Eastern                    517         204    39.46%      164       31.72%       149     28.82%    Medium
Wisconsin – Western                    432         122    28.24%      124       28.70%       186     43.06%     Small
Wyoming                               3,689        209     5.67%      113        3.06%      3,367    91.27%     Small
Source: OIG analysis of LIONS data




                                                             - 124 -
                                                                                      APPENDIX XX



                             CIVIL MATTERS BY USAO
                        FISCAL YEARS 2003 THROUGH 2007

                          MATTERS                 (As of September 30, 2007)
                                                                                      DISTRICT
       DISTRICT           REFERRED      NUMBER      PERCENT     NUMBER      PERCENT
                                                                                        SIZE
                        FYs 2003-2007    FILED        FILED    PENDING     PENDING
Alabama – Middle             2,363        2,007       84.93%      356        15.07%      Small
Alabama – Northern           5,397        5,161       95.63%      236        4.37%       Large
Alabama – Southern           2,255        2,165       96.01%       90        3.99%       Small
Alaska                        695          543        78.13%      152        21.87%      Small
Arizona                      4,859        3,901       80.28%      958        19.72%   Extra-Large
Arkansas – Eastern           3,912        3,794       96.98%      118        3.02%      Medium
Arkansas – Western           2,456        2,429       98.90%       27        1.10%       Small
California – Central        16,668       14,465       86.78%     2,203       13.22%   Extra-Large
California – Eastern         4,975        4,532       91.10%      443        8.90%       Large
California – Northern        5,754        4,386       76.23%     1,368       23.77%   Extra-Large
California – Southern        4,059        3,224       79.43%      835        20.57%   Extra-Large
Colorado                     5,552        4,856       87.46%      696        12.54%      Large
Connecticut                  5,534        4,897       88.49%      637        11.51%      Large
Delaware                     2,377        2,002       84.22%      375        15.78%      Small
District of Columbia         5,899        4,407       74.71%     1,492       25.29%   Extra-Large
Florida – Middle            17,355       16,402       94.51%      953        5.49%    Extra-Large
Florida – Northern           3,104        2,856       92.01%      248        7.99%      Medium
Florida – Southern          11,832       10,097       85.34%     1,735       14.66%   Extra-Large
Georgia – Middle             2,580        2,462       95.43%      118        4.57%      Medium
Georgia – Northern           7,108        6,164       86.72%      944        13.28%      Large
Georgia – Southern           5,791        5,389       93.06%      402        6.94%      Medium
Guam                          258          182        70.54%       76        29.46%      Small
Hawaii                       1,189         995        83.68%      194        16.32%     Medium
Idaho                        1,272         915        71.93%      357        28.07%      Small
Illinois – Central           2,352        2,262       96.17%       90        3.83%      Medium
Illinois – Northern         11,177       10,281       91.98%      896        8.02%    Extra-Large
Illinois – Southern          2,483        1,791       72.13%      692        27.87%     Medium



                                           - 125 -
                                                                                       APPENDIX XX

                                         CIVIL CASEWORK
                             MATTERS               (As of September 30, 2007)
                                                                                       DISTRICT
   DISTRICT OFFICE           REFERRED      NUMBER    PERCENT     NUMBER      PERCENT
                                                                                         SIZE
                           FYs 2003-2007    FILED      FILED    PENDING     PENDING
Indiana – Northern              3,853        3,728     96.76%      125        3.24%      Medium
Indiana – Southern              5,623        5,325     94.70%      298        5.30%      Medium
Iowa – Northern                 2,411        2,093     86.81%      318        13.19%      Small
Iowa – Southern                 2,523        2,371     93.98%      152        6.02%       Small
Kansas                          6,167        5,976     96.90%      191        3.10%      Medium
Kentucky – Eastern              7,267        6,817     93.81%      450        6.19%      Medium
Kentucky – Western              4,810        4,469     92.91%      341        7.09%      Medium
Louisiana – Eastern             2,481        2,135     86.05%      346        13.95%      Large
Louisiana – Middle              1,280         993      77.58%      287        22.42%      Small
Louisiana – Western             3,857        3,680     95.41%      177        4.59%      Medium
Maine                           1,541        1,352     87.74%      189        12.26%      Small
Maryland                        4,912        3,889     79.17%     1,023       20.83%      Large
Massachusetts                   4,114        3,402     82.69%      712        17.31%   Extra-Large
Michigan – Eastern              6,065        5,271     86.91%      794        13.09%   Extra-Large
Michigan – Western              2,904        2,686     92.49%      218        7.51%      Medium
Minnesota                       3,836        3,419     89.13%      417        10.87%      Large
Mississippi – Northern          1,536        1,398     91.02%      138        8.98%       Small
Mississippi – Southern          1,854        1,659     89.48%      195        10.52%     Medium
Missouri – Eastern              2,834        2,347     82.82%      487        17.18%      Large
Missouri – Western              4,052        3,728     92.00%      324        8.00%       Large
Montana                         1,226        1,119     91.27%      107        8.73%       Small
Nebraska                        2,230        1,971     88.39%      259        11.61%     Medium
Nevada                          1,801        1,230     68.30%      571        31.70%      Large
New Hampshire                   1,171         983      83.95%      188        16.05%      Small
New Jersey                     12,216       10,930     89.47%     1,286       10.53%   Extra-Large
New Mexico                      3,258        3,059     93.89%      199        6.11%       Large
New York – Eastern             11,196       10,727     95.81%      469        4.19%    Extra-Large
New York – Northern             5,789        5,554     95.94%      235        4.06%      Medium
New York – Southern             8,731        7,231     82.82%     1,500       17.18%   Extra-Large
New York – Western              6,905        6,294     91.15%      611        8.85%       Large
North Carolina - Eastern        4,987        4,639     93.02%      348        6.98%      Medium


                                              - 126 -
                                                                                     APPENDIX XX

                                       CIVIL CASEWORK
                           MATTERS               (As of September 30, 2007)
                                                                                     DISTRICT
    DISTRICT OFFICE        REFERRED      NUMBER    PERCENT     NUMBER      PERCENT
                                                                                       SIZE
                         FYs 2003-2007    FILED      FILED    PENDING     PENDING
North Carolina – Middle       1,753        1,615     92.13%      138         7.87%      Small
North Carolina – Western      1,940        1,569     80.88%      371        19.12%     Medium
North Dakota                   972          896      92.18%       76        7.82%       Small
Ohio – Northern              14,920       12,125     81.27%     2,795       18.73%      Large
Ohio – Southern              12,144       10,991     90.51%     1,153       9.49%       Large
Oklahoma – Eastern            1,709        1,655     96.84%       54        3.16%       Small
Oklahoma – Northern           2,565        2,408     93.88%      157        6.12%      Medium
Oklahoma – Western            5,267        4,892     92.88%      375        7.12%      Medium
Oregon                        5,001        4,572     91.42%      429        8.58%       Large
Pennsylvania – Eastern        4,855        4,195     86.41%      660        13.59%   Extra-Large
Pennsylvania – Middle         5,073        4,122     81.25%      951        18.75%     Medium
Pennsylvania – Western        6,060        5,617     92.69%      443        7.31%       Large
Puerto Rico                   4,210        3,504     83.23%      706        16.77%      Large
Rhode Island                   912          734      80.48%      178        19.52%      Small
South Carolina               10,670        9,031     84.64%     1,639       15.36%      Large
South Dakota                  1,286        1,092     84.91%      194        15.09%     Medium
Tennessee – Eastern           2,514        2,352     93.56%      162        6.44%      Medium
Tennessee – Middle            1,545        1,337     86.54%      208        13.46%     Medium
Tennessee – Western           3,756        3,555     94.65%      201        5.35%      Medium
Texas – Eastern               5,253        5,088     96.86%      165        3.14%       Large
Texas – Northern              7,546        6,423     85.12%     1,123       14.88%      Large
Texas – Southern             10,044        9,123     90.83%      921        9.17%    Extra-Large
Texas – Western               8,806        7,487     85.02%     1,319       14.98%   Extra-Large
Utah                          1,706        1,368     80.19%      338        19.81%     Medium
Vermont                       1,228        1,018     82.90%      210        17.10%      Small
Virgin Islands                 317          242      76.34%       75        23.66%      Small
Virginia – Eastern            6,474        5,198     80.29%     1,276       19.71%   Extra-Large
Virginia – Western            2,802        2,726     97.29%       76        2.71%       Small
Washington – Eastern          1,772        1,587     89.56%      185        10.44%     Medium
Washington – Western          5,422        4,925     90.83%      497        9.17%       Large
West Virginia – Northern      1,348        1,214     90.06%      134        9.94%       Small


                                            - 127 -
                                                                                            APPENDIX XX

                                               CIVIL CASEWORK
                                   MATTERS              (As of September 30, 2007)
                                                                                            DISTRICT
         DISTRICT                  REFERRED      NUMBER   PERCENT     NUMBER      PERCENT
                                                                                              SIZE
                                 FYs 2003-2007    FILED     FILED    PENDING     PENDING
West Virginia – Southern              2,324       2,101     90.40%      223         9.60%     Medium
Wisconsin – Eastern                   6,017       5,791     96.24%      226        3.76%      Medium
Wisconsin – Western                   3,018       2,703     89.56%      315        10.44%      Small
Wyoming                                623         535      85.87%       88        14.13%      Small
Source: OIG analysis of LIONS data




                                                   - 128 -
                                                        APPENDIX XXI



                        CASELOADS PER ATTORNEY FTE

            CRIMINAL AND CIVIL CASELOADS PER ATTORNEY FTE
                      FISCAL YEARS 2003 AND 2007
                               CRIMINAL             CIVIL         DISTRICT
       DISTRICT
                           FY 2003  FY 2007   FY 2003   FY 2007      SIZE
Alabama – Middle            16.21    18.93     103.45    97.37       Small
Alabama – Northern          13.78    13.63     77.27     86.50       Large
Alabama – Southern          14.31    23.20     76.93     64.16       Small
Alaska                      11.32     7.21     34.93     36.20       Small
Arizona                     37.55    55.63     48.33     71.83    Extra-Large
Arkansas – Eastern          14.18    25.35     727.14    112.36     Medium
Arkansas – Western          14.74    19.69     206.13    97.49       Small
California – Central        13.18    18.20     83.36     79.17    Extra-Large
California – Eastern        26.49    27.60     65.76     78.42       Large
California – Northern       18.49    18.66     48.23     53.32    Extra-Large
California – Southern       25.19    29.30     36.85     37.00    Extra-Large
Colorado                    17.49    16.04     62.01     97.93       Large
Connecticut                  9.64    10.05     138.86    79.80       Large
Delaware                    11.76    16.75     199.29    378.61      Small
District of Columbia         3.45     3.01     44.59     43.36    Extra-Large
Florida – Middle            21.12    24.29     210.46    294.58   Extra-Large
Florida – Northern          13.99    15.93     103.81    115.22     Medium
Florida – Southern          21.48    23.89     139.46    83.48    Extra-Large
Georgia – Middle            14.86    19.38     76.00     73.36      Medium
Georgia – Northern          14.04    13.42     77.47     72.39       Large
Georgia – Southern          12.86    17.49     69.42     68.27      Medium
Guam                        24.37    28.59     58.61     39.90       Small
Hawaii                      24.58    15.23     76.66     57.77      Medium
Idaho                       15.15    13.43     31.06     36.07       Small
Illinois – Central          30.26    22.03     89.20     102.83     Medium
Illinois – Northern         12.97    13.68     183.98    175.89   Extra-Large
Illinois – Southern          9.92    10.12     53.06     58.40      Medium
Indiana – Northern          12.42    17.66     95.08     100.96     Medium
Indiana – Southern          10.60    10.24     148.34    162.13     Medium
Iowa – Northern             24.84    16.90     86.76     106.61      Small
Iowa – Southern             16.84    27.26     64.06     86.56       Small
Kansas                      23.60    30.21     75.10     72.16      Medium
Kentucky – Eastern          12.88    12.58     169.54    154.61     Medium
Kentucky – Western          11.70    16.61     109.95    98.72      Medium
Louisiana – Eastern          8.79    12.34     46.42     50.86       Large
Louisiana – Middle          21.57    21.64     53.45     58.69       Small
Louisiana – Western         10.32    13.19     71.42     73.36      Medium
Maine                       11.26     8.92     102.01    95.67       Small
Maryland                    12.15    13.66     108.77    115.78      Large
Massachusetts                9.59     9.59     50.05     82.02    Extra-Large



                                    - 129 -
                                                        APPENDIX XXI


           CRIMINAL AND CIVIL CASELOADS PER ATTORNEY FTE
                     FISCAL YEARS 2003 AND 2007
                               CRIMINAL             CIVIL         DISTRICT
       DISTRICT
                           FY 2003  FY 2007   FY 2003   FY 2007      SIZE
Michigan – Eastern          13.43    12.43     57.03     66.69    Extra-Large
Michigan – Western          11.15    15.00     299.61    256.78     Medium
Minnesota                   12.71    17.15     61.00     66.00       Large
Mississippi – Northern       8.89    13.84     45.06     48.66       Small
Mississippi – Southern      16.30    16.42     54.32     62.83      Medium
Missouri – Eastern          13.76    15.09     46.57     61.24       Large
Missouri – Western          15.48    18.58     68.92     53.58       Large
Montana                     26.19    25.01     54.83     39.27       Small
Nebraska                    32.89    30.98     43.84     45.97      Medium
Nevada                      29.61    24.48     42.93     46.72       Large
New Hampshire               15.70    19.28     28.61     30.00       Small
New Jersey                  11.42    12.64     262.80    386.91   Extra-Large
New Mexico                  33.70    35.36     61.33     45.45       Large
New York – Eastern          20.56    29.64     123.09    121.32   Extra-Large
New York – Northern         19.78    20.73     288.86    447.34     Medium
New York – Southern         24.45    30.63     123.94    96.12    Extra-Large
New York – Western          13.58    16.39     225.56    308.06      Large
North Carolina - Eastern    16.47    19.19     115.46    118.12     Medium
North Carolina – Middle     12.47    19.28     77.49     62.06       Small
North Carolina – Western    20.03    39.44     64.97     44.66      Medium
North Dakota                10.56    12.40     67.57     33.53       Small
Ohio – Northern              9.15     9.67     182.04    248.83      Large
Ohio – Southern             11.31    13.67     152.87    249.80      Large
Oklahoma – Eastern          10.62     6.69     155.93    89.22       Small
Oklahoma – Northern         10.82     9.47     86.69     129.67     Medium
Oklahoma – Western           7.39     9.80     102.52    41.94      Medium
Oregon                      25.87    26.65     79.07     108.48      Large
Pennsylvania – Eastern      10.62    11.65     55.82     49.54    Extra-Large
Pennsylvania – Middle       21.19    28.85     130.59    53.35      Medium
Pennsylvania – Western      14.57    19.32     190.78    71.76       Large
Puerto Rico                 12.55    17.04     116.63    79.52       Large
Rhode Island                 6.61     6.15     79.38     129.83      Small
South Carolina              28.32    30.03     158.84    186.79      Large
South Dakota                14.71    21.73     48.38     50.26      Medium
Tennessee – Eastern         18.00    16.85     231.24    249.80     Medium
Tennessee – Middle          21.89    16.06     164.85    72.97      Medium
Tennessee – Western         20.60    26.92     98.63     134.82     Medium
Texas – Eastern             15.27    19.37     130.77    91.63       Large
Texas – Northern            19.59    15.99     55.53     53.37       Large
Texas – Southern            37.59    40.31     83.64     174.11   Extra-Large
Texas – Western             44.87    50.74     137.89    179.90   Extra-Large
Utah                        25.11    27.84     38.06     43.44      Medium
Vermont                     18.47    23.26     36.14     32.08       Small
Virgin Islands              10.04    14.61     55.73     62.43       Small



                                    - 130 -
                                                        APPENDIX XXI


           CRIMINAL AND CIVIL CASELOADS PER ATTORNEY FTE
                     FISCAL YEARS 2003 AND 2007
                               CRIMINAL             CIVIL         DISTRICT
       DISTRICT
                           FY 2003  FY 2007   FY 2003   FY 2007      SIZE
Virginia – Eastern          11.71    12.20     34.81     26.69    Extra-Large
Virginia – Western          19.02    18.08     215.64    98.61       Small
Washington – Eastern        30.92    29.74     85.25     52.92      Medium
Washington – Western        11.23    13.50     133.68    102.57      Large
West Virginia – Northern     9.91    24.39     63.20     68.35       Small
West Virginia – Southern    10.69     9.23     118.49    104.96     Medium
Wisconsin – Eastern         10.61    14.59     125.60    145.44     Medium
Wisconsin – Western         11.24    11.14     108.09    188.85      Small
Wyoming                     18.22    17.02     58.50     69.90       Small




                                    - 131 -
                                                                   APPENDIX XXII

        EXECUTIVE OFFICE FOR U.S. ATTORNEYS RESPONSE

                                                           U.S. Department of Justice

                                                           Executive Office for United States Attorneys
                                                           Office of the Director


                                               Main Justice Building, Room 2261             (202) 514-2121
                                               950 Pennsylvania Avenue, NW
                                               Washington, DC 20530




MEMORANDUM

DATE:        October 16, 2008

TO:                 Raymond J. Beaudet
             Assistant Inspector General for Audit



FROM:        Kenneth E. Melson
             Director
             Executive Office for United States Attorneys

SUBJECT:     Response to OIG’s Report Entitled: Resource Management of United States
             Attorneys’ Offices

      This memorandum is submitted by the Executive Office for United States
Attorneys (EOUSA) in response to the audit report by the Office of Inspector General
(OIG) entitled, “Resource Management of United States Attorneys’ Offices.”

        EOUSA appreciates the significant work and effort that the OIG put into this
review, as well as the important issues addressed in the report. American taxpayers have
a right to the continued efficient and effective use of funds when it comes to the
enforcement of federal criminal and civil laws. It is in this spirit that EOUSA has
reviewed the OIG’s report and accepts, and will endeavor to carry out to the best of its
ability, OIG’s recommendations.




                                           - 132 -
                                                                   APPENDIX XXII
      As an initial matter, it is important to note the unique nature of the relationship
between EOUSA and the United States Attorneys’ Offices (USAOs), and the status of
EOUSA/USAO as a component within the Department of Justice.

       Unlike most other DOJ components, EOUSA and the USAOs do not constitute a
single hierarchical organization with a headquarters office directing policy decisions and
resource management. Rather, each United States Attorney (USA) is the chief law
enforcement officer in his or her district. Each USA, unless serving in an acting or
interim capacity, is appointed by the President and confirmed by the Senate. As a holder
of high office, the USA is afforded significant discretion to manage his or her office
according to locally perceived priorities and needs, albeit within the umbrella of
overarching Departmental priorities. The 94 USAOs vary in size from 20 employees to
over 800 employees. Each office has a unique identity and local “office cultures” vary
greatly.

       It is in this context that EOUSA interacts with the USAOs to “[p]rovide general
executive assistance and supervision to the offices of the U.S. Attorneys.” 28 C.F.R. §
0.22. A primary part of EOUSA’s role is to allocate to each USAO its annual resources
and budget. When allocating new FTE among USAOs, EOUSA makes its own initial
assessment based on case data, USA-5 data, and other factors. But EOUSA has sought,
and will continue to seek, input from the United States Attorneys as part of the resource
allocation process.

        EOUSA can and does track both the allocation of resources to USAOs, as well as
the utilization of those resources by individual USAOs. The re-allocation of resources
from one USAO to another, that is, moving FTEs from one office to another, has
traditionally proven difficult to effect, given the desire by individual USAs to maintain or
increase, but not to decrease, the level of FTEs within that office.

        As the OIG report noted, EOUSA has taken recent, further steps to effectuate
more flexible resource allocation. In particular, EOUSA has allocated most of the
Congressionally authorized FY 2008 FTE in the form of two-year term positions.
EOUSA will assess the effectiveness of these term positions at the close of FY 2009 and
2010. The USAOs will be on notice that if these positions are better utilized in other
districts, they are subject to removal. We note that, while term positions form part of the
solution for more flexible resource allocation, term positions are not without drawbacks,
as they can create significant tension within a small office as the term position
incumbents vie for permanent slots.

        The report also states that several districts exceeded their annual FTE allocation.
We note that virtually all of these cases arose as a result of EOUSA’s policy that allowed
districts to hire a full time, permanent employee to replace employees who were placed
on temporary details. These new hires were subjected to a “next vacancy” provision,

                                             - 133 -
                                                                     APPENDIX XXII
which meant that the district would be allowed to exceed its allocation until the next
attorney vacancy occurred in the district.

        Over the past few years, EOUSA has generally avoided the use of “next vacancy”
slots and, instead, provides term attorney positions to fill vacancies created by temporary
details. This policy has reduced the likelihood that districts will exceed their allocations
for a significant period of time.

       With regard to OIG’s findings concerning deficiencies in the USA-5 time system
and the LIONS data system, EOUSA welcomes this review as an opportunity to make
improvements in these areas. Better and more frequent data entry at the USAO level will
enhance the reliability of the data.

        While better data is a key factor in better resource allocation, it is also important to
note the sensitivities surrounding the use of “matters investigated” and “cases filed” as a
measure of efficiency and productivity in a USAO. The investigation of cases and the
filing of charges is indeed an objective measure of work done in a USAO, and such
statistics will continue to form an important part of how resources are allocated.
However, case statistics can never form the ultimate criteria for resource allocation
because the goal of a USAO and the Department of Justice is to do justice, and it may be
that not filing a case or forbearing from taking action is the appropriate course in any
given case. Too much emphasis on case filings alone may lead to a charge of “bounty
hunting.” Thus, EOUSA will appropriately balance case statistics with other measures,
including time spent as billed under the USA-5 system, to evaluate resource allocation.

Recommendations

        EOUSA will endeavor to implement all of the below recommendations to the best
of its ability. We believe that each of the recommendations is intended to help enhance
EOUSA’s ability to better identify trends in resource utilization, and thereby allow
EOUSA to better allocate those resources. In some cases the recommendation will be
relatively simple to implement, and we hope such recommendations will prove effective.
In other cases, as discussed below, the recommendation will likely prove more
challenging to implement.

1.     Establish a standardized process for tracking time to cases involving multiple
       offenses to more accurately reflect attorney utilization.

     EOUSA agrees that implementation of such a system as envisioned in this
recommendation could advance EOUSA’s ability to identify actual resource utilization.

                                               - 134 -
                                                                 APPENDIX XXII
However, parsing out the amount time that should be attributed to a particular issue or
count in an investigation, indictment, or trial is not without its complexities. For
instance, time spent investigating underlying facts that ultimately lead to a firearms,
narcotics, and immigration charge in a single case might, in hindsight, be billed to all
three areas of time equally. But should the time be billed before knowing what the
ultimate charges will be? While a system delineating such determinations can be created
and implemented, it must be simple and not unduly complicated or it will not be utilized.
Such simplification will likely reduce its accuracy. EOUSA is presently assessing the
best way to carry out this recommendation.

2.    Implement a policy requiring USAO personnel to record time in the USA-5 system
      on at least a weekly basis, as well as to record all time to a USA-5A category
      when such a category is available.

       EOUSA agrees that more timely entry of data into the USA-5 system will improve
the accuracy and utility of the USA-5 data. EOUSA would like to receive and assess
feedback from the USAOs as to how often AUSAs will realistically input their time into
the USA-5 system. EOUSA agrees to make recording of time in the USA-5A system
mandatory.

3.    Develop a more user friendly electronic form for USAO personnel to report their
      time in the USA05 system.

       EOUSA agrees to develop and implement a more user friendly electronic form for
entry of time into the USA-5 system.

4.    Implement a standardized approach among USAOs for categorizing cases within
      LIONS and the USAOs’ new case management system - Litigation Case
      Management System.

       EOUSA will endeavor to implement this recommendation, although it is
inherently difficult to carry out. EOUSA already has numerous, well defined LIONS
program category codes. Each USAO currently applies the same LIONS program
category code definitions. Application of these codes to individual cases, however,
necessarily requires some degree of interpretation. There are legitimate disagreements as
to whether a particular code does or does not apply to a given case. For instance, should
a case that prosecutes hacking into a university computer system be labeled as a
“computer fraud” case or a “national security/critical infrastructure” case? Should a case
against an alien entering the country with drugs be labeled as a narcotics case or an
immigration case? The USAOs are presently permitted to label cases with up to three

                                         - 135 -
                                                                  APPENDIX XXII
different LIONS codes. EOUSA will, in any event, attempt to delineate a default coding
for those commonly charged cases where coding issues might arise.

5.     Ensure that “reopened” cases are not reflected in the statistical reports in the
       fiscal years in which the cases were reopened.

       EOUSA agrees to ensure that reopened cases are not reflected in the statistical
reports in the fiscal years in which the cases were reopened.

6.     More closely monitor the casework data transmitted by USAOs to ensure it is
       accurate and complete.

    EOUSA agrees to more closely monitor the LIONS casework transmitted by
USAOs to ensure it is accurate and complete.

7.     Re-emphasize to the USAOs the importance of utilization and casework data, how
       the data is used, and the necessity of accurately capturing this data.

      EOUSA agrees to re-emphasize to the USAOs the importance of utilization and
casework data, how the data is used, and the necessity of accurately capturing this data.

8.     Examine the current staffing levels of USAOs, and develop methods to reallocate
       resources among USAOs.

        EOUSA is in the process of examining the current staffing levels of USAOs, and
will continue to do so. EOUSA will also endeavor to implement to the best of its ability
the recommendation to develop a method to reallocate resources among USAOs. This
latter recommendation is inherently difficult, however, as the report makes clear, given
the reluctance of individual USAOs to part with FTE.

9.     Perform comprehensive assessments on a regular basis of the number of attorneys
       utilized on specific types of matters within each USAO, including a comparison to
       where the resources were allocated.




                                         - 136 -
                                                                  APPENDIX XXII

       EOUSA has begun the process of creating program assessments for key program
areas that would review attorney utilization, as measured by USA-5 time as well as other
factors. EOUSA expects to produce assessment results at the end of the current fiscal
year. In anticipation of these assessments, as they relate to the new term positions that
have been allocated, USAOs will be on notice of the criteria on which the new positions
will be assessed. Each program area will be assessed according to specific criteria.
Some areas, such as immigration prosecutions, will rely on traditional factors such as
time according to USA-5 as well as cases filed, according to LIONS. Other areas, such
as health care fraud, will not utilize a “cases filed” measure, because such measures are
not relevant for prosecutions that typically take years to build.


10.   Ensure that a comprehensive review of each USAO’s casework is performed
      annually, including a comparison of data maintained in individual LIONS
      databases to the information reflected in the National LIONS.

       EOUSA understands that the data in the LIONS database needs to be as reliable
and accurate as possible. EOUSA agrees to look for ways to increase the effectiveness
and comprehensiveness of case data reviews, which are presently undertaken bi-annually
by each USAO. EOUSA staff does not and cannot review the LIONS entries from
individual districts to compare them to data entries in the national LIONS. In FY 2008,
there were well over 300,000 civil and criminal case and matter entries within the
national LIONS system. It simply is not feasible for EOUSA staff to review these entries
individually.

        EOUSA continues to closely investigate the results of the 50 case survey that is
the subject of the discussion on pages 40 and 41 in the report. As indicated in the report,
EOUSA did identify a problem with the transmission of case data during the last 12 hours
of a given fiscal year and the first 12 hours of the subsequent fiscal year. That issue
affects a very limited number of cases and EOUSA has now solved the problem going
forward. More importantly, EOUSA does not now believe that this data transmission
issue affected any of the 50 cases involved in the survey and discussed in the text.
Rather, EOUSA is currently investigating a basic premise of the 50 case survey, namely,
whether the cases chosen by OIG were in fact reported as pending in national LIONS.
As part of the survey, districts were told that certain cases were showing as pending in
national LIONS. These cases were pulled from the “raw data” in the national LIONS
system, but may not have been reported as pending in national LIONS due to the
operation of certain business rules within the LIONS system. Some districts reported that
these cases were showing in their local LIONS database as closed, not pending. If,
however, the case was not in fact reported as pending in national LIONS, then the results
of the survey would need to be re-assessed. EOUSA will report further to OIG once it
has had a complete opportunity to review the data used for the survey. EOUSA will



                                         - 137 -
                                                                APPENDIX XXII

work assiduously to eliminate any data discrepancies that it can confirm in the LIONS
system.




                                        - 138 -
                                                      APPENDIX XXIII



  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

       The OIG provided a draft of this audit report to EOUSA. EOUSA’s
response is incorporated as Appendix XXII of this final report. EOUSA stated
that it agreed with all 10 of our recommendations. Based on EOUSA’s
response, the OIG considers the report resolved. The OIG’s analysis and
summary of actions necessary to close the report is presented below.

Status of Recommendations

1.   Resolved. EOUSA concurred with our recommendation to establish a
     standardized process for recording time to cases involving multiple
     offenses to more accurately reflect attorney utilization. Specifically,
     EOUSA stated that implementing this recommendation could advance
     its ability to identify actual resource utilization data. However, EOUSA
     also stated that attorneys are not always able to record time to various
     prosecutorial areas because the ultimate charges on cases are not
     always defined when the attorneys begin working on the matters. As
     a result, EOUSA stated that it is continuing to assess the best way to
     implement this recommendation.

      To close this recommendation, please provide us with EOUSA’s plans
      to develop a standardized process for recording time to multiple
      offenses. In addition, once developed, please provide evidence that
      the process has been implemented and the USAOs have been trained
      on this new process.

2.    Resolved. EOUSA concurred with our recommendation to implement
      a policy requiring USAO personnel to record time in the USA-5 system
      on at least a weekly basis, as well as to record all time to a USA-5A
      category when such a category is available. EOUSA stated that
      requiring more timely entry of data into the USA-5 system will
      improve the accuracy and utility of utilization data. To assist in
      establishing such a requirement, EOUSA stated that it intends to
      obtain feedback from the USAOs to determine how often AUSAs
      should input their time into the USA-5 system. EOUSA further stated
      that it will make recording of time to a USA-5A category mandatory.

      To close this recommendation, please provide evidence that a policy
      requiring USAO personnel to record time on at least a weekly basis
      has been implemented and communicated to the USAOs. Further,
      please provide documentation that all personnel have been informed


                                  - 139 -
                                                       APPENDIX XXIII


     that the use of the USA-5A categories is mandatory and evidence that
     the use of the USA-5A categories has increased.

3.   Resolved. EOUSA concurred with our recommendation to develop a
     more user-friendly electronic form for USAO personnel to report their
     time in the USA-5 system.

     To close this recommendation, please provide us with the new, more
     user-friendly electronic USA-5 form and evidence that the new form is
     being used throughout the USAOs.

4.   Resolved. EOUSA concurred with our recommendation to implement
     a standardized approach among USAOs for categorizing cases within
     LIONS and the USAOs’ new case management system – Litigation
     Case Management System. EOUSA stated that each USAO currently
     uses the same LIONS program category code definitions and that
     each USAO can currently categorize a case with up to three different
     LIONS codes. However, EOUSA further stated that it will be difficult
     to fully implement a standardized process because the categorization
     of cases requires some degree of interpretation. Nonetheless, EOUSA
     stated that it would attempt to develop a standardized categorization
     scheme for those commonly charged cases where coding issues might
     arise.

     To close this recommendation, please provide documentation that
     shows EOUSA’s identification of cases in which coding issues
     commonly arise. In addition, please provide documentation
     explaining how these cases should be coded and evidence that this
     information has been disseminated to each USAO.

5.   Resolved. EOUSA concurred with our recommendation to ensure
     that “reopened” cases are not reflected in the statistical reports in the
     fiscal years in which the cases were reopened. To close this
     recommendation, please provide evidence that a process has been
     developed and implemented that prevents reopened cases from being
     included as new case filings in the fiscal years in which the cases were
     reopened.

6.   Resolved. EOUSA concurred with our recommendation to more
     closely monitor the LIONS casework transmitted by USAOs to ensure
     that it is accurate and complete. To close this recommendation,
     please provide documentation detailing EOUSA’s process of
     monitoring LIONS casework data transmitted by USAOs, which should
     include an assessment of information contained in mandatory fields,


                                  - 140 -
                                                      APPENDIX XXIII


     as well as an evaluation on the completeness of data provided by
     each USAO.

7.   Resolved. EOUSA concurred with our recommendation to re-
     emphasize to the USAOs the importance of utilization and casework
     data, how the data is used, and the necessity of accurately capturing
     this data. To close this recommendation, please provide evidence
     that USAOs have been notified about the uses of USAO utilization and
     casework data and instructed on the importance of accurately
     reporting this information.

8.   Resolved. EOUSA concurred with our recommendation to examine
     the current staffing levels of USAOs and develop methods to
     reallocate resources among USAOs. In its response, EOUSA stated
     that it is currently examining and will continue to examine the current
     staffing levels of USAOs. EOUSA also commented that it will attempt
     to develop, to the best of its ability, a method for reallocating
     resources among USAOs.

     To close this recommendation, please provide evidence of EOUSA’s
     efforts to examine the staffing levels of USAOs. In addition, please
     provide documentation on EOUSA’s efforts to develop methods for
     reallocating USAO resources, as well as the results of any reallocation
     implementation efforts.

9.   Resolved. EOUSA concurred with our recommendation to perform
     regular, comprehensive assessments of the number of attorneys
     utilized on specific types of matters within each USAO, including a
     comparison to where the resources were allocated. EOUSA stated
     that it has begun creating a process for reviewing attorney resource
     utilization in key program areas. EOUSA further stated that this
     process includes the use of USA-5 data and other factors in making its
     assessment and expects to have the results of these assessments by
     the end of FY 2009. In addition, EOUSA stated that each USAO will
     be informed of the criteria for which new positions will be assessed
     and that the criteria will vary depending on the particular program
     area.

     To close this recommendation, please provide evidence of the
     attorney utilization assessments being performed by EOUSA, including
     the assessment results, once available, and any corrective actions
     taken based upon these results. In addition, please provide
     documentation of the specific criteria used for allocating new positions
     to USAOs during FY 2009.


                                  - 141 -
                                                      APPENDIX XXIII



10.   Resolved. EOUSA concurred with our recommendation to ensure
      that a comprehensive review of each USAO’s casework is performed
      annually, including a comparison of the data maintained in individual
      district LIONS databases to the information reflected in the National
      LIONS. EOUSA stated that it will endeavor to develop processes for
      increasing the effectiveness and comprehensiveness of case data
      reviews, which are currently performed biannually by each USAO.
      EOUSA stated, however, that it does not and cannot review individual
      data records in local district LIONS databases for comparison to those
      records maintained in the National LIONS because the universe of
      records is too voluminous. EOUSA further commented that it is
      continuing to review the 50 pending matters that were discussed in
      Chapter 4 of our report. In particular, EOUSA stated that it is
      reviewing the matters to determine the cause of the data
      discrepancies identified during our review, will further report to the
      OIG once it completes this review, and will then take necessary
      corrective action to resolve the problems.

      To close this recommendation, please provide evidence that EOUSA is
      performing comprehensive casework reviews of each USAO, including
      the number and types of cases handled by individual USAOs, as well
      as the processes developed for improving the effectiveness and
      comprehensiveness of the case data reviews. Additionally, please
      provide information on EOUSA’s efforts to develop a feasible process
      to compare data maintained in individual district LIONS databases to
      the information reflected in the National LIONS, possibly on a sample
      basis. Further, please provide an update on EOUSA’s review of our
      sample of 50 pending matters, including the causes of the identified
      data discrepancies and any corrective actions taken.




                                  - 142 -
